<html>
<title> - STATE APPROVING AGENCIES</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                        STATE APPROVING AGENCIES

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 19, 2007

                               __________

                           Serial No. 110-15

                               __________

       Printed for the use of the Committee on Veterans' Affairs



                    U.S. GOVERNMENT PRINTING OFFICE
35-634                      WASHINGTON : 2008
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                     COMMITTEE ON VETERANS' AFFAIRS

                    BOB FILNER, California, Chairman

CORRINE BROWN, Florida               STEVE BUYER, Indiana, Ranking
VIC SNYDER, Arkansas                 CLIFF STEARNS, Florida
MICHAEL H. MICHAUD, Maine            JERRY MORAN, Kansas
STEPHANIE HERSETH SANDLIN, South     RICHARD H. BAKER, Louisiana
Dakota                               HENRY E. BROWN, Jr., South 
HARRY E. MITCHELL, Arizona           Carolina
JOHN J. HALL, New York               JEFF MILLER, Florida
PHIL HARE, Illinois                  JOHN BOOZMAN, Arkansas
MICHAEL F. DOYLE, Pennsylvania       GINNY BROWN-WAITE, Florida
SHELLEY BERKLEY, Nevada              MICHAEL R. TURNER, Ohio
JOHN T. SALAZAR, Colorado            BRIAN P. BILBRAY, California
CIRO D. RODRIGUEZ, Texas             DOUG LAMBORN, Colorado
JOE DONNELLY, Indiana                GUS M. BILIRAKIS, Florida
JERRY McNERNEY, California           VERN BUCHANAN, Florida
ZACHARY T. SPACE, Ohio
TIMOTHY J. WALZ, Minnesota

                   Malcom A. Shorter, Staff Director

                                 ______

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

          STEPHANIE HERSETH SANDLIN, South Dakota, Chairwoman

JOE DONNELLY, Indiana                JOHN BOOZMAN, Arkansas, Ranking
JERRY McNERNEY, California           RICHARD H. BAKER, Louisiana
JOHN J. HALL, New York               JERRY MORAN, Kansas

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________

                             April 19, 2007

                                                                   Page
State Approving Agencies.........................................     1

                           OPENING STATEMENTS

Chairwoman Stephanie Herseth Sandlin.............................     1
    Prepared statement of Chairwoman Herseth Sandlin.............    29
Hon. John Boozman, Ranking Republican Member.....................     2
    Prepared statement of Congressman Boozman....................    29

                               WITNESSES

U.S. Government Accountability Office, George A. Scott, Director, 
  Education, Workforce and Income Security Issues................     4
    Prepared statement of Mr. Scott..............................    30
U.S. Department of Labor, John M. McWilliam, Deputy Assistant 
  Secretary for Operations and Management, Veterans' Employment 
  and Training Service...........................................    20
    Prepared statement of Mr. McWilliam..........................    49
U.S. Department of Education, Carol A. Griffiths, Chief, 
  Accrediting Agency Evaluation Unit, Office of Postsecondary 
  Education......................................................    21
    Prepared statement of Ms. Griffiths..........................    50
U.S. Department of Veterans Affairs, Keith M. Wilson, Director, 
  Education Service, Veterans Benefits Administration............    22
    Prepared statement of Mr. Wilson.............................    52

                                 ______

National Association of State Approving Agencies, Joan L. Ryan, 
  President......................................................     6
    Prepared statement of Ms. Ryan...............................    36
South Dakota State Approving Agency, George W. Summerside, 
  Veterans Education Program Specialist..........................     8
    Prepared statement of Mr. Summerside.........................    44

                       SUBMISSIONS FOR THE RECORD

American Legion, Ronald F. Chamrin, Assistant Director, Economic 
  Director, statement............................................    55
Council of Regional Accrediting Commissions, Jean Avnet Morse, 
  President, Middle States Commission on Higher Education, 
  statement......................................................    58

                   MATERIAL SUBMITTED FOR THE RECORD

U.S. Government Accountability Office, Report to the Ranking 
  Minority Member, Committee on Veterans' Affairs, U.S. Senate, 
  March 2007, ``VA Student Financial Aid--Management Actions 
  Needed to Reduce Overlap in Approving Education and Training 
  Programs and to Assess State Approving Agencies,'' GAO-07-384..    61
Letter, dated April 27, 2007, and Supplemental Statement for the 
  Record from Joan L. Ryan, President, and C. Donald Sweeney, 
  Legislative Director, National Association of State Approving 
  Agencies, responding to a request for additional information 
  from Congressman John Boozman..................................    72


                        STATE APPROVING AGENCIES

                              ----------                              


                        THURSDAY, APRIL 19, 2007

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                      Subcommittee on Economic Opportunity,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 2:05 p.m., in 
Room 334, Cannon House Office Building, Hon. Stephanie Herseth 
Sandlin [Chairwoman of the Subcommittee] presiding.
    Present: Representatives Herseth Sandlin, Donnelly, Hall, 
Boozman.

        OPENING STATEMENT OF CHAIRWOMAN HERSETH SANDLIN

    Ms. Herseth Sandlin. Good afternoon, ladies and gentlemen. 
The Committee on Veterans' Affairs, Subcommittee on Economic 
Opportunity hearing on functions performed by State Approving 
Agencies (SAAs) will come to order.
    Before I begin with my opening statement, I would like to 
call attention to the fact that Ms. Jean Morse, President of 
the Middle States Commission on Higher Education, has asked to 
submit a written statement for the record on behalf of the 
Council of Regional Accrediting Commissions.
    If there is no objection, I ask for unanimous consent that 
the statement be entered into the record. Hearing no objection, 
so entered.
    [The statement of Ms. Morse appears on p. 58.]
    Today we will be hearing testimony on State Approving 
Agencies. The authority of SAAs was established by Congress in 
1947 to ensure that veterans and eligible dependents can use 
the GI Bill educational entitlement in an approved educational 
program.
    Under contract with the U.S. Department of Veterans Affairs 
(VA), the key function of SAAs is to ensure that education and 
training programs meet VA's standards through a range of 
approval activities such as conducting on-site visits, 
evaluating course quality, assessing school financial 
stability, and monitoring student progress.
    Every State assesses each program as to its own standards 
and laws in addition to the VA rules and regulations with all 
approved programs undergoing continuous supervision.
    The programs that can be approved include colleges, 
universities, vocational and technical schools, flight schools, 
apprenticeship programs, and on-the-job training programs. In 
addition, SAAs engage in outreach activities to foster the 
usage of the GI Bill.
    This year, my home State of South Dakota is expecting to 
have approximately 2,100 eligible individuals enrolled in GI 
Bill eligible programs. These programs are now found at 47 
schools and 192 training establishments in South Dakota. So I 
have a strong interest in exploring the subject before us today 
to improve the availability of education benefits for our men 
and women in uniform.
    I understand that there are concerns about the funding 
change that is about to occur for the State Approving Agencies. 
From fiscal years 2003 to 2006, their funding increased from 
the statutory level of $13 million to $19 million to expand 
services. However, the funding level for SAAs is scheduled to 
decrease beginning in fiscal year 2008.
    According to a recent report, the U.S. Government 
Accountability Office (GAO) concluded that the responsibilities 
of State Approving Agencies have expanded since 1995 and that 
they add value to the approval process for education and 
training programs. However, the report also concluded that 
there was overlap between the efforts of State Approving 
Agencies and other Federal agencies.
    While the VA now spends $19 million to fund SAA duties and 
functions, it does not track the amount it spends on specific 
SAA activities, especially those that may also be performed by 
other agencies. So I am very interested in hearing your 
insights on how these concerns can be addressed.
    Ranking Member Boozman, I look forward to working with you 
and our colleagues and Subcommittee staff to help with these 
important services offered by the State Approving Agencies, and 
I now recognize the Ranking Member, Mr. Boozman, for any 
opening remarks that he may have.
    [The prepared statement of Chairwoman Herseth Sandlin 
appears on p. 29 and the referenced GAO report, GAO-07-384, 
entitled, ``VA Student Financial Aid: Management Actions Needed 
to Reduce Overlap in Approving Education and Training Programs 
and to Assess State Approving Agencies,'' appears on page 61.]

             OPENING STATEMENT OF HON. JOHN BOOZMAN

    Mr. Boozman. Thank you very much.
    The State Approving Agencies have for many years been a 
mainstay in ensuring that veterans attending the education and 
training programs under the various GI Bills receive quality 
instruction. That is why I thank you, Madam Chairwoman, for 
holding the hearing today.
    A recent GAO report, that updated a 1995 report, again 
found overlaps in the functions performed by the State 
Approving Agencies, the regional and professional accrediting 
agencies acting on behalf of the Department of Education, and 
the Oversight Committees provided by the State Employment 
Services.
    While the recent report was less critical than its 
predecessor and noted SAAs did, in fact, provide perspective 
not replicated by other organizations, GAO again recommended a 
thorough inter-agency review of how the Federal Government 
oversees the education industry.
    I believe that this is important, that it is important to 
begin the processes and means to improve the education and 
training opportunities for veterans and their dependents.
    Another issue is how much funding should VA provide to the 
States to act as VA's agent. VA currently pays the collective 
SAAs about 19 million out of the readjustment benefits account. 
As such, those payments are mandatory spending and beginning in 
fiscal year 2008, the law cuts that funding to 13 million.
    So the question before us is what is the value of the 
services provided by the SAAs?
    It looks like we are going to get a report from the 
regional accrediting agency as well as having somebody from the 
U.S. Department of Education (DoE) today, so we look forward to 
that, especially the functions associated with their programs.
    I am sorry that witnesses from the accrediting bodies we 
invited were unable to attend. Their testimony would have been 
a valuable perspective relative to GAO's findings.
    I would note the accrediting associations overseeing 
colleges and universities are membership organizations who 
charge their members significant annual dues as well as large 
fees for other functions such as approving new courses for 
instruction.
    For example, the alma mater of one of our staff is a small 
liberal arts school in the Midwest with a full-time enrollment 
of about 1,800 students. That school pays at least $4,000 in 
annual dues to its main accrediting association in addition to 
any fees for special visits.
    I am not criticizing the accrediting bodies for charging 
the fees, but I thought it important that the members know this 
aspect of their operations.
    Regarding the U.S. Department of Labor (DoL), I am looking 
forward to hearing about the level of the interaction with SAAs 
in improving on-the-job training (OJT) and apprenticeship 
programs.
    Again, thank you, Madam Chairwoman, as always for your 
leadership in this area and look forward to hearing the 
testimony.
    [The prepared statement of Congressman Boozman appears on 
p. 29.]
    Ms. Herseth Sandlin. Thank you, Mr. Boozman.
    I would also like to welcome all of today's witnesses, and 
I very much appreciate your testimony as your views and 
insights are critically important to us in examining this 
important issue.
    I am particularly interested in understanding and exploring 
the views and perspectives on the role and function of State 
Approving Agencies, funding needed to perform those functions, 
overlap in the approval process, and coordination between 
Federal and State agencies. I look forward to hearing from all 
of you.
    We have been informed that votes would have been called 
about 25 minutes ago, so they could be called at any time. We 
will go ahead and start testimony and take as much as we can 
from our first panel and get to any questions of the 
Subcommittee.
    I think we will go ahead and start with the first panel. 
Joining us is Mr. George Scott, Director of Education, 
Workforce and Income Security Issues for the U.S. Government 
Accountability Office.
    That gives us 15 minutes, so we will at least start perhaps 
with Mr. Scott's testimony in just one moment. I will introduce 
the other folks on the panel.
    Ms. Joan Ryan, President of the National Association of 
State Approving Agencies; accompanied by Mr. Donald Sweeney, 
Legislative Director of the National Association of State 
Approving Agencies, and my friend, Mr. George Summerside, 
Veterans Education Program Specialist, South Dakota State 
Approving Agency. Welcome to all of you.
    And, Mr. Scott, we will let that buzzer go and then we will 
begin with your testimony. I would ask each of our witnesses to 
do their best to limit their opening statement to five minutes. 
Your full written statement will be submitted for the record.
    Thank you.

 STATEMENTS OF GEORGE A. SCOTT, DIRECTOR, EDUCATION, WORKFORCE 
  AND INCOME SECURITY ISSUES, U.S. GOVERNMENT ACCOUNTABILITY 
OFFICE; JOAN L. RYAN, PRESIDENT, NATIONAL ASSOCIATION OF STATE 
     APPROVING AGENCIES; ACCOMPANIED BY C. DONALD SWEENEY, 
 LEGISLATIVE DIRECTOR, NATIONAL ASSOCIATION OF STATE APPROVING 
AGENCIES; AND GEORGE W. SUMMERSIDE, VETERANS EDUCATION PROGRAM 
        SPECIALIST, SOUTH DAKOTA STATE APPROVING AGENCY

                  STATEMENT OF GEORGE A. SCOTT

    Mr. Scott. Thank you.
    Madam Chairwoman, Ranking Member Boozman, and members of 
the Subcommittee, I am pleased to be here today to discuss 
GAO's recent report on State Approving Agencies, SAAs.
    In fiscal year 2006, the Department of Veterans Affairs 
paid approximately $19 million to State Approving Agencies. 
Under contract with the VA, SAAs ensure that education and 
training programs meet VA standards through a number of 
approval activities such as evaluating course quality and 
monitoring student progress.
    My testimony today will focus on what changes have occurred 
in SAA duties and functions since 1995, to what extent VA's 
approval process overlaps with the efforts of other Federal 
agencies, and what additional value do State Approving Agencies 
bring to VA's education benefit program.
    As you know, veterans and other qualified individuals 
receive VA education benefits that allow them to pursue various 
types of educational programs such as a degree program, an 
apprenticeship, or on-the-job training.
    In general, these programs must be approved by a State 
Approving Agency in order for individuals to receive VA 
education benefits. The Departments of Education and Labor also 
assess education and training programs.
    The Department of Education certifies postsecondary 
institutions for participation in Federal student financial aid 
programs through various oversight functions to ensure that 
these schools meet Federal requirements and that they are 
accredited and licensed.
    Similarly, the Department of Labor is authorized to 
formulate and promote labor standards to safeguard the welfare 
of apprentices.
    Given each agency's role, the potential for duplication of 
approval efforts among Federal agencies have been a 
congressional concern.
    In our study, we report the legislative changes effective 
in 2001 created additional responsibilities for State Approving 
Agencies including promoting the development of apprenticeship 
and on-the-job training programs, providing outreach services, 
and approving tests for occupational licensing.
    From fiscal years 2003 to 2006, funding for State Approval 
Agencies increased from $13 million to about $19 million to 
expand services and support the additional responsibilities. 
However, as you noted, its funding is scheduled to decrease 
beginning in fiscal year 2008.
    Many education and training programs approved by SAAs have 
also been approved by other agencies. For example, about 69 
percent of all programs approved by SAAs are also offered by 
institutions that have been certified by Education.
    VA and SAA officials also reported that many apprenticeship 
programs approved by SAAs have also been approved by Labor. The 
agencies also have similar categories of approval standards, 
but the interpretation and application of these standards may 
differ.
    For example, VA and Labor each require that facilities have 
adequate space and instruct their personnel to provide quality 
training, but the definitions of adequacy differ.
    Despite the potential overlap, VA has taken few steps to 
coordinate approval activities with Education and Labor.
    Additionally we found that VA does not require State 
Approving Agencies to collect information on the resources they 
spend on specific approval activities. The lack of such data 
prevented us from determining what portions of funds were spent 
on approval activities that may overlap with those of other 
agencies.
    SAAs reportedly add value to VA's approval process through 
focusing on student services for veterans, ensuring the 
integrity of VA benefits, providing more frequent on-site 
monitoring of education and training programs that are provided 
by other agencies, and assessing and approving a small number 
of programs that are not reviewed by other agencies.
    While VA does measure various outputs resulting from SAA 
activities such as the number of supervisory visits conducted, 
the lack of outcome performance measures makes it difficult to 
assess the significance of such activities.
    In conclusion, VA, Education, and Labor have various 
standards and processes in place to ensure that Federal funds 
are spent on quality education and training programs. While we 
have identified some overlap in approval efforts across these 
agencies, the full extent of the overlap is unknown. It is 
important that VA work with other Federal agencies to determine 
how the scope of its approval process can be streamlined to 
reduce overlap.
    Furthermore, developing outcome measures to more fully 
evaluate SAA performance is important to managing the program 
and improving results.
    To help ensure that Federal dollars are spent efficiently, 
we recommended that VA take steps to monitor its spending on 
approval activities and identify whether any resources are 
spent on activities that duplicate the efforts of other 
agencies.
    We also recommended that VA establish outcome-oriented 
performance measures to assess the effectiveness of State 
Approving Agencies' efforts.
    VA agreed with our recommendations and stated that it will 
take action to implement them. They will continue to monitor 
VA's progress in addressing these issues.
    This concludes my statement, and I would be happy to answer 
any questions that you may have. Thank you.
    [The prepared statement of Mr. Scott appears on p. 30.]
    Ms. Herseth Sandlin. Thank you, Mr. Scott, and thank you 
for the report and the questions that will be derived from that 
report throughout the hearing today.
    We have just under 10 minutes before the vote and we 
generally only need a few minutes to get down for this first 
vote. Ms. Ryan, if you think you can confine your opening 
statement to five minutes, we can go ahead and get yours in now 
before we go down to vote. Okay. Thank you.

                   STATEMENT OF JOAN L. RYAN

    Ms. Ryan. Chairman Herseth Sandlin, Ranking Member Boozman, 
members of the Subcommittee on Economic Opportunity, we are 
pleased to appear today before you on behalf of the National 
Association of State Approving Agencies to provide comments on 
the functions of State Approving Agencies, the value added by 
SAAs, the issue of overlap in the work of various approving 
agencies, and funding needed for SAAs to carry out their 
responsibilities.
    State Approving Agencies add value to the educational 
experience for veterans by promoting and safeguarding quality 
education and training programs, by ensuring greater 
educational and training opportunities, and by assisting the 
DVA in preventing fraud, waste, and abuse in the administration 
of the GI Bill.
    State Approving Agencies carry out their mission through 
core functions of program approval, ongoing contact, and 
supervision, technical assistance, outreach, and liaison.
    As State Approving Agencies working with a Federal program, 
SAAs are in a unique situation to network with stakeholders in 
education and training to coordinate the improved delivery of 
veterans' benefits.
    Frequent interaction with officials at all levels within 
the State provides an understanding of how the system works 
which in turn creates a unique ability to assist veterans in 
accomplishing their training objectives.
    As stated by a former Subcommittee staff director for the 
House Veterans' Affairs Committee in an upcoming SAA outreach 
film, SAAs are the face of the GI Bill at the State level.
    We provide advocacy for veterans, educational consumer 
protection for veterans. We respond to veterans' education 
problems and prevent overpayments to veterans. We provide 
outreach. During the last 10 years, we have tripled our number 
of outreach activities and job training opportunity. The number 
of active apprenticeship and on-the-job training facilities has 
increased over 100 percent in the last 10 years.
    Questions have been raised regarding possible overlap in 
the work of State Approving Agencies with other agencies. A 
recent GAO report states many education and training programs 
approved by SAAs have also been approved by Department of 
Labor. We disagree.
    It is our understanding that Department of Education does 
not directly approve programs. It certifies institutions by 
relying heavily on accreditation which is primarily 
institutional in nature, not programmatic.
    Moreover, accreditation is a voluntary, private-sector, 
quality enhancement process, not a government control 
mechanism.
    Additionally, SAAs do work with other approval institutions 
such as State licensing and degree-granting authorities and 
accrediting agency personnel.
    It is important to note the major differences between SAAs 
and accreditation. Why? Number one, in their mission, 
standards, and purpose and, number two, operationally in the 
depth, breadth, and frequency of their reviews. Each has a 
function, but the functions are not identical or duplicative. 
They are complementary.
    Regarding outcomes measures, we agree that more can be 
done. For example, SAAs are heavily engaged in promoting the 
concept of lifelong learning. We see more veterans who do not 
need a full-scale 2- or 4-year program of education to help 
them achieve their occupational goals. So our work with 
educational institutions has grown in the direction of 
evaluating and approving noncredit programs which we would 
begin to identify more clearly.
    The total allocation for SAA activities is stipulated in 
Title 38. Each SAA's allocation is determined by a formula 
essentially based on the number of active schools and training 
establishments being supervised. The total allocation was 
capped at $19 million for 2006 and 2007. If no action is taken, 
in 2008 the cap will revert back to $13 million, a 32 percent 
cut.
    If the SAAs are unable to perform their duties to the 
fullest, veterans would invariably suffer. SAAs need funding 
stability in order to plan for and execute activities that meet 
the requirements of Title 38 between the State and the VA.
    In order to provide an acceptable level of service to 
veterans, Congress, and the DVA and to continue to take on 
additional roles as needed, SAAs must consistently be funded at 
an adequate level.
    Once restored to the current level of $19 million, the 
amount should be adjusted each year by a government approved 
COLA applied to other benefit programs.
    In closing, Madam Chairman, an important reason for the 
existence of the State Approving Agencies is service to 
veterans. Every one of our activities from TAP briefings on 
bases to job and career fairs, from working with schools and 
registrars and college deans, to helping employers meet 
requirements for approval, each of these add values to the 
educational experience for veterans. It is our purpose and our 
passion. Because we are in the schools, job training sites, and 
on bases, we are the face of the GI Bill to veterans.
    We would like to thank you and the members of the 
Subcommittee again for the opportunity to comment on the 
functions of State Approving Agencies, the value added by State 
Approving Agencies, the issue of overlap in the work of 
approving agencies, and funding needed for SAAs to carry out 
their responsibility so that the GI Bill remains the country's 
premier education assistance program bar none.
    Mr. Sweeney and I would be happy to take questions later.
    [The prepared statement of Ms. Ryan appears on p. 36.]
    Ms. Herseth Sandlin. Yes. Thank you, Ms. Ryan. I appreciate 
that.
    Mr. Summerside, we are going to have to wait. Mr. Boozman 
and I need to get down to the House floor for a couple of 
votes. We will be back hopefully within the half hour and then 
we will resume with your testimony and move to questions.
    Thank you.
    [Recess]
    Ms. Herseth Sandlin. Okay. Well, thank you for your 
patience, and we will just move immediately then to Mr. 
Summerside's testimony. Please begin.

               STATEMENT OF GEORGE W. SUMMERSIDE

    Mr. Summerside. Thank you, Chairwoman Herseth Sandlin and 
members of the Subcommittee on Economic Opportunity.
    I am pleased to appear before you today on behalf of the 
South Dakota State Approving Agency to discuss the functions of 
the State Approving Agencies and the value our agency has in 
the State of South Dakota.
    Sixty years ago, Congress determined that each State should 
create an agency that approved programs within its boundaries 
and to determine which programs it was appropriate for veterans 
to enroll and receive their VA educational benefits.
    After a few years, States realized that a national 
association was needed. And in 1948, the National Association 
of State Approving Agencies was formed.
    One of the keys to the success of our association has been 
the use of technology. We created a viable Internet website for 
the utilization of our members, our service partners, and our 
customer, the American veteran.
    South Dakota has been the web master for this site since 
its creation in 1998. The primary responsibility and focus of 
our agency continues to be the review, evaluation, and approval 
of quality programs of education and training. Our agency 
conducts annual supervisory visits to each active facility to 
review the resources and capabilities which are required for 
continued approval. This on-site, ongoing supervision is vital 
to ensure these approved institutions continue to provide 
quality educational programs and meet VA compliance 
requirements.
    We have become advocates for quality education and training 
for veterans and other eligible persons. We have developed 
service partnerships with veterans' groups and other agencies 
to facilitate even greater and more diverse educational 
opportunities for those we serve.
    We provide technical assistance on a wide range of VA 
educational issues. Our staff is continually developing 
creative and innovative ways to promote and educate the public 
on VA educational programs.
    Last fiscal year, we distributed over 6,000 brochures and 
other outreach materials to those within our service network.
    You have asked what is the value of our agency. This can be 
best answered by those we serve. The following comments offer 
their opinion.
    I was most appreciative for the professionalism from the 
person from the State Approving Agency who worked with my 
employer and me to design a tailored training program. No 
doubt, without availability of this education benefit, I would 
not have been able to accept this training position. Ron Boyd, 
State Adjutant, South Dakota American Legion.
    On behalf of the veterans and their dependents attending 
the University of South Dakota, I can honestly claim that the 
support of our State Approving Agency is essential to our 
success. Jennifer Jost, Association Registrar.
    The philosophy that bigger is better does have its limits 
and the impact on our smaller States can be negative. There is 
a need for each State to have a fully staffed SAA so the 
veterans in that State do not suffer with additional delays in 
obtaining their educational benefits. These agencies are vital 
and any reduction in funding would negatively impact VA 
educational programs. Del Johnson, retired South Dakota ELR.
    To ever lose or restrict the State Approving Agency due to 
Federal budget restraints would be a huge disservice to South 
Dakota veterans. Ken Lindblad, Beadle County Veteran Service 
Officer.
    State Approving Agencies have not only ensured that those 
eligible for VA educational benefits enroll in quality 
education and training programs, but they have also served as a 
champion of veterans' educational benefits. Bill Locken, South 
Dakota Veterans Commissioner.
    In the past few months, George Summerside has been an 
excellent client advocate. Without his dedication and loyalty, 
the veterans' education program would be nothing. Sincerely, 
Samantha Donley. She is a Chapter 35 recipient.
    Our agency has a proven record of dedicated and 
professional service as depicted in the comments I just read. 
If a funding solution is not found, South Dakota's contract 
would be reduced by 32 percent next fiscal year. This would be 
a reduction of over $66,000. The many things we are doing in 
outreach and customer service would no longer be possible.
    The testimonies today cannot truly measure our value. Our 
true value rests in the heart of each of the dedicated staff 
whose sole purpose is the approval of quality programs of 
education and training. Our agency's worth is found in the 
dedicated devotion to excellence and our Nation's veterans 
deserve no less.
    In closing, Madam Chairwoman, I would like to thank you and 
the members of the Subcommittee again for the opportunity to 
comment on the functions of the South Dakota State Approving 
Agency and the value we add to our State. I would be happy to 
respond to any questions you might have.
    [The prepared statement of Mr. Summerside appears on p. 
44.]
    Ms. Herseth Sandlin. Well, thank you, Mr. Summerside, and 
all of our witnesses on the first panel for your testimony.
    I have a number of questions, but I will defer to our 
Ranking Member and then we have also been joined by Mr. Hall 
who has another Subcommittee hearing that is going on 
simultaneously.
    In an effort to accommodate him, I would like to ask Mr. 
Boozman to begin the questioning so that we can move to Mr. 
Hall for any opening statement or questions he may have and we 
will circle back to me at the end.
    Mr. Boozman. Thank you, Madam Chairwoman.
    I appreciate your testimony, Mr. Summerside. I think that 
in visiting with your Arkansas equivalents, I think they would 
concur with your testimony or it would be very, very similar. 
So it is good to have you here to kind of give us some, you 
know, firsthand as to effects testimony.
    For the State Approving Agencies, can you provide us some 
details how the State Approving Agencies differ from other 
organizations performing similar functions, if that makes 
sense?
    Ms. Ryan. I would like to give that to Mr. Sweeney, if you 
do not mind.
    Mr. Boozman. Yes.
    Mr. Sweeney. I think Ms. Ryan really summed it up in her 
comments when she said the Department of Education's process 
relies heavy upon accreditation which is primarily 
institutional.
    The Department of Education certifies institutions that 
offer programs to those people who are entitled to or eligible 
for Title 4 funding.
    There is a huge difference between saying that programs 
approved by State Approving Agencies are also approved by the 
Department of Education. As I said to one of the staff members 
during the break, it is not quite 180 degrees, but it is close 
to 179. There is a huge difference between certifying 
institutions that offer programs than approving each and every 
program in accordance with provisions of Title 38.
    The basis for Title 38, beyond ensuring the academic 
integrity and quality of a learning experience--which could be 
anywhere from a certificate program in automotive technology to 
a Bachelor of Science Degree in Engineering--is also to ensure 
that the provisions of Title 38 that pertain to payment of 
benefits are in place as well. They are intertwined.
    So when we talk about the differences between the two 
processes, Mr. Boozman, if I understand the question correctly, 
it seems like much of this really centers around accreditation. 
Am I correct in the intent of the question more so than it is, 
for example, State licensing or degree granting authority? It's 
really around accreditation. And the vast majority of 
accreditation is institutional.
    For example, before leaving the State of Maine where I 
happened to be--we are all volunteers. The National Association 
of State Approving Agencies has no paid staff. I mean, I am the 
Director of the Maine State Approving Agency. Joan is the 
Director of Illinois. We take on these titles of President and 
Legislative Director and basically what it does, it keeps us in 
the office to eight o'clock at night and on weekends.
    But by and large, one of the things that I took a look at 
before leaving the State of Maine was how many of the 
University of Maine system programs have specialized 
accreditation. Now, that gets us a little bit closer to the 
process utilized by State Approving Agencies.
    Stop me if I am losing you here, but there are the various 
types of accreditation that we refer to in our written 
testimony, there is institutional accreditation, there is 
programmatic accreditation.
    And the programmatic accreditation is probably the closest 
that you will find to the State Approving Agency process where 
we take a look at the legitimacy of the objective, what is that 
program objective, is it, for example, someone that wishes to 
be an automotive technician, what does it take to learn those 
skills, how are those skills taught, by whom, and under what 
circumstances.
    And Title 38, as the Committee is aware, is quite 
prescriptive in that regard with respect to admissions 
requirements, credit for prior learning, satisfactory progress, 
all those kinds of things that pertain to student enrollment.
    Well, anyway, taking a look at the University of Maine 
system of which there are seven campuses, we have roughly about 
600 programs. A little over 125 have specialized accreditation, 
so that leaves 500 or close to 500 that are strictly viewed as, 
quote, approved under an institutional umbrella of 
accreditation, not programmatic, institutional.
    That institutional accreditation, and I have had the 
privilege and honor of serving on a number of accrediting teams 
over the years. I have about close to 35 years in the field of 
education. I have been an administrator. I have served as an 
instructor and again on accrediting teams.
    That process, when I say institutional, I could go on for 
hours on this just to give you some idea of what I mean by 
institutional, but suffice it to say for the hearing purposes, 
it is far more superficial than the programmatic accreditation 
and the process used by State Approving Agencies.
    And I thank you for all the time you have given me because 
I think I have already gone too far.
    Mr. Boozman. No. That is fine.
    Let me just ask one more thing if it is okay, Madam 
Chairwoman? My time is up in a little bit.
    But I guess really the bottom line, and you alluded to it, 
Mr. Summerside, with the cutting in funding, what it would do 
in your State.
    Again, if we go from the current $19 million to $13 
million, what is the practical effect that that is going to 
have on the program?
    Ms. Ryan. The effect will be local. Each State may approach 
it a little differently. There are some States who may, in 
fact, choose not to contract with VA, some of the smaller 
States who have small contracts. If that is the case, then VA 
would have to pick up the approval function in that State.
    There are some States who may not do outreach. There just 
will not be the time, the budget. There are States who will lay 
people off, I have no doubt. But, you know, it is an 
individual, it will be a local decision how it is made.
    Mr. Sweeney. Is it possible to add to that, Mr. Boozman?
    I think a big piece for us is that State Approving Agencies 
truly believe that, as Ms. Ryan stated in her closing remarks, 
the GI Bill should be the premier educational assistance 
program in this country bar none.
    We have one percent of our population defending the other 
99 percent and for many of us these days, we are not sure how 
large of a portion of that 99 percent really care about the 
other one percent.
    Veterans, as Mr. Summerside said, deserve no less than the 
fullest attention that we can give. Removing the amount of 
funding that is currently provided a State Approving Agency is 
definitely going to jeopardize, after 30 plus years in the 
business, is definitely going to jeopardize the success of the 
GI Bill, no doubt in my mind.
    We are, as stated earlier, the face of the GI Bill at the 
State level. The level of interaction that we have with the 
players--there is no comparison to other processes. That level 
of interaction gives us an opportunity to not only know the 
folks but know the systems, but also to be able to identify 
what areas need attention and what areas do not really need 
attention. And that is what helps us to be as effective as I 
think we are.
    Mr. Boozman. Thank you, Madam Chair.
    Ms. Herseth Sandlin. Yes. Thank you.
    And thank you both to Ms. Ryan and Mr. Sweeney.
    Mr. Hall, do you have questions for the panel?
    Mr. Hall. Briefly. Thank you, Madam Chairwoman.
    I apologize for being late and leaving early, but I am 
double and triple booked today.
    But I thank you, panelists, for your testimony which I have 
been reading. I heard part of Mr. Summerside's testimony that 
was given earlier.
    I just want to say that the cut from $19 million or the 
drop this action has taken from $19 to $13 million seems like 
whoever made that decision must have made it in a vacuum.
    But there is a lot of talk going on now on the full 
Veterans' Affairs Committee and the Subcommittees and when I go 
home and meet with veterans in my district about outreach and 
communicating what programs are available, what help is 
available to our veterans.
    And so I hope and believe that we will find a way to keep 
you performing your services that you have been so generously 
performing to date.
    I wanted to ask whether there is a difference, whether you 
are seeing a difference in terms of program targeting or 
tailoring of programs for, yet this may be that it is too early 
in terms of OEF/OIF, but whether the veterans coming back from 
these wars are in need of different things or different kind of 
programs or different assistance than vets you worked with 
before to anybody who would like to answer or not answer.
    Ms. Ryan. Well, one of our association's focuses in the 
last few years has been a concept of lifelong learning. As I 
said in my statement, many of them do not want or need the two- 
or four-year college education. They want to, for example, 
learn how to start their own business, so now there are 
entrepreneurship courses that they can take and use GI Bill to 
do that.
    There are the licensure and certification test 
reimbursements that they can get reimbursed, you know, they can 
get reimbursed for the cost of the course, those kind of 
things.
    In Illinois, we are seeing a tremendous increase in the on-
the-job training and apprenticeship. Many of them do not want 
to go to school, do not want to go to college. They want to 
work. They have families. They are older. So that has been a 
big increase for us.
    And, you know, employers in the State are very, very 
interested in hiring veterans. You know, they recruit for 
veterans. They love having them. And so it is an easy sell in 
many ways.
    Mr. Hall. Thank you.
    And I am just curious. How much overlaps are you aware of 
or any of you aware of between the work that you do and the 
work that is being done either by the VA or by the VSOs? I 
mean, do you consider the work that you do to be filling a 
unique niche that otherwise would go unfilled?
    Ms. Ryan. Absolutely. And I do not want to overstate it, 
but we really are the face of the GI Bill out there in the 
schools and in the job training establishments. When we 
approach our approvals, we do it from the standpoint of Title 
38, what is required for veterans, which is different sometimes 
than for just students in general.
    Mr. Hall. And, last, maybe, you two, you could just pick a 
figure out of the air, what do you think this 2008 budget 
should allot for SAAs?
    Ms. Ryan. We would be happy with 19 percent or $19 million.
    Mr. Hall. Nineteen-percent increase?
    Ms. Ryan. Yeah. No. No, no, no, no. I am thinking of the 
COLA.
    Mr. Hall. If we continue the existing funding, you----
    Ms. Ryan. Yeah, what the COLA would be.
    Mr. Hall. You could work with that?
    Ms. Ryan. Yeah. That would be adequate for sure.
    Mr. Hall. Thank you very much, Madam Chairman. I yield 
back.
    Ms. Herseth Sandlin. Thank you, Mr. Hall.
    Mr. Summerside, did you have anything you wanted to add to 
Ms. Ryan's answers to Mr. Hall's question from your 
perspective?
    Mr. Summerside. I can just say in South Dakota, I know if 
there is anything to do with VA educational programs, the 
office they call is ours. That can be from a County Service 
Officer. That can be from a vet rep or a DVOP. That can be from 
other agencies within State government.
    You know, I do work closely with Department of Education in 
South Dakota with some of my high school approvals, but they do 
not look at the things that we look at. They do not look at the 
things and they do not measure the things that the VA does.
    You know, a lot of the things is not just the quality of 
the program, but it is also based on how they can measure the 
payment for that program as far as the VA and their benefits. 
And that is unique to State Approving Agencies.
    Now, I am not as knowledgeable as my esteemed colleague, 
Don, over here, but I do know in our State as far as on-the-job 
and apprenticeship training, we are not a highly regulated 
State. A lot of our apprenticeship programs are nonregistered. 
They are not registered apprenticeships that have oversight of 
the Bureau of Apprenticeship and Training.
    And the other thing, the Bureau of Apprenticeship and 
Training from my point of view has a wider spectrum to look at. 
We have one focus; it is the veteran. That is our only focus 
and that makes us uniquely qualified to serve them in this 
role.
    Ms. Herseth Sandlin. Well, thank you for your response.
    I would like to go back to Mr. Sweeny and Ms. Ryan, if that 
is okay, if I direct the question directly to Mr. Sweeney, 
because you both talked a lot about the differentiation between 
the State Approving Agency's process versus the DOE's 
accreditation process.
    Would you wish to elaborate on where you see this same type 
of differentiation or not, perhaps taking issue with how the 
GAO report characterized overlap as it relates to the 
Department of Labor?
    I think Mr. Summerside touched on it to an extent, but if 
you wanted to elaborate.
    Mr. Sweeney. Well, what I recall, and I brought this huge 
notebook and put everything in it, but it might take too long 
to find the page that I need to find so what I recall is this. 
Certainly with registered apprenticeship programs where what is 
to be taught, for example, what knowledge and skills are to be 
taught, developed by the Federal Department of Labor or by the 
State Apprenticeship Councils where they exist. George knows 
this probably better than I, with State Councils, it is very 
similar to institutional programs. For example, a Bachelor of 
Science Degree in Engineering, you compare that to an 
apprenticeship program that is registered and you know that 
your State Council has already taken a look at what is to be 
taught, what knowledge and skills are to be learned. We can 
oversee that process in much less time in our evaluation than 
what it would take for a nonregistered apprenticeship program 
or what we term other on-the-job training.
    And I think the Department of Labor did mention in their 
comments or the GAO did with regard to apprenticeship and OJT 
that Department of Labor has no influence whatsoever on OJT 
programs. They do not have responsibility for them. There is no 
jurisdiction. So that is strictly an SAA function.
    I mean, for us, many times we are the only ones that take a 
look at that kind of a training program. We are the only ones 
that say it leads to a legitimate objective, here is what it is 
going to take to achieve the objective, here is what the 
process is going to be, and you can be reasonably assured that 
you will get a job in that occupation once you go through the 
process.
    Ms. Herseth Sandlin. Thank you.
    Mr. Scott, let us give you a chance to respond to some of 
the testimony and the answers to questions already posed as 
they relate to the accreditation process. And you did mention 
where you see some overlap and obviously some concerns have 
been raised and some respectful disagreement with how that has 
been characterized.
    When you undertook this review, did you conclude anything 
with regard to an approximate number or percentage of programs 
that are not reviewed by other agencies as just described by 
Mr. Sweeney?
    Mr. Scott. Well, thank you, Madam Chairwoman. Just a couple 
points if I could in terms of clarification.
    Just overall, I think looking at our report in terms of 
percentage of veterans and others enrolled in programs, the 
vast majority are, in fact, enrolled in an institution of 
higher education, colleges and universities. So from our 
perspective, that is one of the key areas to look at.
    And as such, the Department of Education is not simply 
reviewing schools for accreditation purposes. The Department of 
Education also looks at schools for ongoing compliance with the 
rules and regulations required to participate in Federal 
student aid programs.
    So I am hearing a lot of talk about accreditation, but that 
is just one part of the story. The Department has ongoing 
monitoring of colleges and universities and other schools who 
participate in Title 4 programs, the ``Higher Education Act.'' 
So in our view, that is another level of on-site overview at 
the Department of Education.
    I think more fundamentally one of the things that I think 
is important about this hearing today is that in light of the 
number of changes in Federal oversight of colleges and 
universities, since State Approving Agencies were first 
created, clearly there is a much different role now in terms of 
the Department of Education's oversight, in terms of their 
ongoing monitoring of these schools.
    So I think it is appropriate to now take a step back and 
look at given the role of the Department of Education, what is, 
in fact, the appropriate role for State Approving Agencies in 
terms of their oversight and monitoring of institutions that 
have been certified by the Department of Education.
    Ms. Herseth Sandlin. Well, let me stick with you for the 
remaining time I have and we will do another round of questions 
here.
    Mr. Scott, are State Approving Agencies positioned to 
provide better site monitoring than other agencies as it 
relates to on-the-job training, apprenticeship programs, and 
others?
    Mr. Scott. Well, I think clearly as we pointed out in our 
report, there are areas where State Approving Agencies do add 
value. I think the reason we recommended that the Department of 
Veterans Affairs sort of get together with the Departments of 
Education and Labor is to sort out exactly where are the 
overlaps.
    I mean, clearly there are some areas where no one is 
looking on accredited schools and programs, for example. That 
is one potential area where SAAs clearly add value because no 
one is looking at those. I mean, clearly some of the 
apprenticeship programs, that is another area where they add 
value.
    I think our more fundamental message, though, is it is 
important to take a step back, look, and sort of given the 
current funding problems that the SAAs are likely to face, 
where is the best way for them to use their limited resources.
    And I think our recommendations to the Department of 
Veterans Affairs to take a look at the overall potential 
overlap will help sort of sort out where, in fact, it is best 
to use those limited resources.
    Ms. Herseth Sandlin. Thank you.
    Mr. Boozman, do you have some followup?
    Mr. Boozman. The only comment I would make, Madam 
Chairwoman, and, again just really what he was discussing, I 
think it does make all the sense in the world for VA and the 
State Approving Agencies and GAO to get together and really 
sort out the overlaps. Which is, it just does not seem that is 
being done. And so that certainly would be very helpful to 
myself and I think all of us, and our staffs are kind of 
sorting out where we go.
    But that is really the only comment I would make and I 
yield my time.
    Ms. Herseth Sandlin. We have also been joined by Mr. 
Donnelly on the Subcommittee. I would recognize Mr. Donnelly 
for any opening statement or questions he might have for the 
panel.
    Mr. Donnelly. I would want to support the Chairwoman's 
comments, also our Ranking Member's as well, and yield back.
    Ms. Herseth Sandlin. Let me follow up on a couple of 
things. We know that some States have more than one State 
Approving Agency.
    Ms. Ryan, which States have more than one and are there any 
areas of responsibility that are divided up there or is it a 
matter of population only, again in an effort to prevent what 
can be overlap or duplication of services and how we best 
maximize the resources that are allocated to each State?
    Ms. Ryan. Okay. I can't tell you exactly how many States 
have more than one. Several have two. Often there is one agency 
that handles the schools, the other that handles apprenticeship 
and on-the-job training. More often the on-the-job training 
aspect is in a Department of Labor kind of agency, State 
Apprenticeship Council, something like that.
    There are a couple where the division is with higher ed and 
nondegree and proprietary and nonproprietary. Basically, 
however, it is a local decision. Again, it is up to the 
Governor in each State to decide and appoint who is going to be 
the State Approving Agency in that State.
    We have seen in the past, since more States have taken on 
the OJT and apprenticeship function, we have seen a few more 
with two contracts. We have had a few who have combined.
    Mr. Scott. Madam Chairwoman, based on the information I 
have, there are eight States with two State Approving Agencies.
    Ms. Herseth Sandlin. Which are they?
    Mr. Scott. California, Connecticut, Indiana, Minnesota, 
North Carolina, Oregon, Washington, and Wisconsin.
    Ms. Herseth Sandlin. Thank you.
    For Mr. Summerside and Ms. Ryan, the issue of outreach and 
how your services have increased. Could either of you elaborate 
on how your outreach activities through your State Approving 
Agency have increased since National Guard and Reserve 
deployments that began in 2003?
    Mr. Summerside. Madam Chairwoman, in the State of South 
Dakota, we kind of geared up for the activation of the Guard 
and Reserve in our State. I think there is over 3,000 that have 
been activated since 2003.
    Our agency was the lead as far as a welcome home brochure 
and since 2004, we distributed a little over 14,000. It is kind 
of the mainstay when they do the demobs.
    And that was the other thing Governor Rounds did. He 
obligated our division and other partners within our veteran 
service network to go actually to the sites where these 
National Guard and Reservists were being--the demob site. They 
would travel out of State wherever it was.
    And a big part of those briefings was the part on 
educational benefits. Many times if I was not there or other 
staff were not there, I would receive calls on the various 
different things on educational benefits.
    I recently did an outreach effort in Aberdeen. And at the 
end of that, it was an Army Reserve unit, there was various 
groups there and agencies and the longest line was the one to 
talk to me about educational benefits bar none. I was the one 
that was there far longer than anyone else.
    We have a combination of effort as far as outreach. But, 
you know, this is not new and did not start in 2003 in South 
Dakota. It started 50, 60 years ago in South Dakota. On-the-job 
and apprenticeship training is a byproduct of that aggressive 
outreach effort that we have always done.
    And in the last 25 years, we have been part of the 
Department of Military and Veterans Affairs. We have a direct 
connection not only with the veterans, the Guard, Reservists, 
and the dependents or survivors, but those county and tribal 
service officers and those veteran groups that make it just a 
great relationship in our development of any outreach plan that 
we do have.
    Ms. Herseth Sandlin. Let me just ask you another followup 
question then. For you, Ms. Ryan, how many State Approving 
Agencies do you know have actually been present at the 
demobilization sites for National Guard or Reserve soldiers?
    Ms. Ryan. I cannot tell you exactly. Many, many, many. We 
talk about it often in our National meetings. I can certainly 
get you that information.
    Ms. Herseth Sandlin. Mr. Summerside or Ms. Ryan, you have 
already talked about a reduction in funding and how that would 
affect your outreach and customer service efforts.
    As you made some decisions working with Governor Rounds and 
with the State Adjutant General, were the funds coming from the 
VA for the State Approving Agency? Did you allocate more of the 
funding in the last two years to the cost associated with 
providing specific outreach or has it just been broader and 
some of the issues that we have talked to as it relates to your 
relationship with the processing of education claims and the 
veterans that are coming to you? Are you allocating funding 
differently in any way over the last five to six years?
    Mr. Summerside. The only thing that I can say from my 
perspective, we have always done outreach. Over the last couple 
of years, the VA has actually afforded us a payment for that 
outreach. And primarily in our State, it is the many outreach 
materials that we are able to--you know, sometimes we use a 
vendor as far as these quick reference guides that we provide 
on a wide range of topics, but specifically all the different 
chapters of education, you know, that is one thing that we 
progressively pursued in our State.
    And then that is the in-house stuff that we do, the welcome 
home, the OJT brochure, the school benefits brochure. We have 
two different brochures that we have developed in our State. 
And the other things, the technical manuals that we try to use 
and train these service professionals within our State, the 
County Service Officers, the vet reps, and Veteran Service 
Organizations.
    So to answer your question, we do have a line item for 
outreach over the last few years and I cannot go back to the 
exact contract year it started, but we have always done it 
somehow.
    Ms. Herseth Sandlin. Mr. Boozman?
    Mr. Boozman. Very quickly. On page 20 of the GAO report, 
there is a graph, a summary of the functions. I guess what I 
would like to know is if you all, the State Approving Agencies, 
could get with GAO and really provide a more detailed breakdown 
than what we have got on the page. I think it would be very 
helpful to me to know what these different things represent and 
exactly what you are doing and, know what Education and Labor 
is represented.
    Again, if you could show us the contrast in this kind of 
vehicle, it would be very helpful. Thank you.
    Ms. Ryan. We would be glad to do that.
    [A followup letter, dated April 27, 2007, and supplemental 
information was provided by Ms. Ryan and Mr. Sweeney in 
response to Mr. Boozman's request.]
    Mr. Boozman. Thank you.
    Ms. Herseth Sandlin. One final question for Mr. Summerside 
and Ms. Ryan. Ms. Ryan, you stated in your testimony as it 
related to the GAO recommendation for the VA to establish 
outcome-oriented performance measures and you acknowledge that 
more could be done in that area. I am interested in your and 
Mr. Summerside's perspectives on the other recommendation which 
would require SAAs to track and report data on resources spent 
on specific activities.
    Could you comment on how you view that recommendation and 
the administrative ease or difficulty in tracking and 
monitoring these activities?
    Ms. Ryan. We already do track the activities pretty 
extensively. We have quarterly reporting. George has developed 
a pretty extensive mechanism to do that. We report, you know, 
all kinds of numbers, outreach activities and approvals, and it 
is part of our self-evaluation process that happens at the end 
of the year.
    Ms. Herseth Sandlin. And each State Approving Agency does 
that or is this----
    Ms. Ryan. Absolutely.
    Ms. Herseth Sandlin. Okay.
    Ms. Ryan. Yeah, absolutely.
    Ms. Herseth Sandlin. So this would be a matter of sitting 
down with the folks at the VA who agreed with that 
recommendation, showing them what you have----
    Ms. Ryan. Yes. Yes.
    Ms. Herseth Sandlin [continuing]. And making any changes 
that may be necessary, but perhaps none would be required as 
they see the depth and breadth of what you are tracking?
    Ms. Ryan. Right. And they have access to that information.
    Ms. Herseth Sandlin. Okay.
    Ms. Ryan. They do have that. What we do not do is take it 
to the next step where we assign dollar figures to what we do, 
you know, X amount of dollars for outreach, X amount of dollars 
for approvals. We do not do that at this time.
    Ms. Herseth Sandlin. How difficult would it be to do that?
    Ms. Ryan. It would be difficult.
    Ms. Herseth Sandlin. Okay.
    Mr. Sweeney. Could I add to that?
    Ms. Herseth Sandlin. Yes, please.
    Mr. Sweeney. I think in part because it is a profession, we 
are not on a clock eight to five. I mean, I can be shoveling 
snow or riding around on my lawn mower cutting grass on a 
Saturday morning thinking about how I am going to resolve a 
problem.
    It is literally a profession. I think for most of us it is 
definitely not an eight to five, 40 hour week. So, you know, we 
could do a time clock mentality and try to break this out, but 
there is going to be some limitations on that. And that is part 
of the difficulty.
    Ms. Herseth Sandlin. I understand.
    Mr. Scott, do you have any comments?
    Mr. Scott. Yes, Madam Chairwoman. I think as we point out 
in our report along with the recommendations that we would hope 
that the recommendations in terms of how they would be 
implemented would be in proportion to the amount of program 
dollars we are talking about here. So we, of course, would not 
expect SAAs to come up with a multi-million dollar tracking 
system to keep track of $19 million.
    On the other hand, though, to the extent that these are 
Federal taxpayers' dollars being spent, we do think it is 
important to make sure we can account for how the money is 
being spent. We did ask for data on sort of, you know, could 
you tell us how much, you know, of the resources are spent 
toward site visits, how much of the resources are spent toward 
outreach and that sort of thing. And they were not able to 
provide that information, they being the Department of Veteran 
Affairs.
    So we do think it is important to come up with some 
mechanism to provide a better accounting of how dollars are 
being spent and so that will help in terms of developing more 
outcome-oriented performance measures.
    Ms. Ryan. As a followup, we have had discussions with Keith 
Wilson at the central office about doing that very thing.
    Ms. Herseth Sandlin. I appreciate that because I did not 
want to get into the minutiae of how we go about doing that 
now. I would think that with the data that you have been 
collecting and sitting down as it relates to all three of these 
recommendations, there might be a way to address the issue of 
accountability that Mr. Scott has raised.
    Well, if there is nothing further from the members of the 
Subcommittee, I thank you each for your testimony and for being 
here today. We will look forward to following up with you as 
our staff and the other members may have additional questions 
that will be submitted as part of the hearing and record for 
today. Thank you.
    I would now invite our second panel to the witness table 
and as they are coming up allow me to introduce them to those 
who are at the hearing today.
    We have Mr. John McWilliam, Deputy Assistant Secretary for 
Operations and Management, Veterans' Employment and Training 
Service of the U.S. Department of Labor; accompanied by Mr. 
Anthony Swoope, Administrator, Office of Apprenticeship, 
Employment and Training Administration for the U.S. Department 
of Labor; Ms. Carol Griffiths, Chief, Accrediting Agency 
Evaluation Unit, Office of Postsecondary Education of the U.S. 
Department of Education; and Mr. Keith Wilson, Director of the 
Education Service, Veterans Benefits Administration of the U.S. 
Department of Veterans Affairs respectively.
    All of you are very familiar with the Subcommittee and we 
appreciate you being here again today. We will go ahead and 
start with you, Mr. McWilliam, with your opening statement.

STATEMENTS OF JOHN M. McWILLIAM, DEPUTY ASSISTANT SECRETARY FOR 
 OPERATIONS AND MANAGEMENT, VETERANS' EMPLOYMENT AND TRAINING 
   SERVICE, U.S. DEPARTMENT OF LABOR; ACCOMPANIED BY ANTHONY 
SWOOPE, ADMINISTRATOR, OFFICE OF APPRENTICESHIP, EMPLOYMENT AND 
  TRAINING ADMINISTRATION, U.S. DEPARTMENT OF LABOR; CAROL A. 
GRIFFITHS, CHIEF, ACCREDITING AGENCY EVALUATION UNIT, OFFICE OF 
  POSTSECONDARY EDUCATION, U.S. DEPARTMENT OF EDUCATION; AND 
KEITH M. WILSON, DIRECTOR, EDUCATION SERVICE, VETERANS BENEFITS 
      ADMINISTRATION, U.S. DEPARTMENT OF VETERANS AFFAIRS

                 STATEMENT OF JOHN M. McWILLIAM

    Mr. McWilliam. Thank you, ma'am.
    Chairwoman Herseth Sandlin, Ranking Member Boozman, Mr. 
Donnelly, I am pleased to appear today before you on functions 
performed by the State Approving Agencies. Accompanying me 
today is Mr. Tony Swoope, Administrator of the Office of 
Apprenticeship in the Department of Labor.
    DoL has a separate responsibility from that of the State 
Approving Agencies. Under the ``National Apprenticeship Act 
1937,'' Labor is the Federal agency authorized to register 
apprenticeship programs for Federal purposes. Federal purposes 
include any Federal contract, grant, agreement, or arrangement 
and all Federal financial assistance.
    Department of Labor's role is to safeguard the welfare of 
apprentices, ensure equality of access to apprenticeship 
programs, and provide integrated employment and training 
information to sponsors and the local employment and training 
community.
    Title 38 states that an eligible veteran may be paid a 
training allowance while pursuing a full-time program of 
apprenticeship when that program is approved by a State 
Approving Agency as meeting the standards published by the 
Secretary of Labor.
    Those standards require that the program be registered by 
either Department of Labor or a DoL recognized State 
apprenticeship agency. These State apprenticeship agencies are 
separate from the State Approving Agencies being discussed at 
today's hearing.
    Labor has not determined what, if any, overlap exists 
between reviews conducted by Labor and the State Approving 
Agencies. We believe there may be overlap in the review of 
program sponsors' performance.
    Labor supports working with the Departments of Veterans 
Affairs and Education to review both the similarities and 
differences between the assessment components. We met with the 
VA in March on this subject. We look forward to continuing 
collaboration with our partners.
    DoL does not have any responsibility for, as mentioned 
earlier, nor do we participate in OJT programs for veterans.
    Madam Chairwoman, that concludes my testimony. Mr. Swoope 
and I will be pleased to answer your questions.
    [The prepared statement of Mr. McWilliam appears on p. 49.]
    Ms. Herseth Sandlin. Thank you very much, Mr. McWilliam.
    Ms. Griffiths.

                STATEMENT OF CAROL A. GRIFFITHS

    Ms. Griffiths. Good afternoon, Madam Chairwoman, Ranking 
Member Boozman, and Mr. Donnelly.
    I appreciate the opportunity to be here today to share with 
you information regarding the Secretary's recognition process.
    In context, the ``Higher Education Act 1965'' requires that 
the Secretary publish a list of accrediting agencies and State 
Approval Agencies that she recognizes as reliable authorities 
as to the quality of education provided by the institutions and 
programs that they accredit. Currently she recognizes 62 
accrediting agencies and five State Approval Agencies.
    Understand that State Approval Agencies in the context of 
our process are units within the State Departments of Education 
whose function is the approval and oversight of public 
postsecondary vocational education. These programs are usually 
offered via the K through 12 school districts to adult 
students.
    The Secretary's recognition enables over 8,100 institutions 
they accredit to establish eligibility to participate in the 
Title 4 student financial aid programs administered by the 
Department of Education as well as programs offered by other 
Federal departments.
    Recognition provides access to approximately $90 billion 
annually by institutions of higher education, students, and 
their families.
    The recognition process includes a self-review by the 
accrediting or State Approval Agency, a review conducted by the 
Department staff, review by an external body representative of 
the higher education community. This 15-member body is known as 
the Secretary's National Advisory Committee on Institutional 
Quality and Integrity, the NACIQI.
    Ultimately after those reviews, the Secretary makes a 
decision of recognition. The review conducted is a compliance 
model review against the Secretary's criteria for recognition. 
Accreditors must not only describe their policies, procedures, 
standards, and practice, they must show evidence or 
documentation of how they apply them.
    Department analysts review and evaluate that information 
and also conduct on-site evaluations and observations of 
accrediting agency activities in regard to the accreditation 
process as well as conduct file reviews at the agencies.
    Staff review includes an assessment of an agency's 
organizational structure, its administrative and financial 
capacity, its adherence to principles of due process, what 
mechanisms it has in place to prevent conflicts of interest, 
its responsiveness to complaints, and its use of public input 
in the review of its standards and policies and practices, as 
well as, at the core of the accreditation process, a review of 
the agency's quality standards by which they evaluate 
institutions and programs for accreditation and their 
consistent application of these and ongoing monitoring for 
compliance with them.
    Specifically as outlined in the ``Higher Education Act'' 
and in the Secretary's criteria, these standards include 
administrative and fiscal capacity of an institution or 
program, an evaluation of curriculum, of faculty, of student 
support services, facilities and other resources and standards 
in the area of student achievement.
    From that Department staff draw conclusions of compliance 
and make a recommendation regarding recognition. All of the 
information provided by agency and by the Department staff go 
forward to the Secretary's National Advisory Committee who meet 
twice a year to review agencies seeking both initial 
recognition or renewal of their recognition.
    After hearing from Department staff, from the agency, and 
other third-party commenters who show an interest, the 
Committee deliberates and provides the Secretary with a 
recommendation as to whether they recommend that she defer, 
deny, or renew recognition of that agency.
    Each accrediting agency is reviewed once every five years 
and State Approval Agencies are reviewed once every four years.
    In summary, currently the Secretary recognizes 62 
accrediting agencies and five State Approval Agencies as 
reliable authorities of the quality of education and training 
provided by the institutions and programs they accredit.
    The recognition process is comprehensive, it is ongoing. It 
includes input from both internal and external sources. The 
recognition provides a critical oversight function for many 
Federal programs and, as I said before, enables access to $90 
billion annually.
    I hope this information has been helpful to you and your 
members, and I am ready to answer any questions you may have 
regarding the recognition process. Thank you.
    [The prepared statement of Ms. Griffiths appears on p. 50.]
    Ms. Herseth Sandlin. Ms. Griffiths, thank you very much.
    Mr. Wilson, you are recognized.

                  STATEMENT OF KEITH M. WILSON

    Mr. Wilson. Good afternoon, Madam Chairwoman, Ranking 
Member Boozman, and members of the Subcommittee. Thank you for 
the opportunity to discuss VA's education programs and the role 
of the State Approving Agencies in those programs.
    My testimony will highlight the vital role of SAAs in 
ensuring that veterans receive the maximum benefit for their 
educational programs.
    VA and the SAAs work together to ensure the successful 
readjustment of veterans to civilian life through educational 
opportunities. VA administers educational assistance to 
eligible veterans and dependents while the SAAs ensure the 
quality of the educational and vocational programs pursued and 
monitor the institutions providing education and training to 
veterans.
    Since 2001, they also conduct outreach programs and provide 
outreach services to eligible servicemembers and veterans. 
Title 38 establishes the parameters for this relationship.
    A recent GAO report contained three major recommendations. 
VA generally agrees with all three recommendations. We are 
taking actions to address these recommendations in cooperation 
with the National Association of State Approving Agencies as 
well as our colleagues at the Department of Labor and 
Department of Education.
    Public Law 100-323 requires an annual joint peer review 
group to meet for the purposes of evaluating performance of the 
individual State Approving Agencies. The JPRG is composed of 
four SAA representatives as well as four VA representatives. 
There are three designated ratings, satisfactory, minimally 
satisfactory, and unsatisfactory.
    For 2006, two SAAs received an unsatisfactory rating, three 
received a minimally satisfactory rating, and 54 agencies 
received a satisfactory rating.
    In fiscal year 2007, VA will provide approximately $19 
million in funding to the SAAs. For fiscal year 2008, the 
amount of funding for SAAs will decrease to approximately $13 
million per section 301 of Public Law 107-330.
    The outreach activities added to the SAA's role in 2001 may 
be impacted by the reduction in SAA funding. However, VA has 
taken steps to mitigate this impact.
    Information concerning VA education benefits is mailed 
three times to servicemembers while they are on active duty and 
again at separation.
    The Transition Assistance Program operated jointly by DoL, 
VA, and DoD, as well as benefit briefings for demobilizing 
National Guard and Reserve members provides information on 
education benefits available to these members.
    VA has also participated in the training of newly created 
State benefits advisors.
    Despite these efforts, a reduction in SAA funding may 
negatively impact our efforts to promote the use of VA 
education benefits, particularly the promotion of OJT and 
apprenticeship programs with employers. The extent to which 
these efforts could be impacted is difficult to predict.
    Madam Chairwoman, this concludes my statement. I would be 
pleased to answer any questions you or other members of the 
Subcommittee may have.
    [The prepared statement of Mr. Wilson appears on p. 52.]
    Ms. Herseth Sandlin. Thank you all for your testimony.
    I will start with a brief question. Mr. Wilson, you just 
said that there were two SAAs in 2006 that received an 
unsatisfactory rating; is that correct?
    Mr. Wilson. That is correct.
    Ms. Herseth Sandlin. Did either of them lose funding due to 
that unsatisfactory rating?
    Mr. Wilson. No. The way we approach this is from a 
progressive standpoint. We set up training and mentoring 
relationships with them. Ultimately if they do not perform to 
an acceptable level, we have the option of reducing funding or 
not opting to offer them a contract entirely, which we have 
done in the past.
    Ms. Herseth Sandlin. Okay. Do you know if the 
Administration intends to take a position as it relates to the 
need for increased resources beyond $13 million for the State 
Approving Agencies?
    Mr. Wilson. The Administration will not take a position.
    Ms. Herseth Sandlin. And, Ms. Griffiths, have you found it 
beneficial to maintain the distinction between national and 
regional institutional accreditors and is there overlap between 
the two?
    Ms. Griffiths. Thank you for the question.
    In terms of the Secretary's recognition process, all 
accreditors that seek recognition must comply with the same 
criteria, you know, in the context of the scope of their 
accrediting activities.
    Ms. Herseth Sandlin. So it has been beneficial to maintain 
the distinction between national or regional accreditors?
    Ms. Griffiths. I think that, yes, that we have to evaluate 
and make the distinction based on the type of accrediting 
activity with the type of educational and training program 
being provided.
    Ms. Herseth Sandlin. Does the activity of the national 
accreditor and the regional accreditor differs in the process, 
in the review process? I am a little unclear as to--maybe you 
could just explain what a national institutional accreditor 
does that a regional one does not or there are distinctions in 
their--I know you just said that they use the same criteria.
    Ms. Griffiths. Yes. Their processes are the same. They are 
free to develop their own standards, but the components of the 
accreditation process are the same between national 
institutional accreditors and regional and even programmatics.
    But an agency that evaluates a specialized single program 
perhaps applies those standards differently. They all have to 
have standards in the same areas, but they apply them in the 
context of the type of accrediting activity they do.
    Ms. Herseth Sandlin. Okay.
    Ms. Griffiths. I hope that helps.
    Ms. Herseth Sandlin. I may have some other questions. We 
just have another series of votes, so let me move quickly to 
our Ranking Member for any questions.
    Mr. Boozman. Thank you very much.
    First of all, I want to thank all of you. I know that you 
worked very hard and, we are trying to move things forward and 
do the very best that we can for our veterans.
    But I am a little bit concerned. Mr. Wilson, on your 
testimony at the end you alluded to the fact that we really did 
not know how this was going to affect the ability of our men 
and women to know what was going on and things.
    And I guess one of the threads that I have seen, and I 
think we work really hard at this now, but one of the threads I 
have seen in being with our troops, from the testimony that we 
have taken in different deals was right now, was then many of 
our people in uniform do not understand the flexibility that 
they have in the GI Bill and what they can be used for.
    It sounds like you are not supporting an increase from the 
$13 million; is that correct?
    Mr. Wilson. We are not taking a position on the increased 
funding.
    Mr. Boozman. But on the other hand, that is going to be 
potentially even more of a problem, even though we are working 
on it hard now, that is a big problem.
    Mr. Wilson. It is a concern for us as well. One of the 
unknowns as we move forward into a potential reduction is 
whether we have the flexibility in VA obviously to manage this 
contract. On the other hand, the States also have the 
flexibility of deciding whether or not they want to enter into 
a contract with us.
    And it may be simply that there could be some States that 
it is no longer to their benefit, that we are not able to 
reimburse them to the level that they need. And that is the 
unknown that we have difficulty quantifying.
    Mr. Boozman. Well, our Committee really is to interface in 
that regard with you. And so, if we lose any of that--in fact, 
I would like for us to push that we do a better job of making 
that known because it is so important. The benefit is there 
and, again, a lot of them do not understand.
    When you look at the numbers of taking up the slack through 
the rest of the agency and when you look at the average salary, 
then according to Mike Smith, and you are talking about 76, in 
the 70s FTEs doing that. So when you do that, we already have a 
problem with processing educational claims, I just do not see 
how you can do it. And so, again I guess I feel very strongly 
that we are going to hold you accountable to do that.
    You mentioned the fact that some of the agencies, had 
problems. And, again, we very much need to rectify that. And I 
think it is good that we have the process in place so we can 
recognize when somebody is not doing their job.
    On the other hand, as we, the VA Committee, you the VA, run 
into problems all the time and we solve those problems. You do 
not throw away everything.
    So, again, I would just say that I would hope VA really 
thinks this through. I want to help you. I want to get you the 
funding that you need. I want to fight for it.
    But if you do not feel like, and it sounded like in your 
testimony you were waffling a little bit, you cannot do it, 
then, like I said, we are going to come after you because you 
are going to mess up in these other areas and we are going to 
have a bigger mess. But I would say that in some of those 
areas, we are not doing a very good job now.
    So I would appreciate if VA would really think this through 
and then I think you need to come out one way or the other. If 
you cannot do your job with $13 million, then you need to tell 
us what it is going to take. And it sounds to me like we are 
really having a little bit of trouble with the $19 million.
    I yield back to the Chairwoman.
    Ms. Herseth Sandlin. Thank you, Mr. Boozman.
    I associate myself with his comments and we are trying to 
just determine what level of activity is best to be maintained 
which is why some of our earlier questions from the prior panel 
tried to probe this area, this issue of overlap or duplication.
    I understand because it is a statutory cap, the 
Administration may not want to take a position at this point, 
but would you at least share with us from your perspective as 
the Director if the Secretary feels? As I think we heard from 
the first panel, that Operation Iraqi Freedom and Operation 
Enduring Freedom have had an impact, an expansive impact on the 
mission of the State Approving Agencies.
    Mr. Wilson. It absolutely has, particularly from the 
perspective of outreach as we have been talking about.
    What we do not have a good handle on, and an area that I 
look forward to working with my colleagues in DoL and DoE on, 
is where is potential overlap and are there things that we can 
do more efficiently that will allow us yet further to mitigate 
the impact of any potential reduction in funding.
    I think the folks at GAO did a very good job with their 
report. However, one thing that troubles me is I believe that 
there may be a belief that our responsibility, the programs 
that we administer in VA are equivalent to Federal student aid, 
even to the point of GAO using aid as a term when they talked 
about veterans' programs.
    Speaking as a veteran now, I do not equate it with aid. 
That is a benefit that is earned. And I believe we have a 
higher level of responsibility than really exists with Federal 
student aid. And we have to find a way of meeting that.
    Ms. Herseth Sandlin. I appreciate that comment, Mr. Wilson. 
I think it is a very good point for us to keep in mind as we do 
maybe go another level or two further, as the Ranking Member 
has suggested, as I think it is a good recommendation talking 
with staff about this issue of overlap and how these measures 
in the matrix are used. We need some more specificity so that 
distinctions such as you just articulated are adequately 
accounted for.
    That does lead me to a question, Mr. McWilliam, did you 
mention that DoL has yet to determine if overlap exists between 
reviews by the registered apprenticeship system and the State 
Approving Agencies?
    Mr. McWilliam. That is correct, ma'am, and I will ask Mr. 
Swoope, if I may, to elaborate on that.
    Ms. Herseth Sandlin. I appreciate that. Is the review being 
undertaken currently?
    Mr. Swoope. Yes, Madam Chairwoman. We are having 
conversations with the Department of Veterans Affairs and we 
hope to continue with that conversation to see how we can 
better partner our activities to benefit the veterans that are 
coming out and receiving the services that are required and we 
would like for them to participate in that. In our case, the 
National Apprenticeship System.
    Ms. Herseth Sandlin. Have the State Approving Agencies, or 
any of their representatives, been at the table in these 
discussions as they relate to not just coordination between DoL 
and the VA but as we heard from the first panel, the importance 
of what they have been sitting down with you about, Mr. Wilson? 
Have they been----
    Mr. Swoope. Two things. At the national level, we just had 
a conversation with the VA. At the State level where our staff 
is working in that area in Federal States where they had the 
responsibility for registering program, we encourage our staff 
to partner and work with the veteran organizations or approving 
agency so that veterans can receive VA benefits.
    So we try to include that on an ongoing basis by our 
Federal staff and the State agency staff at the local level to 
ensure that they know where we are, what we are, what we are 
doing, and how do we have this partnership where the veteran 
can receive VA benefits that they are entitled to, going 
through an apprenticeship program.
    Ms. Herseth Sandlin. I appreciate that.
    One final question and then I am going to see if the 
Ranking Member has any further followup.
    Ms. Griffiths, you said that the Department of Education 
recognizes five State Approving Agencies. Describe these five 
for me. When you say State Approving Agencies, are you talking 
about a different type of entity than what we are talking about 
when we say State Approving Agencies that work with VA funding 
and how would you characterize or describe Department of 
Education's relationship with the State Approving Agencies that 
testified today?
    Ms. Griffiths. In terms of the recognition process, we do 
not have a relationship with State Approving Agencies from the 
Department of Veterans Affairs. What we have, our State 
Approval Agencies, they are units within State Departments of 
Education that have an oversight function for public post-
secondary vocational education in their states.
    And these approval agencies, some of them, should they 
choose to, seek the Secretary's recognition by submitting to 
this evaluation and review. If they are recognized State 
Approval Agencies, again units in State Departments of 
Education that have that function, then those public 
postsecondary vocational education programs that they approve 
are eligible to participate in Title 4 student financial aid 
programs.
    Ms. Herseth Sandlin. Okay. But separate from this formal 
recognition of an agency, if they do not go through that 
process because that might require substantial changes at the 
State level with some of the folks that we heard from earlier. 
How do you envision the Department of Education being a part of 
this collaboration with the VA and the Department of Labor and 
the State Approving Agencies that work with the VA?
    Ms. Griffiths. I am not sure I can answer that question. I 
do not know that I today have sufficient information to talk 
about what that would look like. But I do know that we would be 
most open and willing and eager to sit down and talk with and 
find out more information and see what we can do in the best 
interest of the use of tax dollars. Yes.
    Ms. Herseth Sandlin. I appreciate that. I do think it is 
important as, Mr. Swoope, as you worked to undertake this 
review and analysis, that DoE's perspective be shared. It will 
help us answer some questions raised in the GAO report so we 
can have a better understanding from the State Approving 
Agencies' perspective where they do not really consider it an 
overlap of services but actually a more targeted service to the 
veteran himself or herself.
    Any final comments from any our panelists on that point 
with regard to collaboration?
    Mr. Wilson. If I could add just a brief comment to Mr. 
Swoope's statement.
    Ms. Herseth Sandlin. Sure.
    Mr. Wilson. Getting back to your original question, we will 
be engaging the SAAs in these discussions. We are not at that 
point yet. We will be engaging them as I would hope that we 
would be engaging the staff of this Committee. We certainly 
will be looking at procedural and regulatory issues, but I 
think it is important to look at the statutory requirements 
that we are all responsible for meeting as well.
    Ms. Herseth Sandlin. Another point well-taken. Thank you, 
Mr. Wilson.
    Mr. Boozman.
    Mr. Boozman. No. With the Committee's approval, we might 
have a question or two that we will submit. Thank you.
    Ms. Herseth Sandlin. Certainly. Thank you again. I 
appreciate the insight and perspective you have offered. As is 
common with the Subcommittee, first under Mr. Boozman's 
leadership as Chairman and now in the 110th Congress, we 
appreciate the working relationship we have with all of your 
offices, the work of our staff who worked with you in the past 
and not only as staff of this Subcommittee but other VSOs that 
they have worked with. We look forward to the followup that I 
think will be necessary for us to take full advantage of the 
good work as you described it, Mr. Wilson, in the GAO report 
and the perspective of the State Approving Agencies that was 
offered today.
    Thank you very much.
    We have got three minutes from the vote, so this hearing 
better stand adjourned.
    [Whereupon, at 3:53 p.m., the Subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

     Opening Statement of the Honorable Stephanie Herseth Sandlin,
            Chairwoman, Subcommittee on Economic Opportunity

    Good afternoon, ladies and gentlemen. The Veterans' Affairs 
Economic Opportunity Subcommittee hearing on functions performed by 
State Approving Agencies (SAA) will come to order.
    Before I begin with my opening statement, I would like to call to 
attention to the fact that Ms. Jean Morse, President of the Middle 
States Commission on Higher Education has asked to submit a written 
statement for the record on behalf of the Council of Regional 
Accrediting Commissions. If there is no objection I ask for unanimous 
consent that this statement be entered for the record.
    Today we will be hearing testimony on State Approving Agencies. The 
authority of SAAs was established by Congress in 1947 to ensure that 
veterans and eligible dependents can use the G.I. Bill educational 
entitlement in an approved educational 
program. Under contract with the Department of 
Veterans' Affairs (VA), the key func- tion of SAAs is to ensure that 
education and training programs meet VA standards through a range of 
approval activities, such as: conducting on-site visits, evaluating 
course quality, assessing school financial stability, and monitoring 
student progress.
    Every state assesses each program as to its own standards and laws 
in addition to the VA rules and regulations, with all approved programs 
undergoing continuous supervision. The programs that can be approved 
include colleges, universities, vocational and technical schools, 
flight schools, apprenticeship programs, and other on-the-job training 
programs. In addition, SAAs engage in outreach activities to foster the 
usage of the G.I. Bill.
    This year, my home state of South Dakota is expecting to have 
approximately 2,100 eligible people enrolled in G.I. Bill eligible 
programs. These programs are now found in 47 schools and 192 training 
establishments in my state. I have a strong interest in exploring the 
subject before us today to improve the availability of educational 
benefits for our men and women in uniform.
    I understand there are concerns about the funding change that is 
about to occur for SAAs. From fiscal years 2003 to 2006, their funding 
increased from $13 million to $19 million to expand services. However, 
the funding level for SAAs is scheduled to decrease beginning in fiscal 
year 2008.
    According to a recent report, the Government Accountability Office 
concluded that there was overlap between the efforts of SAAs and the 
other federal agencies. While VA spends $19 million to fund SAA duties 
and functions, it does not track the amount it spends on specific SAA 
activities, especially those that may also be performed by other 
agencies. I am very interested in hearing your insights on how these 
concerns are being addressed.

                                 <F-dash>
            Opening Statement of the Honorable John Boozman,
    Ranking Republican Member, Subcommittee on Economic Opportunity

    Good afternoon, everyone.
    The State Approving Agencies have, for many years, been a mainstay 
in ensuring that veterans attending education and training programs 
under the various GI Bills receive quality instruction. That is why I 
thank you, Madam Chairwoman, for holding this hearing.
    A recent GAO report that updated a 1995 report again found overlaps 
in the functions performed by the State Approving Agencies, the 
regional and professional accrediting agencies acting on behalf of the 
Department of Education, and the oversight services provided by the 
state employment services. While the recent report was less critical 
than its predecessor and noted that SAAs did, in fact, provide 
perspectives not replicated by the other organizations, GAO again 
recommended a thorough interagency review of how the federal government 
oversees the education industry. I believe that it is important to 
begin that process as a means to improve the education and training 
opportunities for veterans and dependents.
    Another issue we face is how much funding should VA provide to the 
states to act as VA's agent. VA currently pays the collective SAAs 
about $19 million out of the Readjustment Benefits Account (RBA). As 
such, those payments are mandatory spending and beginning in FY 08, the 
law cuts that funding to $13 million. So, the question before us is 
what is the value of the services provided by the SAAs?
    I note that we will also hear from a regional accrediting agency as 
well as a representative from the Department of Education. I look 
forward to their testimony, especially the functions and costs 
associated with their programs.
    I am sorry that witnesses 
from the accrediting bodies we invited were unable to at- tend. Their 
testimony would have been a valuable perspective relative to the GAO's 
findings. I would note that accrediting associations overseeing 
colleges and universi- ties are membership organizations 
who charge their members significant annual dues as well as large fees 
for other functions such as approving new courses of instruction. For 
example, the alma mater of one of our staff is a small liberal arts 
school in the Midwest with a full time enrollment of about 1,800 
students. That school pays at least $4,000 in annual dues to its main 
accrediting association in addition to any fees for special visits. I 
am not criticizing the accrediting bodies for charging 
fees, but I thought it important that the Members know this aspect of th
eir operations.
    Regarding the Department of Labor, I am looking forward to hearing 
about the level of their interaction with the SAAs in approving OJT and 
apprenticeship programs.
    Madame Chairwoman, thanks again for your leadership on this issue 
and I yield back.
                                 <F-dash>
Statement of George A. Scott, Director, Education, Workforce and Income 
         Security Issues, U.S. Government Accountability Office

    Madame Chairwoman and Members of the Subcommittee:
    I am pleased to be here today to present information from our March 
2007 report on state approving agencies (SAA).\1\ In fiscal year 2006, 
the Department of Veterans Affairs (VA) paid approximately $2.1 billion 
in education assistance benefits to more than 470,000 beneficiaries and 
about $19 million to state approving agencies to assess whether schools 
and training programs offer education of sufficient quality for 
veterans to receive VA education assistance benefits when attending 
them. Qualified individuals--veterans, service persons, reservists, and 
certain spouses and dependents--receive benefits through a number of 
education assistance programs for the pursuit of various types of 
programs, such as a degree program, vocational program, apprenticeship, 
or on-the-job training. In general, these programs must be approved by 
an SAA in order for qualified individuals to receive VA education 
assistance benefits. Under contracts with VA, SAAs ensure that 
education and training programs meet VA standards through a variety of 
approval activities, such as evaluating course quality, assessing 
school financial stability, and monitoring student progress.
---------------------------------------------------------------------------
    \1\ GAO, VA Student Financial Aid: Management Actions Needed to 
Reduce Overlap in Approving Education and Training Programs and to 
Assess State Approving Agencies, GAO-07-384 (Washington, D.C.: Mar. 8, 
2007).
---------------------------------------------------------------------------
    The Departments of Education (Education) and Labor (Labor) also 
assess education and training programs for various purposes, primarily 
for awarding student aid and providing apprenticeship assistance. These 
assessments are based, in part, on evaluations against standards set by 
laws and regulations, such as those applicable to accrediting agencies. 
In 2006, under Title IV of the Higher Education Act, Education provided 
nearly $77 billion in student aid in the form of both grants and loans. 
Education assesses and certifies postsecondary institutions for 
participation in Title IV programs through various oversight functions 
to ensure that these schools meet federal administrative and financial 
requirements and that they are accredited and licensed. Similarly, 
under the National Apprenticeship Act 1937, Labor is authorized to 
formulate and promote the furtherance of labor standards to safeguard 
the welfare of apprentices. To ensure programs comply with federal 
standards, Labor directly registers and oversees apprenticeship 
programs in less than half of the states and has given state 
apprenticeship agencies or councils in the remaining states such 
authority over their own programs.
    Given each agency's role, the potential of duplicative efforts 
among federal agencies has been a congressional concern. In 1995, GAO 
reported on this matter and concluded that there was a substantial 
amount of overlap between the efforts of SAAs and the other federal 
agencies.\2\ My testimony today is based on information from our recent 
report and will focus on (1) changes that have occurred in state 
approving agencies' duties and functions since 1995, (2) the extent to 
which the SAA approval process overlaps with efforts by the Departments 
of Education and Labor, and (3) the additional value that SAA approval 
activities bring to VA education benefit programs.
---------------------------------------------------------------------------
    \2\ GAO, VA Student Financial Aid: Opportunity to Reduce Overlap in 
Approving Education and Training Programs, GAO/HEHS-96-22 (Washington, 
D.C.: Oct. 30, 1995).
---------------------------------------------------------------------------
    In summary, we found that:

    <bullet>  Since 1995, legislative changes effective in 2001 created 
additional responsibilities for SAAs, including promoting the 
development of apprenticeship and on-the-job training programs, 
providing outreach services, and approving tests for occupational 
licensing.\3\ From fiscal years 2003 to 2006, SAA funding increased 
from $13 million to $19 million to expand services and support the 
additional responsibilities. However, funding is scheduled to decrease 
beginning in fiscal year 2008.
---------------------------------------------------------------------------
    \3\ Veterans Benefits and Health Care Improvement Act of 2000, Pub. 
L. No. 106-419 (2000); and Veterans Education and Benefits Expansion 
Act of 2001, Pub. L. No. 107-103 (2001).
---------------------------------------------------------------------------
    <bullet>  Many education and training programs approved by SAAs 
have also been approved by Education or Labor, and VA and SAAs have 
taken few steps to coordinate approval activities with these agencies. 
In addition, information is not available to determine the amount of 
resources spent on SAA duties and functions, including those that may 
overlap with other agencies and programs.
    <bullet>  SAAs reportedly add value to the approval process for 
education and training programs through (1) a focus on student services 
for veterans and on the integrity of VA benefits, (2) more frequent on-
site monitoring of education and training programs than provided by 
Education or Labor, and (3) assessments and approval of a small number 
of programs that are not reviewed by other agencies. However, VA's lack 
of outcome-oriented performance measures for evaluating SAAs makes it 
difficult to assess the significance of these efforts.

    To help ensure that federal dollars are spent efficiently and 
effectively, our report recommended that the Secretary of the 
Department of Veterans Affairs take steps to monitor SAA spending and 
identify whether any resources are spent on activities that duplicate 
the efforts of other agencies. We also recommended that the Secretary 
establish outcome-oriented performance measures to assess the 
effectiveness of SAA efforts. VA agreed with our findings and 
recommendations and stated that it will take a number of steps to 
address them.
    To conduct our work, we reviewed applicable laws, regulations, and 
program materials; and interviewed officials from each of the entities 
involved in the various approval processes, including federal agencies, 
state approving agencies, schools and training programs. We also 
reviewed and analyzed data on approval decisions from VA, Education, 
and Labor. Our work was performed in accordance with generally accepted 
government auditing standards.
Background
    VA, Education, and Labor assess education and training programs for 
various purposes. VA's approval process is meant to ensure that 
education and training programs meet VA standards for receipt of 
veteran education assistance benefits, while Education's and Labor's 
processes are primarily for awarding student aid and providing 
apprenticeship assistance.
    VA administers a number of programs designed to assist individuals 
in gaining access to postsecondary education or training for a specific 
occupation (see table 1). VA generally provides its assistance in the 
form of payments to veterans, service persons, reservists, and certain 
spouses and dependents.

  Table 1:  VA Beneficiaries of and Funding for Education and Training
                 Assistance Programs in Fiscal Year 2006
------------------------------------------------------------------------
              Programs *                 Beneficiaries     Expenditures
------------------------------------------------------------------------
Montgomery GI Bill (Chapter 30)                 313,766   $1,909,014,605
------------------------------------------------------------------------
Reserve Educational Assistance Program           23,747     $151,397,610
 (Chapter 1607)
------------------------------------------------------------------------
Educational Assistance for the
 Selected Reserve
  (Chapter 1606)                                 65,145      $48,716,031
------------------------------------------------------------------------
Dependents and Survivors Educational
 Assistance
  Program (Chapter 35)                           74,532      $38,787,332
------------------------------------------------------------------------
Veterans Educational Assistance                     575          $59,113
 Program (Chapter 32)
------------------------------------------------------------------------
    Total                                       477,765   $2,147,974,691
------------------------------------------------------------------------
Source: VA.
* No payments for the National Call to Service program were made in
  fiscal year 2006.


    Benefits can be used to pursue a degree program, vocational 
program, apprenticeship, and on-the-job training (see fig. 1). Before 
an individual entitled to VA education assistance can obtain money for 
an education or training program, the program must be approved by an 
SAA, or by VA in those cases in which an SAA has not been contracted to 
perform the work.
   Figure 1:  Veteran Enrollment by Program Type in Fiscal Year 2006
[GRAPHIC] [TIFF OMITTED] T5634A.001


    VA's administrative structure for the education and training 
assistance programs includes its national office, which oversees the 
four regional processing offices (RPO), and the national contract with 
SAAs. RPOs administer the education assistance programs and process 
benefits for veterans. SAAs review education and training programs to 
determine which programs should be approved and ensure schools and 
training providers are complying with VA standards. SAAs have six core 
duties: (1) approval of programs, (2) visits to facilities, (3) 
technical assistance to individuals at facilities, (4) outreach, (5) 
liaison with other service providers, and (6) contract management. 
Sixty SAAs exist in the 50 states, the District of Columbia, and Puerto 
Rico. Eight states have two SAAs. SAAs are usually part of a state's 
department of education (31 SAAs). In some states, SAAs are 
organizationally located in other departments such as labor (9 SAAs) or 
veterans' services (19 SAAs).
    The U.S. Department of Education's approval process is to ensure 
that schools meet federal Education standards to participate in federal 
student financial aid programs. In order for students attending a 
school to receive Title IV financial aid, a school must be (1) licensed 
or otherwise legally authorized to provide postsecondary education in 
the state in which it is located, (2) accredited by an entity 
recognized for that purpose by the Secretary of Education, and (3) 
certified to participate in federal student aid programs by Education. 
As such, the state licensing agencies, accrediting agencies, and 
certain offices within Education are responsible for various approval 
activities.

    <bullet>  State licensing agencies grant legal authority to 
postsecondary institutions to operate in the state in which they are 
located. Each of the states has its own agency structure, and each 
state can choose its own set of standards.
    <bullet>  Accrediting agencies develop evaluation criteria and 
conduct peer evaluations to assess whether or not those criteria are 
met by postsecondary institutions. Institutions or programs that meet 
an agency's criteria are then ``accredited'' by that agency. As of 
November 2005, there were 60 recognized private accrediting agencies of 
regional or national scope.
    <bullet>  The U.S. Department of Education's Office of 
Postsecondary Education evaluates and recognizes accrediting agencies 
based on federal requirements to ensure these agencies are reliable 
authorities as to the quality of education or training provided by the 
institutions of higher education and the higher education programs they 
accredit.
    <bullet>  The U.S. Department of Education's Office of Federal 
Student Aid determines the administrative and financial capacity of 
schools to participate in student financial aid programs, conducts 
ongoing monitoring of participant schools, and ensures participant 
schools are accredited and licensed by the states.

    The purpose of the Department of Labor's approval process is to 
establish and promote labor standards to safeguard the welfare of 
apprentices. Labor establishes standards and registers programs that 
meet the standards. Labor directly registers and oversees programs in 
23 states but has granted 27 states, the District of Columbia, and 3 
territories authority to register and oversee their own programs, 
conducted by state apprenticeship councils (SACs). Labor reviews the 
activities of the SACs. SACs ensure that apprenticeship programs for 
their respective states comply with federal labor standards, equal 
opportunity protections, and any additional state standards.
    Figure 2 shows the agencies responsible for the approval processes 
for the various types of education and training programs.

Figure 2:  Agencies Responsible for the Approval Process for Education 
                         and Training Programs

[GRAPHIC] [TIFF OMITTED] T5634A.002


    Source: GAO Analysis.

Legislative Changes Effective in 2001 Created Additional 
        Responsibilities for SAAs
    In 2001, SAAs received additional responsibilities as a result of 
legislative changes. This included responsibility for actively 
promoting the development of apprenticeship and on-the-job training 
programs and conducting more outreach activities to eligible persons 
and veterans to increase awareness of VA education assistance. SAAs 
were also charged with approving tests used for licensing and 
certification, such as tests to become a licensed electrician. For 
those tests that have been approved, veterans can use VA benefits to 
pay for testing fees. From fiscal years 2003 to 2006, SAA funding 
increased from $13 million to $19 million to expand services and 
support the additional responsibilities. Funding is scheduled to begin 
to decrease in fiscal year 2008.
Many Education and Training Programs Approved by SAAs Have Also Been 
        Approved by Education or Labor, and VA Has Taken Few Steps to 
        Coordinate Approval Activities with These Agencies
    Many education and training programs approved by SAAs have also 
been approved by Education and Labor. Sixty-nine percent of all 
programs approved by SAAs are offered by institutions that have also 
been certified by Education. Seventy-eight percent of SAA-approved 
programs in institutions of higher learning (e.g., colleges and 
universities) have been certified by Education. Also, 64 percent of 
SAA-approved non-college degree programs are in institutions that have 
been certified by Education. Although less than 2 percent of all 
programs approved by SAAs are apprenticeship programs, VA and SAA 
officials reported that many of these programs have also been approved 
by Labor.
    Similar categories of approval standards exist across agencies, but 
the specific standards within each category vary and the full extent of 
overlap is unknown. For example, while VA and Education's approval 
standards both have requirements for student achievement, the New 
England Association of Schools and Colleges, an accrediting agency, 
requires that students demonstrate competence in various areas such as 
writing and logical thinking, while VA does not have this requirement. 
Also among the student achievement standards, VA requires schools to 
give appropriate credit for prior learning, while Education does not 
have such a requirement. Table 2 shows the similar categories of 
standards that exist across agencies.





                                                                                                                                                Appren-
                                                                                                                                               ticeship





                            Table 2.  Approval Standards of Education and Training Programs Used by VA, Education, and Labor
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                     SAA \1,2\                                     Education \3\                 Labor
                                              ----------------------------------------------------------------------------------------------------------
                                                                                                                      Federal
       Categories of approval standards                     IHL/NCD non-                    On the                   Standards    Connecticut
                                                 IHL/NCD     accredited   Apprenticeship     job      Education's       for          state
                                                accredited                                 training  certification  accrediting    licensing
                                                                                                                      agencies      agency
--------------------------------------------------------------------------------------------------------------------------------------------------------
Student                                                 X            X             X             X                           X            X           X
  achievement
--------------------------------------------------------------------------------------------------------------------------------------------------------
Curricula, program objectives, and faculty              X            X             X             X            X              X            X           X
--------------------------------------------------------------------------------------------------------------------------------------------------------
Facilities,                                             X            X             X             X                           X            X           X
  equipment,
  and supplies
--------------------------------------------------------------------------------------------------------------------------------------------------------
Institutional                                           X            X                                        X              X            X           X
  objectives,
  capacity, and
  administration
--------------------------------------------------------------------------------------------------------------------------------------------------------
Student support services                                                                                                     X            X
--------------------------------------------------------------------------------------------------------------------------------------------------------
Recruiting and admission                                X            X                                        X              X            X           X
  practices
--------------------------------------------------------------------------------------------------------------------------------------------------------
Record of student complaints                                                                                                 X                        X
--------------------------------------------------------------------------------------------------------------------------------------------------------
Process related requirements (e.g.                      X            X             X             X            X                           X           X
 application requirements)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Source: GAO analysis of VA, Education, and Labor Standards.
Notes: GAO constructed these categories to encompass the numerous and broad range of standards used by agencies. SAAs have different sets of standards
  for each program type (e.g. IHL and NCD). Education's approval process involves different sets of standards used by different entities, such as
  accrediting agencies. Labor has one set of standards that is applicable to apprenticeship programs.
\1\ By statute, courses must meet certain criteria. These relate to: (1) recordkeeping of student progress; (2) recordkeeping of students' previous
  education; (3) quality, content and length of courses; (4) qualifications of administrators and instructors; and (5) equipment, space, and
  instructional materials. We categorized the first two criteria as student achievement, criteria (3) and (4) as Curricula, Program Objectives and
  Faculty, and criterion (5) as Institutional objectives, capacity, and administration.
\2\ SAA approval requirements for non-accredited courses encompass a number of additional criteria, such as having a tuition refund policy and
  enrollment limitations.
\3\ Connecticut's standards may not be representative of standards across the country.


    While agencies have the same approval standards in some instances, 
the interpretation and application of these standards may differ. For 
example, VA, accrediting agencies, and Labor each require that 
facilities have adequate space, equipment, and instructor personnel to 
provide quality training, but the definitions of adequacy differ in the 
level of specificity. Similarly, VA and accrediting agencies both 
require that schools have policies related to student achievement, such 
as minimum satisfactory grades, but the requirements differ in level of 
specificity.
    Despite the overlap in approved programs and standards, VA and SAAs 
have made limited efforts to coordinate approval activities with 
Education and Labor. VA reported that while it has coordinated with 
Education and Labor on issues related to student financial aid and 
apprentices' skill requirements, it believes increased coordination is 
needed for approval activities in order to determine the extent of 
duplicative efforts. Most of the SAA officials we spoke with reported 
that they have coordinated with SACs to register apprenticeship 
programs in their states. Labor reported that it coordinated with VA's 
national office in several instances, including providing a list of 
registered apprenticeship programs. Education reported that it does not 
have formalized coordination with VA but has had some contacts to 
inform VA of its concerns regarding specific institutions.
    Information is not available to determine the amount of resources 
spent on SAA duties and functions, including those that may overlap 
with those of other agencies. VA does not require SAAs to collect 
information on the amount of resources they spend on specific approval 
activities. The SAA officials we spoke with said that their most time-
consuming activity is conducting inspection and supervisory visits of 
schools and training facilities. However, the lack of data on resource 
allocation prevented us from determining what portions of funds spent 
by SAAs were for approval activities that may overlap with those of 
other agencies.
SAAs Reportedly Add Value to the Approval Process for Education and 
        Training Programs, but the Lack of Outcome-Oriented Performance 
        Measures Makes It Difficult to Assess the Significance of Their 
        Efforts
    SAA and other officials reported that SAA activities add value 
because they provide enhanced services to veterans and ensure program 
integrity. According to these officials, SAAs' added value includes a 
focus on student services for veterans and on VA benefits, more 
frequent on-site monitoring of education and training programs than 
Education and Labor, and assessments and approval of a small number of 
programs that are not reviewed by other agencies, such as programs 
offered by unaccredited schools, on-the-job training programs, and 
apprenticeship programs not approved by Labor.
    SAA approval activities reportedly ensure that (1) veterans are 
taking courses consistent with occupational goals and program 
requirements, (2) schools and training programs have evaluated prior 
learning and work experience and grant credit as appropriate, and (3) 
school or program officials know how to complete paperwork and comply 
with policies required by VA educational assistance through technical 
assistance. According to officials we interviewed, SAAs generally 
conduct more frequent on-site monitoring of education and training 
programs than Education or Labor, possibly preventing fraud, waste, and 
abuse. Some officials reported that SAAs' frequent visits were 
beneficial because they ensure that schools properly certify veterans 
for benefits and that benefits are distributed accurately and quickly. 
States, schools, and apprenticeship officials we spoke with reported 
that without SAAs, the quality of education for veterans would not 
change. However, veterans' receipt of benefits could be delayed and the 
time required to complete their education and training programs could 
increase.
    Despite areas of apparent added value, it is difficult to fully 
assess the significance of SAA efforts. VA does measure some outputs, 
such as the number of supervisory visits SAAs conduct, but it does not 
have outcome-oriented measures, such as the amount of benefit 
adjustments resulting from SAAs' review of school certification 
transactions, to evaluate the overall effectiveness and progress of 
SAAs. (See table 3.)

                     Table 3:  Examples of VA Output Measures and Potential Outcome Measures
----------------------------------------------------------------------------------------------------------------
              Examples of Existing VA Output Measures                  Examples of Potential Outcome Measures
----------------------------------------------------------------------------------------------------------------
Percentage of visits to facilities for supervisory                      Amount of benefit adjustments resulting
  and inspection purposes completed within                            from SAAs' review of school certification
  VA specified timeframes                                                                          transactions
----------------------------------------------------------------------------------------------------------------
Number of times technical assistance provided                          Error rate of certification transactions
  to interested parties such as individuals and                                              identified by SAAs
  schools
----------------------------------------------------------------------------------------------------------------
Number of approved facilities with approved                                   Completion rates of beneficiaries
  programs
----------------------------------------------------------------------------------------------------------------
Source: GAO analysis.


Prior Recommendations and Agency Response
    We made several recommendations to the Department of Veterans 
Affairs to help ensure that federal dollars are spent efficiently and 
effectively. We recommended that the Secretary of the Department of 
Veterans Affairs take steps to monitor its spending and identify 
whether any resources are spent on activities that duplicate the 
efforts of other agencies. The extent of these actions should be in 
proportion to the total resources of the program. Specifically:

    <bullet>  VA should require SAAs to track and report data on 
resources spent on approval activities such as site visits, catalog 
review, and outreach in a cost-efficient manner, and
    <bullet>  VA should collaborate with other agencies to identify any 
duplicative efforts and use the agency's administrative and regulatory 
authority to streamline the approval process.

    In addition, we recommended that the Secretary of the Department of 
Veterans Affairs establish outcome-oriented performance measures to 
assess the effectiveness of SAA efforts.
    VA agreed with the findings and recommendations and stated that it 
will (1) establish a working group with the SAAs to create a reporting 
system to track and report data for approval activities with a goal of 
implementation in fiscal year 2008, (2) initiate contact with 
appropriate officials at the Departments of Education and Labor to 
identify any duplicative efforts, and (3) establish a working group 
with the SAAs to develop outcome-oriented performance measures with a 
goal of implementation in fiscal year 2008. While VA stated that it 
will initiate contact with officials at Education and Labor to identify 
duplicative efforts, it also noted that amending its administrative and 
regulatory authority to streamline the approval process may be 
difficult due to specific approval requirements of the law. We 
acknowledge these challenges and continue to believe that collaboration 
with other federal agencies could help VA reduce duplicative efforts. 
We also noted that VA may wish to exam- 
ine and propose legislative changes needed to further streamline its app
roval process.
    Madame Chairwoman, this completes my prepared statement. I would be 
happy to respond to any questions that you or other members of the 
subcommittee may have.
GAO Contacts
    For further information regarding this testimony, please contact me 
at (202) 512-7215. Individuals making key contributions to this 
testimony include Heather McCallum Hahn, Andrea Sykes, Kris Nguyen, 
Jacqueline Harpp, Cheri Harrington, Lara Laufer, and Susannah Compton.

                                 <F-dash>
 Prepared Statement of Joan L. Ryan, President and C. Donald Sweeney, 
 Legislative Director, National Association of State Approving Agencies
INTRODUCTION
    Chairwoman Herseth Sandlin, Ranking Member Boozman and members of 
the Subcommittee on Economic Opportunity, we are pleased to appear 
before you today on behalf of the National Association of State 
Approving Agencies to provide comments on the functions of State 
Approving Agencies (SAAs), the value added by SAAs, the issue of 
overlap in the work of various ``approving agencies'' and funding 
needed by SAAs to carry out their responsibilities.
BACKGROUND
    State Approving Agencies recently celebrated sixty years of 
partnership with the U.S. Department of Veterans Affairs (DVA) in the 
administration of the veterans' educational assistance programs, more 
commonly known as the GI Bill. Through the program approval and 
supervision process, they ensure that money spent on veterans education 
is money well spent, and assist in reducing the opportunities for 
fraud, waste and abuse.
    In many ways the fundamental mission of State Approving Agencies 
(SAA) is the same today as it was when they were founded sixty years 
ago. State Approving Agencies:

    <bullet>  promote and safeguard quality education and training 
programs for veterans;
    <bullet>  ensure greater educational and training opportunities to 
meet the changing needs of veterans; and
    <bullet>  assist the DVA in preventing fraud, waste and abuse in 
the administration of the GI Bill.

    As State entities acting on behalf of the Federal government, they 
have been an outstanding example of the workability of the Federal-
State partnership, allowing Federal interests to be pursued at the 
local level while preserving the identity, interests and sovereignty of 
State's rights in education.
    Under Title 38, United States Code, each Governor designates a 
state bureau or department as the State Approving Agency for the state. 
Today there are 59 State Approving Agencies (some states have two) with 
about 200 professional and support personnel, supervising over 10,000 
active facilities with approximately 200,000 programs. Located in 
various state offices, including state departments of education, higher 
education boards, departments of labor, departments of veterans affairs 
and stand alone agencies--SAA professionals bring a wealth of formal 
education, training and experience to the appraisal of programs for 
veterans benefits.
REMARKS
A. Functions
    State Approving Agencies carry out their mission through their core 
functions of program approval, on-going contact and supervision, 
technical assistance, outreach, and liaison. As described below, each 
of these core functions continues to evolve as State Approving Agencies 
meet the challenge of a dynamic educational and training environment.

1. Program Approval--The appraisal process whereby SAAs determine 
whether new programs meet the requirements of law and are eligible for 
veterans' benefits.
    Under federal law, there are a host of approval criteria designed 
to (a) facilitate the accurate and timely payment of benefits; (b) 
minimize erroneous payments and opportunities for fraud, waste, and 
abuse; and (c) ensure that tax dollars spent on veterans education and 
training are dollars well spent. Programs are required to meet 
acceptable standards regarding student progress; credit for prior 
learning; establishment of branch campuses; treatment of residencies; 
independent study and practicums; educational contracting; student 
recordkeeping; program content; instructor expertise; sufficiency of 
facilities and equipment; and methods of instruction.
    SAAs also focus on policy issues and practices which frequently 
lead to problems with non-compliance. SAAs are particularly concerned 
with branch campuses, educational contracting, distance education, high 
tech courses of short duration, adult education, and accelerated 
classes. Often, it is the systems and policies in place that receive 
SAA attention. This is in addition to a detailed examination of the 
curricular structure and faculty credentials. Much of this can be done 
during a visit to the school in conversation with various school 
officials and a review of student records.

    <bullet>  Total Program Approvals Actions (both approvals and 
disapprovals) rose 97% from FY 97 to FY 05 and Apprenticeship and On-
The-Job Training program approvals rose 54% from 2,444 in FY 97 to 
3,760 in FY 05.
    <bullet>  SAAs work with deficient programs to assist them to meet 
approval standards and therefore only about five percent of all program 
reviews result in disapproval.

2. On-going Contact and Supervision--General and continuing oversight 
of our institutions to verify continued compliance with federal 
requirements; to prevent fraud, waste and abuse; to offer training; 
and--at the request of the VA--to investigate and provide assistance 
with compliance/program issues.
    Even at established schools and longstanding training programs, 
problems can crop up which will adversely affect the quality of the 
veteran's program or the amount of benefits paid. Pivotal to the 
protections the GI Bill affords its recipients is the on-going, on-site 
monitoring and supervision of institutions wishing to have their 
programs approved. In this regard there is no comparable association or 
agency which provides this level of proactivity. And this is why SAAs 
maintain their discretion to visit even highly regarded institutions.
    In the course of an oversight and training visit to the school or 
training establishment, the SAA determines whether each of the programs 
continues to meet the approval requirements of Federal and State law. 
Just as importantly the SAA assist the school/facility in maintaining 
continued compliance.
    An Oversight and Training Visit usually includes:

    <bullet>  A review of institutional policies and practices affected 
by the regulations. SAAs make note of changes to programs, facilities, 
ownership, off-campus offerings, internship policies, contracts with 
other training providers, transfer credit and the like. If a policy is 
not in accordance with the requirements of the regulations, SAAs often 
are able to negotiate a special policy for veterans or assist with the 
development of a general, school-wide policy that is in compliance.
    <bullet>  An investigation of the systems in place to carry out 
these policies. The SAA looks at such questions as: Is the school 
certifying official in a position to know about changes in a veteran's 
status? Are veterans being certified only for those courses that lead 
toward their educational, vocational or professional objective? Has the 
veteran's prior learning been evaluated and the veteran been notified 
of transfer or other credit which actually applies toward their degree? 
How quickly is the VA notified of a veteran's change in status? (For 
example, withdrawal from school or a change in programs).
    <bullet>  An examination of school and student records to verify 
that institutional policies are being enforced and that the required 
system of records is in place. SAAs also review veteran's records to 
ensure that veterans are being certified correctly and that the VA is 
not making payments based on erroneous information. This activity may 
save the veteran from having to return funds because of an overpayment 
when a problem is discovered on a compliance survey (audit) up to three 
years later. They also uncover evidence of inappropriate activity such 
as false and misleading advertisement.
    <bullet>  Visits also assist in the development of a good on-going 
relationship with school and training establishment officials. SAAs 
answer their questions, provide training, help them to problem-solve 
compliance issues, and encourage a greater sensitivity and awareness of 
veterans' benefits and needs. By nature of their job, SAAs have a broad 
overview of the education and training systems within the state. SAAs 
serve as consultants providing examples of best practices from other 
schools which interested schools can adopt.

    SAAs also conduct Inspection Visits to new schools and programs to 
ensure that they can comply with approval requirements and are familiar 
with certification and reporting procedures.

    <bullet>  On-going Oversight and Training Visits to all schools and 
programs increased 30% from 9,210 in FY 97 to 11,994 in FY 05.
    <bullet>  Inspection Visits to new schools and programs increased 
25% from 2,362 in FY 97 to 2,955 in FY 05.

3. Technical Assistance--Assistance given to schools, training 
establishments and individuals regarding approval of programs and 
certification of veterans. Schools and veterans rely on SAAs for 
timely, on-the-spot information--answering a seemingly endless stream 
of questions.
    SAAs render assistance to new schools seeking approval of their 
courses, employers looking to have their apprenticeship or other on-
the-job training programs approved, veterans and their families, 
members of the reserve components, etc. SAAs answer questions about how 
to apply for approval or how to certify a veteran with a special 
problem. They answer questions about program length requirements, how 
to write a training agreement including appropriate wage scale and 
related instruction, questions about the requirements for practical 
training, contract courses and institutional recordkeeping.
    Further, the SAA serves as a facilitator between the school, the 
veteran and the VA. SAAs are arbitrators of complaints and the advocate 
for maximization of a veteran's benefits. They are often the de facto 
trainers of new school certifying officials and they keep the schools 
apprised of new developments, often holding regional workshops for 
school certifying officials.

    <bullet>  Total overall training/assistance actions increased 43% 
from 19,635 in FY 97 to 28,107 in FY 05.
    <bullet>  Training/assistance given to Apprenticeship/On-the-Job 
Training facilities rose from 7,359 in FY 97 to 8,959 in FY 05 and 
training/assistance actions for Institutions of Higher Education and 
Non College Degree schools rose from 12,001 in FY 97 to 18,588 in FY 
05.

4. Outreach Activities--Efforts undertaken to reach out to various 
groups and promote the increased usage of veterans' educational 
benefits. At the request of the DVA, State Approving Agencies are 
heavily engaged in outreach efforts to promote the usage of veterans' 
educational benefits.
    Some SAAs have developed radio spots, television videos and print 
advertising to encourage veterans to take advantage of the GI Bill and 
especially apprenticeship and on-the-job training programs. Other SAAs 
do ``welcome home'' mailings to newly separated veterans congratulating 
them on their service and informing them of their benefits and the 
educational/training opportunities available to them in their State. 
Many SAAs make presentations at military retirement seminars and the 
transition assistance programs (TAPS) for those leaving the service. 
SAAs participate in local military and veterans events; job fairs, 
welcome home activities, supermarkets of benefits and other venues 
where they can encourage the use of benefits. They work with their 
state's departments of labor to assist veterans to find appropriate 
employment and training. In some states, the National Guard looks to 
the SAA approval in identifying programs eligible for national guard 
members to receive tuition support. Additionally, States have developed 
Web sites allowing veterans to learn about their State and Federal 
benefits and to search for what programs and schools are approved and 
available in their state.

5. Liaison Activities--Coordination with government, veteran and 
educational entities to facilitate the approval of programs and 
increase educational opportunities for veterans. As State agencies 
working with a Federal program, SAAs are uniquely situated to network 
with stakeholders in education and training to coordinate the improved 
delivery of veterans' benefits.
    State Approving Agencies work with others to exchange information, 
facilitate the increased approval of programs and raise awareness of 
the veteran, their educational needs and benefits. SAAs have forged 
links with State Agencies such as Departments of Veterans Affairs, 
Departments of Education, Higher Education Governing Boards, 
Departments of Labor and other licensing boards. They meet with 
representatives of accreditation associations, the National Guard and 
the Reserves, apprenticeship councils, union boards, and military 
service organizations. Some SAA staff members also participate on 
accreditation visits. At a national level, contacts are made with the 
Departments of Defense, Education, Labor, and Agriculture, as well as 
the Federal Aviation Administration, and Federal Trade Commission.
    State Approving Agency activities often complement what is being 
done at the state level and since not all states have program review 
offices, those SAAs become the de facto review entity for the State. 
SAAs often have ready access to information of value to program 
appraisal such as: a school's audited financial statements; school 
evaluation reports; results of in-depth assessments in particular 
areas; program review by governing or coordinating boards; and, 
institutional statistics and research findings.
B. Added Value
    In addition to the contributions stated in part A. Functions, State 
Approving Agencies help to ensure the success of the GI Bills by 
responding to new trends in education and training and by working with 
the DVA to take-on new challenges. As stated by a former Subcommittee 
Staff Director of the House Veterans Affairs Committee in an upcoming 
SAA outreach film--``SAAs are the face of the GI Bill at the state 
level.''
    Frequent interaction with officials at all levels within the state 
provides understanding of how the system works which in tern creates a 
unique ability to assist Veterans in accomplishing their education and 
training objectives.

    <bullet>  Special attention has been and continues to be given to 
the request by Congress and the DVA to promote the development and 
approval of apprenticeship and on-the-job training programs. Extensive 
efforts have been made by SAAs to make employers and unions aware of 
this benefit and to assist them in having these programs promoted and 
approved. As a result, the number of active apprenticeship/on-the-job 
training (or OJT) facilities has increased over 100% in 10 years from 
2,086 (in 1997) to 4,891 (in 2006). New initiatives include the 
approval of preparatory courses, licensure and certification 
examinations, and entrepreneurship programs.
    <bullet>  SAAs have expanded their outreach efforts to promote 
increased usage of GI Bill benefits as described in the Outreach 
Activities section of part A of this testimony. In FY 97 SAAs conducted 
12,724 outreach activities and in FY 05, 49,885. They continue to 
actively search for new ways to increase usage of the GI Bill and 
counsel veterans on available benefits and educational programs within 
their state.
    <bullet>  SAAs are directly involved with the new and emerging 
trends in education and training--ensuring their quality and 
availability for veterans. More and more distance education programs 
are now being approved. SAAs are reviewing and approving new short-term 
certification programs as illustrated by the growth in non-accredited 
NCD facilities and programs--from 605 in FY 97 to 835 in FY 03, an 
increase of 38% percent. Also SAAs continue to evaluate accelerated 
degree programs, external degree offerings, new branch campuses and 
traditional colleges contracting with private occupational schools to 
provide training for college credit.
    <bullet>  SAAs also are directing more attention to promoting and 
insuring the evaluation and acceptance of credit for military training 
and experience.
    <bullet>  And for the benefit of veterans, other GI Bill eligible 
persons, and the DVA, SAA personnel participate in on-going 
professional development activities to ensure the availability of a 
wide range of quality learning experiences. The National Association of 
State Approving Agencies (NASAA) is in the process of completely 
updating its National Training Curriculum required under law. Training 
Institutes are held for new staff approximately every eighteen months. 
One was just held last week in Chicago where over 50 SAA and VA 
personnel participated. All national meetings have a professional 
development component designed to provide specialized, advanced 
training in leading edge developments in our field such as, distance 
education, state licensing, outreach techniques, DOD recruitment 
concerns, and approval of short term on-going professional development 
courses such as Microsoft and Novell.
    <bullet>  State Approving Agencies have been at the forefront of 
the enactment of many of the improvements to the various GI Bills. They 
have first hand insights into the education and training needs of 
veterans and are able to bring recommendations to members of Congress 
and the responsible Committees. SAA personnel have had the honor and 
privilege of working with current and former members of Congress, 
including former Chairman Montgomery, to enact the Montgomery GI Bill 
(MGIB) and to expand program opportunities available under the law. 
Examples include the addition of apprenticeship and other on-the-job 
training (OJT) to Chapters 30 and 1606; non college degree and graduate 
programs to Chapter 1606; accelerated payments for high technology 
programs; increased benefit levels for apprenticeship and OJT 
participants; and revisions to the laws governing the approval of 
programs such as the period of operation rule, OJT wage requirements 
and pro rata refund policy.
    <bullet>  As founding member of the Partnership for Veterans 
Education, SAAs represented by their national association, is currently 
recommending the enactment of a Total Force MGIB that would simplify 
the administration of the law and bring equity to those who serve in 
defense of the freedoms that we all so thoroughly enjoy--equal program 
opportunity and benefits for equal service rendered. As you know Madame 
Chairwoman, this Subcommittee held an excellent hearing on the topic 
just a few weeks ago.

    In short SAAs are the face of the GI Bill at the state level.
    We provide:

    <bullet>  Veteran advocacy
    <bullet>  Outreach to Veterans
    <bullet>  Job training opportunity
    <bullet>  Consumer protection for Veterans entering education and 
training programs
    <bullet>  Assistance to Veteran who encounter problems at schools 
and training facilities
    <bullet>  Assistance with the prevention of waste, fraud and abuse

C. Overlap in the Work of Approving Agencies
    Sixty years ago the Congress chose a path that has served the 
veteran and the taxpayer exceptionally well. Instituting a state level, 
program approval process to ensure the quality and integrity of the 
various learning experiences in which veterans engage and to assist the 
federal government in preventing waste, fraud and abuse has proven to 
be an excellent decision.
    To the casual observer, it would appear that the work done by SAAs 
and that of the federal Departments of Education and Labor is similar, 
if not identical. A closer look reveals some stark distinctions, 
especially among ``approval'' activities for institutions and their 
programs.
    Earlier pages of this testimony provided insights into the 
processes used by SAAs. To summarize, the SAA program approval process 
is:

    <bullet>  Program oriented--Certificate in Automotive Technology, 
Associate of Science in Nursing, Bachelor of Science in Biology, et al. 
In lay terms, an evaluation of the appropriateness of the program 
objective, what is being taught to achieve the objective, by whom, with 
what resources and under what circumstances. The latter category 
includes, for example, an evaluation of policies and practices 
pertaining to program admission, credit for prior learning, and 
satisfactory progress.
    <bullet>  Built upon evaluations by other state and private sector 
entities when appropriate; e.g., state licensing, degree granting 
authority, and accreditation (institutional and/or specialized/
programmatic)
    <bullet>  Ongoing contact and monitoring on an annual or bi-annual 
basis

    Now let's take a look at the process used by the Department of 
Education and, in particular, accreditation since this element of the 
DOE process seems to be the major focal point of the discussion about 
overlap.
    The Departments of Education's direct involvement in the 
administration of Title IV, Student Financial Aid programs is limited 
to (1) the authorization and reauthorization of an institution to 
participate in Title IV through an application process that is heavily 
dependent upon third parties and (2) compliance visits which are 
monetarily oriented, sporadic and generally conducted at an institution 
where there have been reported or perceived problems. Of the two third 
parties connected to the initial (and continuing) authorization, 
accreditation is perceived to be the one that actually attempts to 
ensure overall quality and integrity at the institutional level. The 
other activity, state licensing, has long been proven to be limited in 
scope (generally applicable to proprietary business, trade and 
technical schools only) and generally ineffective because of lack of 
State funding to conduct full scale initial and followup evaluations. 
The United States has no Federal Ministry of Education or other 
centralized authority exercising single national control over 
postsecondary educational institutions in this country. The States 
assume varying degrees of control over education, but, in general, 
institutions of higher education are permitted to operate with 
considerable independence and autonomy. As a consequence, American 
educational institutions can vary widely in the character and quality 
of their programs.
    In order to ensure a basic level of quality, the practice of 
accreditation arose in the United States as a means of conducting non-
governmental, peer evaluation of educational institutions and programs. 
Private educational associations of regional or national scope have 
adopted criteria reflecting the qualities of a sound educational 
program and have developed procedures for evaluating institutions or 
programs to determine whether or not they are operating at basic levels 
of quality. (U.S. Department of Education)
Types of Accreditation
    Institutional accreditation normally applies to an entire 
institution, indicating that each of an institution's parts is 
contributing to the achievement of the institution's objectives, 
although not necessarily all at the same level of quality. The various 
commissions of the regional accrediting associations, for example, 
perform institutional accreditation, as do many national accrediting 
agencies.
    Specialized or programmatic accreditation normally applies to 
programs, departments, or schools that are parts of an institution. The 
accredited unit may be as large as a college or school within a 
university or as small as a curriculum within a discipline. Most of the 
specialized or programmatic accrediting agencies review units within an 
institution of higher education that is accredited by one of the 
regional accrediting commissions. However, certain accrediting agencies 
also accredit professional schools and other specialized or vocational 
institutions of higher education that are free-standing in their 
operations. Thus, a ``specialized'' or ``programmatic'' accrediting 
agency may also function in the capacity of an ``institutional'' 
accrediting agency. In addition, a number of specialized accrediting 
agencies accredit educational programs within non-educational settings, 
such as hospitals. (U.S. Department of Education)
Types of Accrediting Organizations
    Regional accrediting organizations operate in six different regions 
of the country and review entire organizations, 98 percent or more of 
which are both degree-granting and nonprofit. Regional organizations 
may also accredit non-degree, for-profit institutions, but this is a 
rare occurrence.
    National accrediting organizations operate throughout the country 
and review entire institutions. Of the nationally accredited 
institutions, 34.8 percent are degree-granting and 65.1 percent are 
non-degree-granting. 20.4 percent are nonprofit and 79.5 percent are 
for-profit. Many are single purpose institutions (i.e. information 
technology or business) and some are faith based.
    Specialized accrediting organizations operate throughout the 
country and review programs and some single-purpose institutions. There 
are more than 17,600 of these accredited programs and single-purpose 
operations. (Council on Higher Education Accreditation)
Recognized Accrediting Organizations
    There are no laws regarding the development or operation of an 
accrediting organization. Therefore, some are considered more 
legitimate than others. Similar to ``diploma mills'' there are some 
organizations considered ``accreditation mills'' that will accredit 
institutions for a fee without the utilization of what is generally 
considered acceptable standards.
    There are two organizations that are currently considered to 
``recognize'' legitimate accrediting agencies, the U.S Department of 
Education (USDE) and the Council for Higher Education Accreditation 
(CHEA). For USDE recognition, accreditation from the organization is 
used by an institution or program to establish eligibility to 
participate in federal student aid or other federal programs. The 
Council for Higher Education Accreditation is a private nongovernmental 
coordinating agency for accreditation. As defined by CHEA, it is ``A 
national advocate and institutional voice for self-regulation of 
academic quality through accreditation. . . .'' Individual accrediting 
organizations may be ``recognized'' by CHEA, the U.S. Department of 
Education, or both.
Quality
    The term ``quality'' is used by multiple organizations however, it 
is rarely defined. For the purposes of this document, ``quality'' will 
refer to meeting or exceeding a minimum set of standards. A functional 
reality of this definition is that the establishment of the designation 
``quality'' is dependent on the minimum standards of the organization 
performing a review. While an institution may be considered of quality 
by one organization, it may not meet the designation of quality by a 
different organization using a different set of standards.
Section Purpose
    The purpose of this section of the testimony is not to portray 
either State Approving Agencies or accrediting organizations as having 
more or less value than the other. Each serves a purpose in 
relationship to the educational community. However, the value of each 
differs in terms of mission, standards, and purpose. State Approving 
Agencies and accreditation organizations each have a function, but the 
functions are not duplicative. State Approving Agency approval and 
accreditation are complimentary, not identical, processes.
    To assist in gaining a better understanding of what accreditation 
is and is not, the following excerpts from a book entitled 
Understanding Accreditation by Kenneth E. Young, et.al. are reprinted. 
Dr. Young was the founding President of the Council on Postsecondary 
Accreditation, the former umbrella organization for accrediting 
associations.
         ``Accreditation is a process by which an institution of 
postsecondary education evaluates it educational activities and seeks 
an independent judgment to confirm that it substantially achieves its 
objectives and is generally equal in quality to comparable institutions 
or specialized units. Essential elements in the accreditation process 
are (1) a clear statement by the institution of its education 
intentions, (2) the conduct of a directed self-study focused on the 
achievement of these intentions, (3) an on-site evaluation by a 
selected group of peers, and (4) a decision by an independent 
accrediting commission (comprised of fellow educators) that, in light 
of its standards, the institution or specialized unit is worthy of 
accreditation. The accreditation process is designed primarily to 
encourage and assist the institution to evaluate itself objectively and 
then for the accrediting body to validate what the institution has said 
about itself.''
         ``Institutional accreditation (1) deals with the total 
institution, (2) is almost always the basis for institutional 
membership, and (3) focuses primarily on institution-wide objectives, 
processing, and outcomes.''
        The major characteristics of accreditation are the following:

        1.  It is predominantly a voluntary, private-sector activity 
and therefore cannot mandate compliance or control behavior except by 
persuasion and peer influence.
        2.  It is the premier example of self-regulation (as opposed to 
government regulation) in postsecondary education.
        3.  It focuses primarily on judging educational quality--an 
elusive concept--and, given the great diversity of postsecondary 
educational institutions in the United States, criteria tend to be 
general and variable.
        4.  It functions essentially as an evaluative process, and 
institutional self-study is at the heart of the process, and
        5.  It provides outside consultation, closely tied to the 
institution's own research and planning.

         To understand what accreditation is not is also important. 
Accreditation is not governmental, although both federal and state 
agencies use it--to determine eligibility for certain government 
programs and in relation to professional licensing. It is not 
mandatory, although there are strong social and political pressures and 
even some legal prods to encourage participation. It is not a rating 
system, although institutions and programs generally do get compared. 
It is not a mechanism for formally policing institutional behavior; 
accrediting bodies do not have to assess compliance, even if they 
wanted to. Rather, it depends on informal monitoring, generally through 
the accrediting body following up on a complaint about an institution 
(usually from an unhappy faculty member or student, another institution 
or state agency). It does not deal directly with credits, despite its 
name, although it is often used to help distinguish (sometimes 
erroneously) between worthy and unworthy prior educational experiences. 
And it is not a stamp of approval on individual students or courses; it 
does not operate at that level of analysis, although it is often 
perceived that way.
         The public is often led to believe that accreditation forces 
compliance on institutions. Although colleges and universities are 
certainly expected to comply with the policies, procedures, and 
requirements established by the accrediting body to maintain 
membership, the value and effectiveness of the entire process 
nevertheless lies in the institution's own commitment to excellence and 
continuous self-study and evaluation. The public has little 
understanding of the voluntary nature of accreditation and the fact 
that compliance guarantees are not systematically built in. ``Indeed, 
any guarantees reside in the individual institution's seriousness of 
purpose and its sincerity.''
    In summary, other speakers at this hearing today already have or 
will address the DOE process for Title IV eligibility and the role of 
accreditation in that process so our testimony will not go into greater 
detail. However, we believe that it is important to restate that the 
major differences between SAAs and accreditation lie (1) in their 
mission, standards, and purpose and (2) operationally in the depth, 
breadth and frequency of their reviews. They each have a function, but 
the functions are not identical or duplicative--they are complimentary. 
The SAA process is a governmental quality control mechanism while 
accreditation is a private sector quality enhancement process.
Apprenticeship and Other On-The-Job Training
    The distinctions between the work of SAAs and the federal 
Department of Labor on the approval of apprenticeship and other on-the-
job training (OJT) programs also can be described as complimentary. The 
additional work by SAAs with Registered Apprenticeship Programs is 
almost exclusively connected to the specific requirements of Title 38, 
U.S. Code pertaining to the payment of VA benefits.
    Unregistered apprenticeship and OJT programs are another matter. 
For the vast majority it is only the SAA that works with the program 
sponsor to review what is to be taught/learned, by whom, with what 
expertise, with what resources and under what circumstances. This is in 
addition to insuring that the requirements of Title 38 are also being 
met.
D. Funding
    The total annual allocation for SAA activities is stipulated in 
Title 38. The annual share of the allocation awarded to each SAA is 
determined by a formula essentially based upon the number of active 
schools and training establishments being supervised. The total annual 
allocation was capped at 12 million dollars from 1989 to 1994. In 1995, 
the cap was increased to 13 million dollars until 2001, when it is 
being raised to 14 million dollars. From 2004 thru 2005, the cap was 
raised to 18 million dollars and for 2006 thru 2007 it was raised to 19 
million dollars. If no action is taken, in 2008 the cap will revert 
back to 13 million dollars--a 32 percent cut!

    <bullet>  The SAAs are periodically in a state of uncertainty. 
Without either the ability to carryover funds from one year to the next 
or to rely on an annual cost of living adjustment, prudent planning is 
not possible.
    <bullet>  SAAs/States need funding stability in order to plan for 
and execute activities that meet the requirements of law and the 
contract between the State and the VA. Many SAAs are comprised of one 
full time professional staff person--some have only a part time person. 
Program approval and monitoring activities, especially those associated 
with apprenticeship and other on-the-job training programs, require 
expertise and timely action. Unstable funding does little to support 
this.
    <bullet>  In order to provide an acceptable level of service to 
veterans, the Congress, and the DVA and to continue to take on 
additional roles as needed, SAAs must be consistently funded at an 
adequate level. Once restored to the current level of $19 million, the 
amount should be adjusted each year by the government-approved COLA 
applied to other benefit programs.

    In summary, SAAs make major contributions to the success of the 
various GI Bills in many ways. These contributions far exceed the 
proportionate amount of funds received by the Agencies when compared to 
the amount of benefits provided to veterans and other GI Bill eligible 
persons. The contributions include, but are not limited to, the 
following:

    <bullet>  determinations regarding the quality and integrity of 
just about any kind of learning experience imaginable (institutional, 
job training, flight, correspondence, etc.);
    <bullet>  work with employers to develop and enroll veterans in job 
training programs;
    <bullet>  assessments of tests for professional and occupational 
licensing and certification;
    <bullet>  training of VA Certifying Officials at educational 
institutions and job training establishments;
    <bullet>  briefings during transition assistance programs and 
retirement seminars, mailings to recently discharged veterans and 
Selected Reserve personnel, and other outreach activities to increase 
the utilization of the GI Bills;
    <bullet>  providing advice and guidance directly to veterans and 
other GI Bill eligible persons and indirectly through educators, 
trainers and others who counsel veterans;
    <bullet>  serving as the gatekeepers for the ``GI Bill'' and 
advocates for veterans at the state and local levels;
    <bullet>  assisting the federal government to eliminate waste, 
fraud and abuse; and,
    <bullet>  state based SAAs provide local insights to the Congress 
and the VA on revisions to law that would better help to meet the 
education and training needs of veterans.
CLOSING
    In closing, Madame Chairwoman, we would like to thank you and 
members of the Subcommittee again for the opportunity to comment on the 
functions of State Approving Agencies (SAAs), the value added by SAAs, 
the issue of overlap in the work of various ``approving agencies'' and 
funding needed by SAAs to carry out their responsibilities so that the 
GI Bill remains the country's premier educational assistance program 
bar none. Mr. Sweeney and I would be happy to respond to any questions 
that you might have.

                                 <F-dash>
     Statement of George W. Summerside, Veterans Education Program 
            Specialist, South Dakota State Approving Agency

INTRODUCTION
    Chairwoman Herseth Sandlin, Ranking Member Boozman and members of 
the Subcommittee on Economic Opportunity, I am pleased to appear before 
you today on behalf of the South Dakota State Approving Agency to 
discuss the functions of State Approving Agencies and the value these 
agencies have for those eligible for VA educational benefits in South 
Dakota.

BACKGROUND
    Sixty years ago Congress, determined that each State should create 
an agency to approve the programs within its borders and to determine 
in which programs it was appropriate for Veterans to enroll, in order 
for them to utilize their VA educational benefits. The first State 
Approving Agencies (SAA) were formed for Veterans after World War II. 
Each State has one and a few states have two or three. One agency would 
approve all school programs, another agency would approve all on-the-
job training programs, and then possibly a third agency would approve 
the flight schools. Our state approves all programs for those wishing 
to utilize their VA educational benefits.
    After a few years States realized that a national Association was 
needed and in 1948 the National Association of State Approving Agencies 
(NASAA) was formed. The National Association assisted states in 
coordinating their efforts to do a better job for our nation's 
Veterans. Also it was a tool to resolve mutual problems that were 
affecting our members.
    One of the keys to the success of this association has been the use 
of technology. Our association created a viable Internet Web site for 
the utilization of our association, our service partners and our 
customer ``The American Veteran.'' Capabilities include: directories 
for State Approving Agencies and State Veterans Affairs Offices, 
legislative updates, State and Federal regulatory information, and 
veteran-related career, educational, and benefit information. Our site 
is being re-designed and should be completed by the end of this month. 
The redesign will bring many new enhancements which will further 
improve communication between our members and the Veterans we serve. 
South Dakota has been the webmaster for this site since it's creation 
in 1998.
    Our website also has a section exclusively for our members. This 
members' section includes: directories for our membership and other 
service partners, presidential updates/briefings, committee updates, 
association projects, calendar of upcoming events, samples of work 
processes for training programs (over 1,000), national training 
curriculum, outreach materials and online quarterly reporting system. 
Members can also send e-mail to other members and post information 
through the NASAA bulletin board.

                    ROLE OF STATE APPROVING AGENCIES

    In many ways the fundamental role of state approving agencies is 
the same today, as it was when they were founded. As state entities 
acting on behalf of the Federal Government, the SAA's have been an 
outstanding example of the workability of the State-Federal 
partnership, allowing Federal interests to be pursued at the local 
level while preserving the identity, interests and sovereignty of 
States' Rights in education.

PROGRAM APPROVAL
    The primary responsibility and focus of the SAA's continues to be 
the review, evaluation and approval of quality programs of education 
and training under State and Federal criteria. SAA's continue to 
conduct on-site inspection visits to approved institutions and schools 
seeking approval. The programs that can be approved are found in 
institutions of higher learning (colleges and universities), non-degree 
institutions (vocational and technical schools), apprenticeship 
programs, other on-the-job training programs, and flight training 
schools. Each State reviews the appropriateness of each program as to 
its own standards and laws in addition to VA rules and regulations 
along with any other applicable laws and/or regulations. Then it is 
either approved or disapproved; continuous supervision is required of 
approved programs. The following statement is provided to illustrate a 
school's viewpoint of the approval process for a non-degree 
institution:

          As Director of the Career Learning Center of the Black Hills 
        (CLC), I was approached by Mr. Ken Moon, South Dakota Veteran's 
        Outreach Representative who asked me if I had considered 
        applying to the South Dakota State Approving Agency for 
        approval of our short-term skill training programs as non-
        degree level courses. Mr. Moon conveyed to me that he believed 
        the CLC training programs may fit the needs of some of the 
        veterans who are in need of skill training, but who are not 
        willing and/or able to commit to a formal postsecondary 
        educational program. Mr. Moon gave me the name and telephone 
        number of the Education Program Specialist from the South 
        Dakota State Approving Agency, Mr. George Summerside, to 
        contact about making application.
          From the first conversation I had with Mr. Summerside, I felt 
        confident and assured that any assistance I needed in 
        completing the application would be provided. It was also very 
        evident to me that George had the utmost respect for the 
        process and the requirements for the application and would make 
        certain that all required components of the application would 
        be included in the utmost organized and detailed manner.
          My experience in working with the South Dakota State 
        Approving Agency, in preparation of the application for Non-
        Degree Level Courses was one of high-level professionalism with 
        exemplary technical assistance provided. Mr. Summerside is 
        acutely aware of the requirements for this application and was 
        extremely interested in assisting with inclusion of all the 
        requirements for the application. George looked over numerous 
        drafts of the application and attachments before we submitted 
        the final and completed application for consideration. Since 
        this time, The South Dakota State Approving Agency has provided 
        additional advice and assistance in completing paperwork for VA 
        students of our courses.
          There is no question that without the assistance, direction, 
        advice and support of Mr. Summerside, the application process 
        would have been much more difficult and time consuming.
                                         Gloria Pluimer, Director  
                        Career Learning Center of the Black Hills  

    The next statement illustrates a veteran's viewpoint of the 
approval process for an On-The-Job training program:

          I retired from the U.S. Navy in 1993 following 27 years of 
        active service. I had not used any of my GI Bill Education 
        benefits at the time of my retirement. I returned to South 
        Dakota with the intent of going back to school and completing 
        my college education.
          I applied for the On-The-Job Training Program in 1994 through 
        the SD Division of Veterans Affairs--State Approving Agency--
        and was enrolled. I was most appreciative of the 
        professionalism of the person from the State Approving Agency 
        who worked with my employer and me to design a tailored 
        training program. No doubt without the availability of this 
        education benefit, I would not have been able to accept this 
        training position.
          Not everyone or every discipline is suited to the traditional 
        classroom style of training and education. The On-The-Job 
        Training Program offers an excellent alternative educational 
        benefit opportunity for those individuals and disciplines. 
        Without this program, it is most probable that my GI Bill 
        Educational Benefits would have gone unused.
                                         Ron Boyd, State Adjutant  
                                               SD American Legion  
PROGRAM SUPERVISION
    Our agency conducts annual supervisory visits to each active 
facility to review the resources and capabilities which are required 
for continued program approval. The ongoing, on-site monitoring and 
supervision are vital to ensure these approved institutions continue to 
provide quality educational programs and meet VA compliance 
requirements. The following statement illustrates the importance of 
these visits and supervisory support provided.

          ``When I took over supervision of USD Veterans' Services in 
        2005, our practices needed to be revamped to meet our 
        obligations to the VA and our students. I met with George 
        Summerside, SD State Approving Agency, in June 2005 at a 
        regional training session for which he was one of the main 
        speakers and coordinators. George immediately offered his full 
        support and assistance to the University, and he followed 
        through.
          Throughout 2005 and 2006, George was readily available to 
        clarify laws and policies surrounding education benefits. He 
        frequently gave suggestions (sometimes directives) about how 
        The University could meet its obligations, which have improved 
        our services to the students a hundred fold. He provided us a 
        network of other higher education administrators and people 
        employed by the VA who provided invaluable advice.
          During the same time period, George visited our campus on 
        three occasions. Two were supervisory visits to help us gauge 
        our progress, and one was to sit on a panel discussion for a 
        Veterans Day event hosted by the USD Veterans Club (a student 
        group). George's participation in the Veterans' Day event was 
        widely appreciated by our students and the community, because 
        it demonstrated a positive link to the individuals in 
        Vermillion and the SD Division of Veterans Affairs.
          In addition, George was able to provide me much of the 
        information and support I needed to take to my superiors to 
        request the assignment of a full-time employee to USD Veterans' 
        Services. A full-time position was filled in September 2006.
          On behalf of the veterans and their dependents attending The 
        University of South Dakota, I can honestly claim that the 
        support of our state approving agency is essential to our 
        success. Thank you for the opportunity to submit this 
        statement.''
                                Jenifer Jost, Associate Registrar  
                                   The University of South Dakota  

    The next statement provides the prospective from Brink 
Constructors, Inc., an approved training establishment:

          First let me say what a pleasure it has been working with the 
        SD State Approving Agency and associated staff. The staff is 
        very knowledgeable and always able to assist us with our 
        questions.
          The veterans who join our apprenticeship program are greatly 
        benefited by the financial assistance provided to them through 
        the GI Bill and Apprenticeship Program.
                                                              Judith M. 
        Michael
                        Robin Cressy-Eddy
                                                              
        Apprenticeship
                        Human Resource Administrator
                                                              
        Coordinator
LIAISON
    Yet, while the fundamental role of the SAA has remained the same, 
the SAA's have grown with the changes in our society over the past 
sixty years. They have become advocates for quality education and 
training for Veterans and other eligible persons. They have become 
educational partners with the institutions themselves, facilitating 
even greater and more diverse educational opportunities for Veterans. 
They have become strong advocates for the usage of the GI Bill and have 
developed a working partnership with the Federal government, which 
other Federal agencies have tried to emulate.
    As State and National priorities change, as the function of 
government undergoes perpetual re-examination, and as the needs of our 
Veterans evolve with changes in American society, state approving 
agencies stand ready to meet the challenges before them. In spite of 
the need for new approaches and technologies, differing styles of 
oversight and enhanced criteria for performance, the fundamental 
reasons for which the SAA's were originally created remain as valid 
today as they were sixty years ago. Mr. Del Johnson, Retired SD 
Education Liaison Representative (ELR) offers his opinion on State 
Approving Agencies. Del retired with over 28 years of experience with 
VA educational services.

          In my opinion there is a real value in having a State 
        Approving Agency in each state. Approval of VA educational 
        programs requires extensive knowledge of many complicated laws 
        and regulations. It is absolutely necessary that the local 
        schools and training establishments have someone with whom they 
        can have personal contact. My experience was that there will 
        always be differences in interpretation and the SAA serves a 
        very important role between the Veterans Administration and the 
        institutions which offer these programs. Now that the 
        Department of Veterans Affairs has become more regionalized we 
        have states that do not have an ELR (Education Liaison 
        Representative) located in the Regional Office in their state, 
        South Dakota is one of those states. This makes the 
        institutions and veterans more isolated from the VA.
          The philosophy that ``bigger is better'' does have its limits 
        and the impact on our smaller states can be negative. There is 
        a need for each state to have a fully staffed SAA so the 
        veterans in that state do not suffer with additional delays in 
        obtaining their educational benefits. These agencies are vital 
        and any reduction in funding would negatively impact VA 
        educational programs.

                                                      Del Johnson  
                                                   Retired SD ELR  

    Our office has developed strong partnerships with many within our 
veterans' service network and the following comments illustrate these 
relationships.

          The State Approving Agency is a valuable resource for South 
        Dakota's County and Tribal Veteran Service Officers whose job 
        it is to properly serve these veterans.
          With the new influx of veterans from the War on Terrorism, it 
        is more important than ever that they are provided with all the 
        benefits they are entitled to, including education.
          The State Approving Agency has been there for me on countless 
        occasions to provide quick and highly professional assistance 
        at any time a question arises while initiating an education 
        claim or by personally contacting the St. Louis Regional 
        Processing Center on our behalf when a problem arises during 
        the life of the claim or benefit.
          To ever lose or restrict the State Approving Agency, in 
        particular George Summerside or Dr. Tom Murphy, due to federal 
        budget restraints would be a HUGE disservice to South Dakota's 
        veterans.
                                                     Ken Lindblad  
                           Beadle County Veterans Service Officer  

    The next statement was submitted by one of our SD Veterans 
Commissioners.

          The SD Veterans Commission relies on select individuals to 
        advise the Commission on veteran related issues and programs. 
        Without the SD State Approving Agency's valuable input our 
        Commission would not be able to make informed decisions on VA 
        educational issues. State Approving Agencies have not only 
        ensured that those eligible for VA educational benefits enroll 
        in quality education and training programs, but they have also 
        served as a champion of veterans educational benefits.
                                        Bill Locken, Commissioner  
                                           SD Veterans Commission  

    The following statement provides a viewpoint from Muth Electric 
Inc., an approved training establishment.

          We appreciate the value that the SD State Approving Agency 
        provides to the employees of Muth Electric. Any time there is a 
        benefit that we can offer to our employees, especially those in 
        transition from military to civilian life, we are more than 
        willing to do so. Working with the SD State Approving Agency 
        has allowed our employees an opportunity to utilize their 
        military benefits while learning an exciting and challenging 
        trade.
                                                         Amy Tlam  
                                                       HR Manager  

    Our agency acts as the state liaison in assisting veterans groups, 
schools, training establishments, and other service partners with a 
better understanding of the many VA educational opportunities. By 
working together we can facilitate even greater and more diverse 
educational opportunities for those who are eligible for these well 
deserved and earned benefits.
TECHNICAL ASSISTANCE
    This assistance is provided to schools, training establishments, 
County and Tribal Veterans Service Officers, and individuals on a wide 
range of VA educational issues and concerns. The information is 
provided during phone conversations, in emails, during visits and in 
correspondence. These inquiries are increasing and they require a 
considerable amount of staff time to be addressed.
    The needs of the VA student are and always will be of primary 
concern to this office. The following statement depicts one student's 
opinion of our office.

          In the past few months George Summerside has been an 
        excellent client advocate. Without his dedication and loyalty 
        the Veterans Education Program would be nothing. Personally I 
        could not have done the nursing program at Western Dakota 
        Technical Institute without him, for he made sure my VA 
        benefits were released to me in enough time to pay my bills, 
        and I did not have to go back to work.
          Sincerely,
                                                  Samantha Donley  
OUTREACH
    Our agency is continually developing creative and innovative ways 
to promote and educate the public on VA educational programs. During FY 
2006 our staff developed and distributed over 6,000 brochures/posters 
to Veterans, guardsmen/reservists, dependents/survivors and other 
partners within our veterans' service network. Our agency participates 
in veterans' forums, demob briefings, workshops, and other events 
whenever our presence can inform or educate the public on the excellent 
learning opportunities for those eligible for VA educational benefits.
SUMMARY
    The core functions that I have discussed today all center around 
the program approval. The primary responsibility and focus of the SAA's 
continue to be the review, evaluation and approval of quality programs 
of education and training. Our agencies have sixty years of experience 
with this process.
    Our National Association has developed the National Training 
Curriculum to serve as a reference and training tool for both new staff 
and existing agency professionals. This excellent reference guide 
ensures that staff is trained adequately to perform the comprehensive 
functions of a State Approving Agency professional. In addition to the 
National Training Curriculum our association has created the National 
Training Institute. This Institute provides classroom training for new 
staff, and both SAA and VA personnel participate. They are held 
approximately every eighteen months.
    If this funding solution is not resolved, there will be a reduction 
of 32% from the current funding level. South Dakota's contract will be 
reduced by over $66, 000 dollars in FY 2008. This will have a negative 
impact not only on our state but across this nation. The many things 
that we are doing in outreach and customer service would no longer be 
possible.
    Today you have heard from different agencies and groups; 
statistical and narrative information has been provided for your 
review. The testimonies today are not a true measure of our value; our 
true value rests in the heart of each of the dedicated staff whose sole 
purpose is the approval of quality programs of education for those 
eligible for VA educational benefits. Our agencies worth is measured by 
this dedicated devotion to excellence, and our nation's Veterans 
deserve no less.
Closing
    In closing, Madam Chairwoman, I would like to thank you and members 
of the Subcommittee again for the opportunity to comment on the 
functions of the South Dakota State Approving Agency and the value they 
add in the State of South Dakota. I would be happy to respond to any 
questions that you might have.

                                 <F-dash>
                    Statement of John M. McWilliam,
       Deputy Assistant Secretary for Operations and Management,
  Veterans' Employment and Training Service, U.S. Department of Labor
    Chairwoman Herseth Sandlin, Ranking Member Boozman, and 
distinguished members of the Subcommittee:
    I am pleased to appear before you today on the subject of the role 
of the State Approving Agencies (SAAs) in assisting the Department of 
Labor (DOL) and other issues related to apprenticeships and on-the-job-
training (OJT) programs.
    DOL has a separate responsibility from that of the SAAs. Under the 
National Apprenticeship Act 1937, DOL is the only federal agency 
authorized to register apprenticeship programs for federal purposes. 
``Federal purposes'' includes any federal contract, grant, agreement or 
arrangement dealing with apprenticeship; and any federal financial or 
other assistance, benefit, privilege, contribution, allowance, 
exemption, preference or right. DOL's role is to safeguard the welfare 
of apprentices, ensure equality of access to apprenticeship programs, 
and provide integrated employment and training information to sponsors 
and the local employment and training community.
    Title 38, section 3687(a)(1) indicates that an eligible veteran may 
be paid a training allowance while pursuing a full time ``program of 
apprenticeship approved by a State approving agency as meeting the 
standards of apprenticeship published by the Secretary of Labor. . . 
.'' (Emphasis added).
    Therefore, for an apprenticeship program to be approved for 
veterans' benefits, it first must meet the standards of apprenticeship 
published by the Secretary of Labor. These standards require that the 
program be registered by either DOL or a DOL-recognized State 
Apprenticeship Agency. These State Apprenticeship Agencies are separate 
from the State Approving Agencies being discussed at today's hearing.
    State Apprenticeship Agencies and DOL use basically the same 
assessment and approval criteria. State Apprenticeship Agencies' 
regulations conform to federal regulations for the registration of 
apprenticeship programs. There are, however, variations in the 
operational procedures between State Apprenticeship Agencies and the 
Office of Apprenticeship (OA) in DOL's Employment and Training 
Administration.
    Registration of an apprenticeship program by DOL or a DOL-
recognized State Apprenticeship Agency must comply with the 
requirements set in 29 Code of Federal Regulations (CFR) parts 29 and 
30, the Department's regulations for registered apprenticeship. 
Apprenticeship program sponsors prepare and submit Standards of 
Apprenticeship for review and approval by DOL or a DOL-recognized State 
Apprenticeship Agency. Standards must state the term of the 
apprenticeship (not less than 2,000 hours); the work processes in which 
the apprentice will receive supervised work experience and training on 
the job; provision for related technical instruction (a minimum of 144 
hours per year of apprenticeship is recommended); the progressively 
increasing schedule of wages to be paid to the apprentice consistent 
with the skill acquired; and other requirements pertaining to program 
administration. When DOL or a DOL-recognized State Apprenticeship 
Agency has determined that the standards comply with 29 CFR parts 29 
and 30, DOL or the DOL-recognized State Apprenticeship Agency issues 
the program a Certificate of Registration, which recognizes the program 
as a registered apprenticeship program for federal purposes. DOL or 
DOL-recognized State Apprenticeship Agency staff provides technical 
assistance to current and potential program sponsors for the 
preparation or modification of apprenticeship standards and to promote 
compliance with the apprenticeship regulations.
    DOL has not yet determined what, if any, overlap currently exists 
between reviews by the Registered Apprenticeship System (State 
Apprenticeship Agencies and DOL's Office of Apprenticeship in the 
Employment and Training Administration) and State Approving Agencies. 
We believe there may be overlap in the review of program sponsors' 
performance. As provided by the regulations for registered 
apprenticeship (29 CFR parts 29 and 30), DOL and DOL-recognized State 
Apprenticeship Agency staff conduct periodic reviews and evaluations of 
registered apprenticeship programs, including Quality Assurance 
Assessment reviews. These reviews may overlap with monitoring and 
assessments conducted by State Approving Agencies.
    Registered apprenticeship programs must maintain compliance with 
the standards for registered apprenticeship, whether they are 
registered with DOL or a DOL-recognized State Apprenticeship Agency. 
DOL and DOL-recognized State Apprenticeship Agenciescurrently register 
over 29,000 apprenticeship programs nationally with approximately 
250,000 participating employers. Veterans comprise more than 8% of the 
currently 449,000 registered apprentices.
    DOL supports working with the VA and the Department of Education to 
assess both the similarities and the differences between the assessment 
components of the VA and DOL regulations and to determine how to 
further collaborate. In fact, the first such meeting between DOL and VA 
occurred on March 20, 2007, to discuss possible cooperative efforts. We 
look forward to continued collaboration with partners at VA and the 
Department of Education.
    DOL does not have any responsibility for, nor do we participate in, 
OJT programs for veterans in relation to the national apprenticeship 
system. Our enabling legislation, the National Apprenticeship Act 1937, 
deals specifically with registered apprenticeship. However, OJT is an 
allowable use of funds through other DOL authorizing statues, such as 
the Workforce Investment Act 1998.
    Thank you for the opportunity to discuss this important issue. I 
would be pleased to respond to any questions.

                                 <F-dash>
                    Statement of Carol A. Griffiths,
               Chief, Accrediting Agency Evaluation Unit,
    Office of Postsecondary Education, U.S. Department of Education

    Good afternoon Chairwoman Herseth-Sandlin, Ranking Member Boozman, 
and members of the Subcommittee. I appreciate the opportunity to appear 
before you today to share with you the Department of Education's 
activities related to the accreditation of postsecondary education 
institutions and programs. My testimony will describe the U.S. 
Secretary of Education's accrediting agency recognition process--
providing you with a snapshot of the type and breadth of accrediting 
agencies currently recognized by the Secretary and the components of 
the recognition process, as well as--highlighting some of the criteria 
for recognition and the role of the Secretary's Advisory Committee in 
the recognition process.
    The Department of Education relies on accreditation by recognized 
accrediting agencies and State approval agencies as a primary factor in 
establishing the eligibility of institutions to participate in federal 
student financial aid programs authorized by Title IV of the Higher 
Education Act 1965 (HEA). Other Federal departments also rely on the 
Secretary's recognition of accrediting agencies as an eligibility 
factor for participation in various programs they administer. In the 
context of the recognition process, State approval agencies are units 
within State Departments of Education that have responsibility for the 
oversight of postsecondary vocational education.
Authority
    Since 1952, the Secretary of Education has published a list of 
recognized accrediting agencies that the Secretary determines are 
reliable authorities of the quality of education and training provided 
by the institutions and programs they accredit. The initial authority 
for this was in the Servicemen's Readjustment Act; the recognition 
authority is now part of the HEA, which establishes the requirements 
for recognition of accrediting and state agencies.
    Currently the Secretary recognizes 62 institutional and 
programmatic accrediting agencies. There are 4 types of institutional 
accrediting agencies, though the distinctions between them are 
diminishing.
    National institutional accreditors--as the name suggests--accredit 
schools throughout the United States. Historically, they've accredited 
private for-profit institutions offering predominantly non-degree, 
vocational technical education programs. However, their recognized 
accrediting activities have expanded to include accreditation at all 
educational levels, including doctoral degrees and the accreditation of 
private non-profit institutions. Their emphasis remains, however, on 
the accreditation of institutions providing professional, technical, 
and occupational education programs.
    Regional institutional accreditors, as the label implies, accredit 
in a specific geographic region of the U.S. There are 6 regional 
accrediting associations--New England, Middle States, North Central, 
Northwest, Western, and Southern. Historically, the regional 
accrediting associations accredited public and private-nonprofit 
degree-granting institutions of higher education. Again, as for-profit 
education has expanded into the degree-granting realm, regional 
accreditors have expanded their accreditation activities to include 
accreditation of for-profit institutions. Also, as public and private 
degree-granting institutions have expanded their offerings to include 
non-degree programs, regional accreditors have augmented accrediting 
activities to include these non-degree programs.
    The New York State Board of Regents is the sole accrediting body in 
a third category of institutional accreditor. The Board of Regents is, 
by federal statute, eligible to seek recognition for its accreditation 
of a limited universe of degree-granting institutions (24 institutions) 
in New York seeking to participate in HEA programs.
    The fourth type of institutional accreditor is the specialized, 
programmatic accreditor that accredits single-programs and single-
purpose institutions, so that those schools may be eligible to 
participate in the federal student financial aid programs. These 
include accreditors of free-standing schools of osteopathic or 
podiatric medicine, free-standing schools of music, dance, or theater, 
or schools of mortuary science. These specialized accreditors accredit 
a specific type of educational program and are usually closely 
associated with, or part of, an association of individuals employed in 
that profession.
    The Secretary's recognition process also includes 5 State approval 
agencies in 4 States (New York, Oklahoma, Pennsylvania, and Puerto 
Rico) that have sought and received recognition for their oversight of 
public, postsecondary, vocational-technical education in their 
respective States to enable those programs to participate in student 
aid programs authorized by Title IV of the HEA. These agencies are a 
part of the State educational agency in their respective States, and 
this recognition enables access to Federal student aid by adults 
enrolled in programs usually offered through the adult vocational 
education program of the local K-12 school district.
The Recognition Process
    The recognition process is voluntary. The Secretary's recognition 
is not required for accrediting agencies to exist, or to accredit. 
However, recognized accreditation is a requirement for institutions' 
and programs' participation in the Title IV student aid programs and in 
many other Federal programs.
    Also, since the 1992 reauthorization of the HEA, an accreditor must 
demonstrate a Federal purpose for seeking the Secretary's recognition. 
The accreditor must establish that its accreditation is necessary to 
enable one or more of its accredited institutions or programs to 
participate in a Federal program. Therefore, not all accreditors, even 
those that may desire to submit to the Secretary's review process, are 
eligible for recognition.
Components of the Recognition Process
    To some extent, the components of the recognition process parallel 
the accreditation process. Like the accreditation process, the 
recognition process includes an agency self-review, Department review 
of the agency's policies, standards, procedures and practices, 
solicitation of public input, a review by the Secretary's National 
Advisory Committee on Institutional Quality and Integrity (NACIQI), a 
Committee representative of the higher education community, and a 
decision by the Secretary. Each agency is reviewed at least once every 
5 years (4 years for State approval agencies).
    Eligible accrediting agencies seeking recognition must demonstrate 
their compliance with the criteria for recognition published in 34 CFR 
Part 602. As a first step of the process, an accreditor conducts a 
self-review of its compliance with the Secretary's criteria for 
recognition and submits a statement of its requested scope of 
recognition along with a narrative describing its compliance with each 
of the 18 criteria for recognition and documentation evidencing that 
compliance. The agency also submits to observations of its activities 
and reviews of its files by Department staff. State approval agencies 
must demonstrate compliance with 34 CFR Part 603 in the same manner.
    The requested scope of recognition includes the range of 
accrediting activities for which the Secretary recognizes an 
accreditor. This includes the types of accrediting activity--
institutional or programmatic, types of degrees or certificates, 
geographic area of accreditation, type of pre-accreditation if any, and 
activities related to distance education, if any. Accreditors may, and 
many do, conduct activities outside their recognized scope of 
accreditation. For example, a number of U.S. accreditors also accredit 
foreign institutions, but as the Secretary's recognition authority is 
limited to U.S. institutions, the Secretary does not evaluate an 
accreditor's activities in relation to the foreign institutions and 
this aspect of an accreditor's activities is not included in the 
agency's recognition.
    The 18 recognition criteria are used to examine an accrediting 
agency's organizational structure and administrative and fiscal 
responsibilities; the agency's standards and their application, 
enforcement and review; and the agency's operations regarding 
monitoring and oversight of its accredited institutions and programs. 
There are also criteria that address an agency's adherence to due 
process, conflict of interest practices, and its practices regarding 
its responsiveness to complaints and the public notice of its 
accreditation decisions.
    An agency's organizational structure is evaluated with a focus on 
the ability of the agency to demonstrate that its accrediting 
activities and decisions are separate and independent from influence by 
related, associated, or affiliated trade or membership organizations.
    The agency must demonstrate its administrative capability to 
conduct its accreditation activities by evidencing the composition and 
competency of staff, evaluators and decisionmakers who are free of 
conflicts of interest. It must also demonstrate its financial viability 
to carry out its accrediting functions.
    The agency must demonstrate that its standards are sufficiently 
rigorous, and adequate to measure the quality of the education and 
training of the institutions or programs it accredits, and that they 
continue to be relevant to the education and training needs of 
students. The areas for which the accreditor must have standards are 
outlined in statute and include an evaluation of curriculum, faculty, 
fiscal/administrative capacity, admissions, recruiting and 
publications, student services, facilities and resources, and the 
institution or program's success with respect to student achievement.
    The agency must demonstrate that its accreditation decisions are 
consistent, based on its published standards, made without conflict of 
interest, that its institutions and programs are provided due process, 
and that the agency has processes for evaluating change and for 
monitoring its accredited institutions or programs.
    Department staff evaluate the written evidence, observe one or more 
accrediting agency activities, such as training sessions, agency 
evaluations of institutions or programs, accreditation decision 
meetings, file reviews, or appeal hearings. From this evaluation and 
observation, the staff draws conclusions of compliance and drafts a 
report of findings that is provided to the agency. The agency then may 
respond with further evidence of its compliance with the criteria.
    A concurrent step in the process, public input, is solicited via 
Federal Register notices inviting comments regarding the agency's 
compliance with the Secretary's criteria.
National Advisory Committee on Institutional Quality and Integrity 
        (NACIQI)
    The final step before reaching the Secretary is a review of the 
agency by the Secretary's National Advisory Committee on Institutional 
Quality and Integrity (NACIQI). This is a 15-member committee 
authorized under the HEA and appointed by the Secretary to advise her 
on matters related to accreditation. This Committee, representative of 
the higher education community, meets twice a year (June and December) 
and, in a public forum, reviews each agency's petition for recognition. 
In preparation for that review, the Committee members are provided all 
agency information and the Department staff analysis of the petition. 
After hearing from Department staff, the agency and any 3rd parties 
present at the meeting, the Committee deliberates and makes a 
recommendation to the Secretary to grant, defer, or deny recognition. 
For accrediting agencies, the period of recognition cannot exceed 5 
years. Decisions on agencies that have outstanding issues may be 
deferred and the agency given a limited window of 12 months in which to 
correct deficiencies. The agency may appeal the Committee's 
recommendation to the Secretary. With or without an appeal, the 
Secretary makes the final decision.
    In conclusion, the Department of Education recognizes 62 
accrediting agencies and 5 State approval agencies as reliable 
authorities of the quality of education provided by postsecondary 
institutions and programs. This recognition process is a critical part 
of the oversight needed on a variety of Federal programs that provide 
access to approximately 90 billion dollars annually by institutions of 
higher education, students, and their families. The recognition process 
is comprehensive and ongoing and includes input from entities both 
internal and external to the Federal government. I hope this 
information is useful to you, Madame Chairwoman, and I would be pleased 
to answer any questions you or any of the other members of the 
Committee may have.

                                 <F-dash>
  Statement of Keith M. Wilson, Director, Education Service, Veterans 
      Benefits Administration, U.S. Department of Veterans Affairs

    Good afternoon, Chairwoman Herseth-Sandlin, Ranking Member Boozman, 
and members of the Subcommittee. I appreciate the opportunity to appear 
before you today to discuss the Department of Veterans Affairs (VA) 
education benefit programs and the role of State Approving Agencies 
(SAAs). My testimony will highlight the vital role of SAAs in ensuring 
that veterans receive the maximum benefit from their educational 
programs. I will specifically address the program services, fraud 
prevention, oversight, and outreach functions of the SAAs, and the 
legislatively mandated funding decrease scheduled to take effect in 
fiscal year 2008.
    VA and the SAAs work together to ensure the successful readjustment 
of veterans to civilian life through educational opportunities. VA 
administers educational assistance, generally in the form of monthly 
benefits, to eligible veterans and dependents, while the SAAs ensure 
the quality of the educational and vocational programs pursued and 
monitor the institutions providing education and training to veterans. 
Title 38 of the United States Code establishes the parameters for the 
relationship.
Role of SAAs
    38 U.S.C. Sec. 3671(a) requests that each state create or designate 
a state department or agency as the ``State Approving Agency.'' The 
SAAs are charged with approving courses in accordance with the 
provisions of chapters 34, 35 and 36 of title 38 U.S.C., including 
apprenticeship programs. They also conduct outreach programs and 
provide outreach services to eligible servicemembers and veterans about 
education and training benefits available. Our relationship is a 
cooperative one and we consider the SAAs to be vital partners in 
fulfilling our mission.
    Under contracts with VA, SAAs ensure that education and training 
programs meet federal VA standards through a variety of approval 
activities, such as evaluating course quality, assessing school 
financial stability, and monitoring student progress. In 2001, the SAAs 
were also given responsibility to actively promote the development of 
apprenticeship and on-the-job training programs and to approve tests 
used for licensing and certification.
    The SAAs maintain regular contact with the educational institutions 
and other program facilities within their jurisdiction, keeping them 
informed of on-going activities and allowing them to monitor the 
institutions compliance with VA's approval standards and enrollment 
restrictions. VA and the SAAs exchange information on activities of 
education institutions, paying particular attention to enforcement of 
approval standards, enforcement of enrollment restrictions, and 
possible fraudulent or criminal activities on the part of persons 
connected with educational institutions where veterans are enrolled. VA 
staff perform compliance site visits at participating institutions 
every three years, while SAA staff conduct site visits at many 
institutions annually. They are a critical component in reducing the 
opportunities for fraud, waste and abuse in the veterans educational 
assistance program.
    While it is true that some of the programs monitored and approved 
by SAAs are also reviewed by the Departments of Education and Labor, 
SAAs approve a number of programs that are not reviewed by other 
agencies. These programs include on-the-job training programs, 
cosmetology and massage training offered by unaccredited schools, and 
apprenticeship programs not approved by the Department of Labor. SAAs 
tend to conduct more frequent on-site monitoring than other 
governmental entities and, for less-established institutions and 
programs, they provide more extensive review to ensure the quality and 
integrity of the veterans' learning experiences.
    The SAAs also assist school certifying officials in understanding 
and complying with the law and regulations governing payment of VA 
educational assistance.
GAO Report
    A recent GAO report, ``VA Student Financial Aid: Management Actions 
Needed to Reduce Overlap in Approving Education and Training Programs 
and to Assess State Approving Agencies'' (GAO-07-384, March 2007), 
contained three major recommendations. First, VA should require SAAs to 
track and report data on resources spent on approval activities such as 
site visits, catalog review, and outreach in a cost-efficient manner. 
Second, VA should collaborate with other agencies to identify any 
duplicative efforts and use the agency's administrative and regulatory 
authority to streamline the approval process. Finally, VA should 
establish outcome-oriented performance measures to assess the 
effectiveness of SAA efforts.
    VA generally agreed with all three recommendations. We are taking 
action to implement the first and third recommendations (resources 
expenditures and outcome-oriented performance measures) in cooperation 
with the National Association of State Approving Agencies (NASAA).
    VA diligently tracks SAA activities. SAAs report their activities 
to us quarterly including the number of programs approved, the number 
of programs disapproved, the number of supervisory visits conducted, 
and the number of outreach activities or visits conducted. However, 
based on the report findings, VA will review current tracking 
mechanisms to further ensure that resource allocation decisions for SAA 
activities are made efficiently and effectively.
    Regarding the second recommendation to collaborate with other 
agencies, we have already met with Department of Labor staff to discuss 
how we can improve our communication processes and coordinate our 
respective activities. We intend to hold similar discussions with the 
Department of Education in the near future.
SAA Performance Evaluation Process
    Public Law 100-323 requires an annual Joint Peer Review Group 
(JPRG) to meet for the purpose of evaluating the performance of the 
individual State Approving Agencies during the preceding fiscal year. 
The JPRG is composed of eight members, four SAA representatives and 
four VA representatives. The President of the National Association of 
State Approving Agencies selects the SAA representatives. The VA 
representatives are the Chief Education Liaison Officers from the four 
Regional Processing Offices located in Buffalo, NY; Muskogee, OK; 
Atlanta, GA; and St. Louis, MO.
    For FY 2006, the JPRG reviewed self-evaluations from 59 SAAs and 
written assessment reports from 50 Education Liaison Representatives 
(ELRs) nationwide. These reports were reviewed by the JPRG to determine 
each SAA's annual performance rating. There are three designated 
ratings: Satisfactory, Minimally Satisfactory or Unsatisfactory. For 
2006, the JPRG assigned the following ratings: two SAAs received an 
``unsatisfactory'' rating, three received a ``minimally satisfactory'' 
rating, and 54 agencies received a ``satisfactory'' rating.
    All SAAs received notices of their ratings in writing. SAAs with 
less than satisfactory ratings received written guidance on how to 
improve their job performance. For one SAA that was rated 
unsatisfactory, a ``mentoring'' relationship was developed with a 
neighboring SAA to improve performance during the remainder of this 
contract year.
Funding for SAAs
    In fiscal year 2006, VA paid approximately $2.1 billion in 
education assistance benefits to more than 470,000 beneficiaries. In 
that year, VA also provided approximately $19 million in funding to the 
SAAs, and will pay a similar amount in fiscal year 2007. For fiscal 
year 2008, the amount of funding for SAAs will decrease to 
approximately $13 million, per section 301 of Public Law 107-330. SAA 
funding is not tied to the Consumer Price Index (CPI) which causes a 
continual erosion of funding for the SAAs.
VA Actions to Mitigate the Impact of the SAA Funding Reduction
    The outreach activities which were added to the SAA's roles in 2001 
may be impacted by the reduction in SAA funding. However, we have taken 
steps to mitigate this impact. Information concerning VA education 
benefits is mailed three times to servicemembers while they are on 
active duty and again at separation. Information is also provided 
annually while veterans are using their education benefits. VA's 
Transition Assistance Program (TAP), as well as benefit briefings for 
demobilizing National Guard and Reserve members, provides information 
on education benefits available to these members. VA has participated 
in the training of the newly created State Benefits Advisors. State 
Benefits Advisors are Department of Defense (DoD) employees located 
within the Adjutant General's office of each state. They assist in the 
dissemination of benefits information to National Guard and Reserve 
units. Despite these efforts, a reduction in SAA funding may negatively 
impact our efforts to promote the use of VA education benefits, 
particularly the promotion of OJT and apprenticeship programs with 
employers. The extent to which these efforts would be impacted is 
difficult to predict.
    We will continue to monitor the performance of SAAs in conducting 
program approvals, fraud prevention, oversight, and outreach. If SAAs 
operating at the new funding levels are unable to perform these 
services, then the Department will reallocate existing VA staff and 
resources to cover the services previously provided by the SAAs. Our 
ultimate concern is always for the effective administration of 
educational benefits to our veterans. If it is determined that 
increased resources are required, appropriate budget requests will be 
made.
    Madame Chairwoman, this concludes my statement. I would be pleased 
to answer any questions you or any of the other members of the 
Committee may have.

                                 <F-dash>
                       SUBMISSIONS FOR THE RECORD

          Statement of Ronald F. Chamrin, Assistant Director,
                  Economic Commission, American Legion

    Chair Herseth Sandlin and members of the Subcommittee, the American 
Legion appreciates this opportunity to share its views on State 
Approving Agencies (SAA) and the impact they have regarding the 
veterans' education benefits.
STATE APPROVING AGENCIES
    The American Legion is deeply concerned with the timely manner that 
veterans, especially returning wartime veterans, receive their 
education benefits. Annually, approximately 300,000 servicemembers 
(90,000 of them belonging to the National Guard and Reserve) return to 
the civilian sector and use their earned education benefits from the 
Department of Veterans Affairs (VA).
    Any delay in receipt of education benefits or approval of courses 
taken at institutions of higher learning can adversely affect a 
veteran's life. There are time restrictions on most veterans' education 
benefits, significantly, the National Guard and Reserve in which they 
must remain in the Selected Reserve to use their earned benefits.
    The American Legion believes that every effort should be made to 
ensure that the Montgomery GI Bill (MGIB) and related veterans' 
education benefits are delivered without problems or delays. 
Furthermore, veterans are unique in that they volunteer for military 
service; therefore, these educational benefits are earned as the thanks 
of a grateful nation. The American Legion believes it is a national 
obligation to provide timely oversight of veterans' education programs 
to assure they are administered in a timely, efficient, and accurate 
manner.
    A recent Government Accountability Office (GAO) Report entitled 
``VA Student Financial Aid; Management Actions Needed to Reduce Overlap 
in Approving Education and Training Programs and to Assess State 
Approving Agencies'' (GAO-07-384) focuses on the need to ``ensure that 
Federal dollars are spent efficiently and effectively.''
    GAO recommends that VA should require SAA to track and report data 
on resources spent on approval activities, such as site visits, catalog 
review, and outreach in a cost-efficient manner. The American Legion 
agrees. Additionally, GAO recommended that VA establish outcome-
oriented performance measures to assess the effectiveness of SAA 
efforts. The American Legion fully agrees. In response, VA Deputy 
Secretary Mansfield plans to establish a working group with SAA to 
create a reporting system for approval activities and develop outcome-
oriented measures with a goal of implementation in the FY 2008 budget 
cycle.
    Finally, GAO recommended that VA should collaborate with other 
agencies to identify any duplicate efforts and use the agency's 
administrative and regulatory authority to streamline the approval 
process. The American Legion agrees. VA Deputy Secretary Mansfield 
responded that VA will initiate contact with appropriate officials at 
the Departments of Education and Labor to help identify any duplicate 
efforts.
    SEC. 301 of PL 107-330 created increases in the aggregate annual 
amount available for state approving agencies for administrative 
expenses from FY 2003-FY 2007 to the current funding level of $19 
million. The American Legion fully supports reauthorization of SAA 
funding.
    The American Legion opposes the President's budget request for SAA 
funding at just $13 million for FY 2008. The American Legion believes 
this is totally inadequate, especially for a nation at war, and 
strongly recommends keeping SAA funding at $19 million in FY 2008 to 
assure current staffing and activities.
SERVICES TO VETERANS
    State Approving Agencies have the function of ensuring that 
qualified educational institutions and vocational training 
establishments (offering apprenticeship and other on-the-job training) 
meet and maintain acceptable approval standards for enrollment of 
eligible VA educational beneficiaries. State Approving Agencies 
currently provide qualified personnel with extensive knowledge in 
education administration and a full understanding of the laws and 
regulations that govern VA education benefits.
    Receiving earned educational benefits under the Montgomery GI Bill 
usually takes 30 days. For veterans previously enrolled, current law 
authorizes VA to backdate the approval for up to one year, depending on 
the start date of the veteran's training. This usually covers most 
delays in the approval process.
    After receipt of the veteran's original visit and submission of the 
approval package, SAA will request annual updates of the approval 
package. This is required when the school publishes a new catalog. 
Also, for veterans enrolled for the fiscal year (October-September), 
SAA will conduct an annual supervisory visit to the learning facility 
to check veterans' records. The approval to train an eligible veteran 
is strictly voluntary on the part of the training facility and can be 
withdrawn upon the participating veteran's request at any time.
    State Approving Agencies operate under contract with VA. As such, 
SAA have their foundations in Federal law, Title 38, United States Code 
(USC). SAA operate as part of the government of the State and maintain 
the State's authority to approve or disapprove veterans' education and 
training programs. They also serve to prevent abuses and promote 
equality in veterans' education by evaluating and monitoring education 
and training programs.
    The Code of Federal Regulations [38 CFR 21.4151(b)] summarizes SAA 
responsibilities:

    <bullet>  to inspect and supervise schools and training 
establishments within the State,
    <bullet>  to determine those programs of education and training 
which may be approved for veterans and other eligible students,
    <bullet>  to determine whether a school or training establishment 
at all times complies with established standards relating to the 
approved programs, and
    <bullet>  to render services and obtain information necessary for 
VA to approve or disapprove programs offered by any agency or 
instrumentality of the Federal government within the State.

    The USC further requires SAA to cooperate with VA and pay 
particular attention:

    <bullet>  to enforcing approval standards,
    <bullet>  to enforcing enrollment restrictions, and
    <bullet>  to identifying fraudulent and other criminal activities 
by persons connected with educational institutions and training 
establishments where veterans are enrolled.

    As a part of the State government, SAA are also responsible for 
enforcing standards set by the various branches and licensing agencies 
of the State.
    For eligible veterans to receive their Montgomery GI Bill education 
benefits, they must be matriculated in a SAA approved program, and 
attend training during a period of time (semester, term, etc.) under 
which the training has been approved. It is the responsibility of the 
institution to maintain current approvals. SAA assist institutions with 
maintaining updated program information and approval. Institutions are 
required to send SAA four copies of the catalog every time a new 
edition is published, or at least once every three years. Institutions 
are also expected to keep the SAA informed on a change of ownership, 
change in policy, new programs, program changes, and current or 
projected term dates.
VETERANS' HIGHER EDUCATION ADVOCACY
    For such an important benefit, the ratio of support to overall 
benefit SAA provides to America's veterans is quite astonishing. In 
this current era of high speed Internet and electronic data sharing, 
the temptation to believe the need for staff is dwindling, especially 
as advanced technology is increasing. However, The American Legion 
believes that personal interaction is imperative and cannot be 
replaced.
    The American Legion believes on-site visits to institutions of 
higher learning and vocational training facilities, interface with 
school officials, and one-on-one personal interaction with veterans is 
irreplaceable.
    SAA act as monitors or ``watchdogs'' to higher education academia 
in that by SAA very presence helps to assure that veterans are being 
afforded the same opportunities compared to the larger non-veteran 
student population. Our country's history has not always been kind and 
welcoming to recently separated veterans into the classroom. Through 
the tireless efforts of veterans' advocates and other interest groups, 
such as SAA, higher education has gained valuable insight and now seems 
to welcome veterans into their culture. SAA continue to be visible 
instruments of veterans' advocacy and any diminishing of their presence 
would adversely affect currently enrolled veterans, as well as future 
generations of veterans.
    The American Legion recognizes the importance to assure that 
veterans' education programs are beneficial to veterans and not just 
universities, colleges, and vocational training facilities. 
Administrators and other educational officials are constantly striving 
to morph, advance, expand, and explore new avenues of research and 
education, but must never forget the veterans' portion of their student 
population. SAA oversee and inform universities, on-the-job-training 
and apprenticeship programs when their courses do not meet the required 
standards for entitlement to veterans' education benefits.
    Interpersonal relationships between SAA staff and veterans ensure 
that an individual enters a program that will lead to productive 
educational and/or developmental goals. Also, notification of changes 
in veterans' benefits, in addition to technical assistance for 
education, is relayed from SAA officials to veterans. Students are 
usually so engrossed in collegiate activities that they are too busy to 
know events outside of scholastic life. Acting as veterans' counselors, 
SAA fill an important role in the lives of veterans utilizing their 
earned educational benefits.
INCREASE IN USE OF VETERANS' EDUCATION BENEFITS
    Starting in 2001, the total use of education benefits by veterans 
continues to increase. The following graphs reflect the changes from 
2001-2006. Chart 1 shows the increasing trend in usage of all VA 
education benefits programs. Chart 2 shows the increasing trend of the 
MGIB.

[GRAPHIC] [TIFF OMITTED] T5634A.003


[GRAPHIC] [TIFF OMITTED] T5634A.004


    In FY 2006, approximately 470,000 individuals received education 
benefits. This equates to approximately 3 million courses taken by 
veterans. Such an astronomical number for such a minute unit of 
measurement emphasizes the importance of timely and accurate oversight 
of VA's education benefits.
    The National Association of State Approving Agencies (NASAA) states 
that there are currently 200,000 approved programs. These programs are 
evaluated on a rotational basis, with new, old, and failed programs 
contributing to their tally.
    With the current increasing rate of eligible veterans and the 
increasing quantity of discharged veterans, the need for assistance and 
implementation of all elements of veterans' benefits will continue to 
rise. At the very least, maintaining the current level of SAA programs 
and staff will provide a baseline for oversight of VA's education 
programs.
CONCLUSION
    Historically, The American Legion has encouraged the development of 
essential benefits to help attract and retain servicemembers into the 
Armed Services, as well as to assist them in making the best possible 
transition back to the civilian community. The Servicemen's 
Readjustment Act 1944, the ``GI Bill of Rights'' is a historic piece of 
social legislation, authored by The American Legion, that enabled 
millions of veterans to purchase their first homes, to attend college, 
obtain vocational training, receive quality health care and start 
private businesses.
    The role from SAA is especially critical in providing wise counsel, 
moral support and technical expertise in the seamless transition from 
honorable military service to classroom academics. In a time of war, 
every effort to promote and facilitate the use of veterans' education 
benefits must be a national priority.
    The American Legion believes that honorable military service, 
combined with improved education and vocational training opportunities, 
enhances an individual, increases diversity, and betters society as a 
whole. The education pillar is continuous and ever evolving. 
Diminishment in support for education and ability to gain knowledge for 
veterans will harm the nation as a whole, decrease the ability to 
recruit new servicemembers, and unfairly subject veterans to barriers 
of benefits that they have earned.
    State Approving Agencies are instrumental in the education process. 
The American Legion fully supports all efforts to maintain and enhance 
veterans' education benefits and recommends that State Approving 
Agencies remain funded at $19 million in FY 2008.
    The American Legion appreciates the opportunity to present this 
statement for the record.

                                 <F-dash>
               Statement of Jean Avnet Morse, President,
             Middle States Commission on Higher Education,
      on behalf of the Council of Regional Accrediting Commissions

    Mr. Chairman and Members of the Committee, I appreciate the 
opportunity to submit testimony on the issue of whether the work of 
accreditors and state approval agencies (SAAs) overlaps. This issue was 
raised in the March 2007 GAO report on VA Student Financial Aid, and I 
have been asked to comment.
Summary
    Regional accreditors already cooperate with state licensing 
agencies to prevent duplication. It is not likely that accreditors' 
general review of all areas overlaps with the areas relating 
specifically to veterans. The research that would be required into the 
varying practices of 60 accrediting agencies and specific requirements 
for SAAs would probably be extensive.
The Role of Regional and Other Accreditors
    I am the president of the Middle States Commission on Higher 
Education of the Middle States Association of Colleges and Schools. The 
Commission has a membership of more than 500 colleges and universities 
located in Delaware, Maryland, New Jersey, New York, Pennsylvania, the 
District of Columbia, Puerto Rico, the U.S. Virgin Islands, and in 
other countries.
    I am testifying on behalf of the Council of Regional Accrediting 
Commissions, known as C-RAC. It includes the seven U.S. regional 
accreditors that accredit institutions enrolling over 16,000,000 
students. Regional accrediting agencies have assured the quality of 
higher education in the United States for over 100 years, providing 
self-regulation and shared assistance for improving education. For the 
past 50 years, these agencies have supported federal funding functions: 
when an agency is ``recognized'' by the U.S. Department of Education, 
the students of institutions accredited by that agency are eligible for 
federal grants and loans under Title IV of the Higher Education Act.

1. There is not a single type of accreditation review. Although all 
accreditors review the areas required by the Higher Education Act and 
USED regulations, the review varies among 3 different types of 
accreditors within types of accreditors.

    The three types of accreditors are ``regional,'' ``national,'' and 
``specialized.'' Of the 60 accreditors mentioned in the March 2007 GAO 
report, most are specialized accreditors.
    Seven regional accreditors (such as mine--the Middle States 
Commission on Higher Education) accredit only degree-granting 
institutions of higher education. There are over 3,000 regionally 
accredited institutions.
    National accreditors (such as ACCSCT, which was interviewed by the 
GAO) accredit institutions across the U.S. that may or may not grant 
college degrees and that have historically fallen within specific types 
of categories (distance learning, etc.). They are expanding their 
coverage.
    Specialized accreditors accredit specific programs, such as law or 
medicine, rather than whole institutions.
    Some accreditors of each type are ``recognized'' by the U.S. 
Department of Education. These are ``gatekeeper'' accreditors whose 
accreditation allows students at accredited institutions to receive 
federal grants and loans. Unrecognized accreditors are not governed by 
the federal regulations for ``recognized'' accreditors.
    My testimony relates to regional accreditors.

2. Accreditors review and monitor colleges and universities at no cost 
to taxpayers.

    Evaluators, task force members, and other experts virtually 
volunteer their time. A small permanent staff is supported by dues and 
fees. Training and other activities are paid for by attendees.
    Therefore, even if there were overlap between SAAs and accreditors, 
the government would not be paying twice.

3. Accreditors do not typically interact with SAAs.

    The GAO report notes that the reviews conducted by the SAAs and 
accreditors might overlap. However, because accreditors rarely work 
directly with SAAs, it is difficult for us to determine this based upon 
actual experience. When accreditors work with a state agency, it is 
typically its Department of Education (the ``licensing'' agency 
described on p. 10 of the GAO report). (See #6, 7, & 8 below for how 
overlap is prevented between licensing and accreditation.) However, the 
Department of Education only serves as the SAA in 31 states. Even in 
those 31 states, the personnel who handle SAA matters are not always 
the licensing personnel with whom accreditors work.

4. For the six core duties of SAAs described briefly by the GAO on page 
9, a careful review of the statutes and regulations governing SAAs 
would be required to determine how they relate to the federal 
regulations for ``recognized'' accreditors and the actual practices of 
accreditors.

    (a) ``Approval of Programs'': Accreditors approve some, but not all 
programs. The federal criteria for review by ``recognized'' accreditors 
do not relate to veterans.
    (b) ``Visits to Facilities'': Accreditors visit facilities in some, 
but not all, cases. Again, the federal regulations for visits from 
``recognized'' accreditors do not refer specifically to veterans.
    (c) ``Technical Assistance to Individuals at Facilities'': 
Accreditors require that accredited institutions provide student 
support services, but the federal regulations for student services 
requirements by ``recognized'' accreditors do not specifically refer to 
the ``technical assistance to individuals'' required of SAAs.
    (d) ``Outreach'': Accreditors do outreach, but not specifically to 
veterans.
    (e) Liaison with Other Service Providers: Accreditors ``liaise'' 
with other service providers, but my agency's standards to not 
specifically relate to veterans.
    (f) Contract Management: Accreditors review institutional contracts 
in some cases, but probably not in the areas required of SAAs.

5. The GAO states that ``similar categories of standards exist across 
agencies, but the specific standards within each category vary and the 
full extent is unknown.'' This is correct.

    Accreditors certainly address 6 of the 7 areas listed on page 15 of 
the GAO report. However, interests and coverage of state and federal 
agencies differ from those of accreditors. The GAO report gives 
examples of how SAA requirements may exceed those of accreditors (p. 
15).
    Those areas are: student achievement; curricula, program 
objectives, and faculty; facilities, equipment, and supplies; 
recruiting and admissions practices; and record of student complaints.

6. Many states in our region require both initial and ongoing 
accreditation as a pre-condition for licensing institutions of higher 
education.

    This reflects their practice of relying on accreditation to ensure 
compliance and monitoring in areas that states do not evaluate 
themselves. This is done to avoid duplication.

7. Accreditors and state agencies in the Middle States region have also 
established other methods of preventing duplication.

    Middle States convenes periodic meetings with state licensing 
agencies to compare practices and to avoid duplication.
    We invite representatives from state agencies to join our visiting 
teams, in order to prevent duplication.
    Conversely, Middle States' policies state that institutions may 
submit materials prepared for state agencies to satisfy Middle States' 
requirements.
    Thank you for the opportunity to submit testimony about these 
issues.
                   MATERIAL SUBMITTED FOR THE RECORD
                 U.S. Government Accountability Office
                 Report to the Ranking Minority Member,
        Committee on Veterans' Affairs, U.S. Senate, March 2007
 VA STUDENT FINANCIAL AID--Management Actions Needed to Reduce Overlap 
   in Approving Education and Training Programs and to Assess State 
                     Approving Agencies, GAO-07-384
                               __________
                                Contents

Letter

Appendix I_Briefing Slides

Appendix II_Comments from the Department of Veterans Affairs

Appendix III_GAO Contact and Staff Acknowledgements

      Abbreviations

      Education--Department of Education
      IHL--institution of higher learning
      Labor--Department of Labor
      NASAA--National Association of State Approving Agencies
      OJT--on-the-job training
      RPO--regional processing office
      SAA--state approving agency
      SAC--state apprenticeship council
      VA--Department of Veterans Affairs

                               __________
                              U.S. Government Accountability Office
                                                    Washington, DC.
                                                      March 8, 2007

The Honorable Larry E. Craig
Ranking Minority Member
Committee on Veterans' Affairs
United States Senate

Dear Senator Craig:

    In fiscal year 2006, the Department of Veterans Affairs (VA) paid 
approximately $2.1 billion in education assistance benefits to more 
than 470,000 beneficiaries and about $19 million to state approving 
agencies (SAA) to assess whether schools and training programs offer 
education of sufficient quality for veterans to receive VA education 
assistance benefits when attending them. Qualified individuals--
veterans, service persons, reservists, and certain spouses and 
dependents--receive benefits through a number of education assistance 
programs for the pursuit of various types of programs, such as a degree 
program, vocational program, apprenticeship, or on-the-job training. In 
general, these programs must be approved by an SAA in order for 
qualified individuals to receive VA education assistance benefits. 
Under contracts with the VA, SAAs ensure that education and training 
programs meet federal VA standards through a variety of approval 
activities, such as evaluating course quality, assessing school 
financial stability, and monitoring student progress. In fiscal year 
2006, the Department of Veterans Affairs (VA) paid approximately $2.1 
billion in education assistance benefits to more than 470,000 
beneficiaries and about $19 million to state approving agencies (SAA) 
to assess whether schools and training programs offer education of 
sufficient quality for veterans to receive VA education assistance 
benefits when attending them. Qualified individuals--veterans, service 
persons, reservists, and certain spouses and dependents--receive 
benefits through a number of education assistance programs for the 
pursuit of various types of programs, such as a degree program, 
vocational program, apprenticeship, or on-the-job training. In general, 
these programs must be approved by an SAA in order for qualified 
individuals to receive VA education assistance benefits. Under 
contracts with the VA, SAAs ensure that education and training programs 
meet federal VA standards through a variety of approval activities, 
such as evaluating course quality, assessing school financial 
stability, and monitoring student progress.
    The Departments of Education (Education) and Labor (Labor) also 
assess education and training programs for various purposes, primarily 
for awarding student aid and providing apprenticeship assistance. These 
assessments are based, in part, on evaluations against standards set by 
laws and regulations, such as those applicable to accrediting agencies. 
In 2006, under Title IV of the Higher Education Act, Education provided 
nearly $77 billion in student aid in the form of both grants and loans. 
The Department of Education assesses and certifies postsecondary 
institutions for participation in Title IV programs through various 
oversight functions to ensure that these schools meet federal 
administrative and financial requirements and that they are accredited 
and licensed. Similarly, under the National Apprenticeship Act 1937, 
the Department of Labor is authorized to formulate and promote the 
furtherance of labor standards to safeguard the welfare of apprentices. 
To ensure programs comply with federal standards, Labor directly 
registers and oversees apprenticeship programs in less than half of the 
states and has given state apprenticeship The Departments of Education 
(Education) and Labor (Labor) also assess education and training 
programs for various purposes, primarily for awarding student aid and 
providing apprenticeship assistance. These assessments are based, in 
part, on evaluations against standards set by laws and regulations, 
such as those applicable to accrediting agencies. In 2006, under Title 
IV of the Higher Education Act, Education provided nearly $77 billion 
in student aid in the form of both grants and loans. The Department of 
Education assesses and certifies postsecondary institutions for 
participation in Title IV programs through various oversight functions 
to ensure that these schools meet federal administrative and financial 
requirements and that they are accredited and licensed. Similarly, 
under the National Apprenticeship Act 1937, the Department of Labor is 
authorized to formulate and promote the furtherance of labor standards 
to safeguard the welfare of apprentices. To ensure programs comply with 
federal standards, Labor directly registers and oversees apprenticeship 
programs in less than half of the states and has given state 
apprenticeship agencies or councils in the remaining states such 
authority over their own programs.
    Given each agency's role, the potential of duplicative efforts 
among federal agencies has been a congressional concern. In 1995, GAO 
reported on this matter and concluded that there was a substantial 
amount of overlap between the efforts of SAAs and the other federal 
agencies.\1\ In light of continued congressional interest in this 
issue, we have now answered the following questions: (1) What changes 
have occurred in state approving agencies' duties and functions since 
1995? (2) To what extent does the SAA approval process overlap with 
efforts by the Departments of Education and Labor? (3) What, if any, 
additional value do the SAA approval activities bring to VA education 
benefit programs?
---------------------------------------------------------------------------
    \1\ GAO, VA Student Financial Aid: Opportunity to Reduce Overlap in 
Approving Education and Training Programs, GAO/HEHS-96-22 (Washington, 
D.C.: Oct. 30, 1995).
---------------------------------------------------------------------------
    To address all three questions, we reviewed legislation, 
regulations, federal guidance, and other documents relevant to the 
approval processes for education and training programs. We also 
interviewed officials from each of the entities involved in the 
approval processes of VA, Education and Labor. Specifically, we 
interviewed federal officials from VA, Education, and Labor as well as 
officials representing three SAAs, three institutions of higher 
learning (IHL), and state apprenticeship councils in Connecticut, 
Maryland, and Washington. We also interviewed officials from one IHL 
that operates in multiple states and officials from the National 
Association of State Approving Agencies (NASAA), an accrediting agency 
(Accrediting Commission of Career Schools and Colleges of Technology), 
the Connecticut state licensing agency, and three apprenticeship 
programs (in Connecticut, Illinois, and Maryland). We selected 
Connecticut, Washington, Illinois, and Maryland based on VA's 
recommendation of knowledgeable SAA officials, to include both state 
and federally monitored states for apprenticeship programs, and 
geographic diversity. To identify the programs that were approved by 
the Departments of Veterans Affairs, Education, and Labor, we compiled 
and analyzed data on approved programs from each of the three agencies. 
To assess the reliability of the data, we talked with knowledgeable 
officials in each of the agencies, reviewed relevant documentation, and 
performed electronic testing of files. We determined that the data we 
have included in this briefing were sufficiently reliable for this 
purpose. We conducted our work from October 2006 to January 2007 in 
accordance with generally accepted government auditing standards.
    On February 1, 2007, we briefed your office on the results of our 
analysis. This report formally conveys information provided during that 
briefing, which is contained in appendix I. In summary, we reported the 
following findings:

    <bullet>  Since 1995, legislative changes effective in 2001 created 
additional responsibilities for SAAs, including promoting the 
development of apprenticeship and on-the-job training programs, 
providing outreach services, and approving tests for occupational 
licensing.\2\ From fiscal years 2003 to 2006, SAA funding increased 
from $13 million to $19 million to expand services and support the 
additional responsibilities. However, funding is scheduled to decrease 
beginning in fiscal year 2008.
---------------------------------------------------------------------------
    \2\ Veterans Benefits and Health Care Improvement Act of 2000, Pub. 
L. No. 106-419 (2000); and Veterans Education and Benefits Expansion 
Act of 2001, Pub. L. No. 107-103 (2001).
---------------------------------------------------------------------------
    <bullet>  Many education and training programs approved by SAAs 
have also been approved by Education or Labor, and VA and SAAs have 
taken few steps to coordinate approval activities with these agencies. 
In addition, information is not available to determine the amount of 
resources spent on SAA duties and functions, including those that may 
overlap with other agencies and programs.
    <bullet>  SAAs reportedly add value to the approval process for 
education and training programs through (1) a focus on student services 
for veterans and on the integrity of VA benefits, (2) more frequent on-
site monitoring of education and training programs than provided by 
Education or Labor, and (3) assessments and approval of a small number 
of programs that are not reviewed by other agencies. However, VA's lack 
of outcome-oriented performance measures for evaluating SAAs makes it 
difficult to assess the significance of these efforts.

    In conclusion, while VA spends $19 million (less than 1 percent of 
the total benefit amount) to fund SAA duties and functions, it does not 
track the amount it spends on specific SAA activities, especially those 
that may also be performed by other agencies. Without knowing the 
amount of resources spent on specific duties and functions, VA does not 
have all relevant information for making resource allocation decisions 
and cannot determine if it is spending its federal dollars efficiently 
and effectively. In addition, VA, Education, and Labor have various 
standards and processes in place, in part to ensure that federal funds 
are being spent on quality education and training programs. While we 
have identified some overlap in approval efforts across agencies, the 
full extent of the overlap between SAA duties and other agencies' 
oversight efforts is unknown. It is important that VA work with other 
federal agencies to determine how the scope of the approval process 
could be streamlined to reduce overlap and ensure that federal dollars 
are spent efficiently. Finally, it is difficult to assess the 
effectiveness of SAA activities, in part because VA does not have 
outcome measures in place to fully evaluate SAA performance. Evaluating 
the effectiveness of VA's approval process is vitally important in 
order to manage the program and improve program results.
    To help ensure that federal dollars are spent efficiently and 
effectively, we are recommending that the Secretary of the Department 
of Veterans Affairs take steps to monitor SAA spending and identify 
whether any resources are spent on activities that duplicate the 
efforts of other agencies. The extent of these actions should be in 
proportion to the total resources of the program. Specifically:

    <bullet>  VA should require SAAs to track and report data on 
resources spent on approval activities such as site visits, catalog 
review, and outreach in a cost-efficient manner; and
    <bullet>  VA should collaborate with other agencies to identify any 
duplicative efforts and use the agency's administrative and regulatory 
authority to streamline the approval process.

    In addition, we are recommending that the Secretary establish 
outcome-oriented performance measures to assess the effectiveness of 
SAA efforts.
    We provided a draft of this report to officials of the U.S. 
Department of Veterans Affairs for review and comment. In addition, we 
provided a draft of this report to officials of the U.S. Departments of 
Education and Labor for their technical review. In written comments on 
a draft of this report, VA agreed with our findings and recommendations 
and stated that it will (1) establish a working group with the SAAs to 
create a reporting system to track and report data for approval 
activities with a goal of implementation in fiscal year 2008, (2) 
initiate contact with appropriate officials at the Departments of 
Education and Labor to identify any duplicative efforts, and (3) 
establish a working group with the SAAs to develop outcome-oriented 
performance measures with a goal of implementation in fiscal year 2008. 
While VA stated that it will initiate contact with officials at 
Education and Labor to identify duplicative efforts, it also noted that 
amending its administrative and regulatory authority to streamline the 
approval process may be difficult due to specific approval requirements 
of the law. We acknowledge these challenges and continue to believe 
that collaboration with other federal agencies could help VA reduce 
duplicative efforts. In addition, VA may wish to examine and propose 
legislative changes needed to further streamline its approval process.
    Labor provided technical comments and we incorporated them into 
this report where appropriate.
    We are sending copies of this report to relevant congressional 
Committees and other interested parties and will make copies available 
to others upon request. In addition, this report will be available at 
no charge on GAO's Web site at www.gao.gov. If you or your staff have 
any questions about this report, please contact me at (202) 512-7215 or 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4132222e3535260126202e6f262e376f">[email&#160;protected]</a> Contact points for our Offices of Congressional 
Relations and Public Affairs may be found on the last page of this 
report. GAO staff that made major contributions to this report are 
listed in appendix III.

            Sincerely,
                                                    George A. Scott
                                                    Acting Director
                   Education, Workforce, and Income Security Issues

                               __________
                      Appendix I:  Briefing Slides
 VA Student Financial Aid: Management Actions Needed to Reduce Overlap
              in Approving Education and Training Programs
                 and to Assess State Approving Agencies
       Briefing for Staff of Senator Larry Craig, Ranking Member,
          Committee on Veterans' Affairs, United States Senate
                           February 01, 2007
Objectives:
    Since the 1940's, the Department of Veterans Affairs (VA) and its 
predecessor agencies have contracted with state approving agencies 
(SAAs) to assess whether schools and training programs offer education 
of sufficient quality for veterans to receive VA education assistance 
benefits. SAAs are created or designated by state governments but are 
federally funded and responsible for enforcing federal law. Concerns 
have been raised about whether SAA approval activities are duplicative 
of efforts conducted under other federal programs.
    Key questions:

    <bullet>  What changes have occurred in State Approving Agencies' 
duties and functions since 1995.
    <bullet>  To what extent does the SAA approval process overlap with 
efforts by the Departments of Education and Labor?
    <bullet>  What, if any, additional value do the SAA approval 
activities bring to veterans' education benefit programs?
Scope and Methodology:
    To address our key questions, we:

    <bullet>  Reviewed legislation, regulations, federal guidance, and 
other documents relevant to the approval processes for education and 
training programs.
    <bullet>  Compiled and analyzed data on approved programs from the 
Departments of Veterans Affairs, Education, and Labor (DOL).
    <bullet>  Interviewed federal officials from VA, Education, and 
DOL.
    <bullet>  Interviewed officials representing 3 SAAs, 3 institutions 
of higher learning (IHL), and state apprenticeship councils in 
Connecticut, Maryland, and Washington. We also interviewed one IHL that 
operates in multiple states.
    <bullet>  Interviewed officials from the National Association of 
State Approving Agencies (NASAA), an accrediting agency (Accrediting 
Commission of Career Schools and Colleges of Technology), Connecticut 
state licensing agency, and 3 apprenticeship programs (in Connecticut, 
Illinois, Maryland).
    <bullet>  Our work was performed from October 2006 to January 2007 
in accordance with generally accepted government auditing standards.
Summary of Findings:
    <bullet>  Since 1995, legislative changes effective in 2001 created 
additional responsibilities for SAAs, including promoting the 
development of apprenticeship and on the job training programs, 
providing outreach services, and approving tests for occupational 
licensing.
    <bullet>  Many education and training programs approved by SAAs 
have also been approved by Education or Labor and VA and SAAs have 
taken few steps to coordinate approval activities with these agencies.
    <bullet>  SAAs reportedly add value to the approval process for 
education and training programs, but the lack of outcome-oriented 
performance measures makes it difficult to assess the significance of 
their efforts.
Background:
VA Funding for Educational Assistance Programs and SAAs
    <bullet>  In fiscal year 2006, VA provided over $2.1 billion in 
educational assistance benefits to more than 470,000 beneficiaries.
    <bullet>  In the same year, SAAs received $19 million to assess the 
quality of schools and training programs for veterans.


------------------------------------------------------------------------
              Programs *                 Beneficiaries     Expenditures
------------------------------------------------------------------------
Montgomery GI Bill (Chapter 30)                313,766    $1,909,014,605
------------------------------------------------------------------------
Reserve Educational Assistance                  23,747      $151,397,610
 Program (Chapter 1607)
------------------------------------------------------------------------
Educational Assistance for the
 Selected Reserve
  (Chapter 1606)                                65,145       $48,716,031
------------------------------------------------------------------------
Dependents and Survivors Educational
 Assistance
  Program (Chapter 35)                          74,532       $38,787,332
------------------------------------------------------------------------
Veterans Educational Assistance                    575           $59,113
 Program (Chapter 32)
------------------------------------------------------------------------
    Total                                      477,765    $2,147,974,691
------------------------------------------------------------------------
* No payments for the National Call to Service program were made in
  fiscal year 2006.
Source: VA.

VA Educational Assistance Programs:
    <bullet>  Benefits are designed to assist individuals in gaining 
access to postsecondary education or training for a specific 
occupation. Benefits can be used to pursue a degree program, vocational 
program, apprenticeship and on-the-job training.
    <bullet>  Qualified individuals include veterans, service persons, 
reservists, and certain spouses and dependents.
Veteran Enrollment by Program Type in Fiscal Year 2006:
[GRAPHIC] [TIFF OMITTED] T5634A.005


    Source: GAO analysis of VAN enrollment data.

Agencies Responsible for the Approval Process for Education and 
        Training Programs
        [GRAPHIC] [TIFF OMITTED] T5634A.006
        

    Source: GAO Analysis.

VA's Approval Process: Purpose and Responsible Entities
    <bullet>  Purpose--To ensure education and training programs meet 
VA standards for receipt of veteran education assistance benefits.
    <bullet>  Entities, Roles and Responsibilities:
      <bullet>  VA national office oversees the 4 regional processing 
offices (RPOs) and national contract with SAAs.
      <bullet>  RPOs administer the education assistance programs and 
process benefits for veterans.
      <bullet>  SAAs review education and training programs to 
determine which programs should be approved and ensure schools and 
training providers are complying with VA standards.
        <bullet>  Duties and functions--SAAs have 6 core duties: (1) 
Approval of programs, (2) Visits to facilities, (3) Technical 
assistance to individuals at facilities, 
(4) Outreach, (5) Liaison with other service providers, and (6) 
Contract management.
        <bullet>  Structure--60 SAAs exist in the 50 states, the 
District of Columbia, and Puerto Rico. Eight states have two SAAs. SAAs 
are usually part of a state's department of education (31 SAAs). In 
some states, SAAs are organizationally located in other departments 
such as labor (9 SAAs) or veterans' services (19 SAAs).*
---------------------------------------------------------------------------
    * The Washington, DC SAA office is overseen by VA.
---------------------------------------------------------------------------
Education's Approval Process: Purpose and Responsible Entities:
    <bullet>  Purpose--To ensure schools meet federal Education 
standards to participate in the student financial aid programs. As part 
of Education's approval process, the state licensing agencies, 
accrediting agencies, and certain offices within Education are 
responsible for various approval activities.
    <bullet>  Entities, Roles and Responsibilities:

      <bullet>  State licensing agencies grant legal authority to 
postsecondary institutions to operate in the state in which they are 
located. Each of the states has its own agency structure, and each 
state can choose its own set of standards.
      <bullet>  Accrediting agencies develop evaluation criteria and 
conduct peer evaluations to assess whether or not those criteria are 
met by postsecondary institutions. Institutions and/or programs that 
meet an agency's criteria are then ``accredited'' by that agency. As of 
November 2005, there are 60 recognized private accrediting agencies of 
regional or national scope.
      <bullet>  Office of Postsecondary Education evaluates and 
recognizes accrediting agencies based on federal requirements to ensure 
these agencies are reliable authorities as to the quality of education 
or training provided by the institutions of higher education and the 
higher education programs they accredit.
    <bullet>  Office Federal Student Aid determines the administrative 
and financial capacity of schools to participate in student financial 
aid programs, conducts ongoing monitoring of participant schools, and 
ensures participant schools are accredited and licensed by the states.
Labor's Approval Process: Purpose and Responsible Entities:
    <bullet>  Purpose--To establish and promote labor standards to 
safeguard the welfare of apprentices.
    <bullet>  Entities, Roles and Responsibilities:

      <bullet>  Department of Labor establishes standards and registers 
programs that meet the standards. Labor directly registers and oversees 
programs in 23 states but has granted 27 states, the District of 
Columbia, and 3 territories authority to register and oversee their own 
programs, conducted by State Apprenticeship Councils (SACs). Labor 
reviews the activities of the SACs.
      <bullet>  SACs ensure that apprenticeship programs for their 
respective states comply with federal labor standards, equal 
opportunity protections, and any additional state standards.
Objective One: Changes in SAA duties and functions:

Legislative Changes Effective in 2001 Created Additional 
Responsibilities for SAAs, Including Promoting the Development of 
Apprenticeship and On the Job Training Programs, Providing Outreach 
Services, and Approving Tests for Occupational Licensing

    In 2001, SAAs received additional responsibility for:

    <bullet>  Actively promoting the development of apprenticeship and 
on the job training programs.
    <bullet>  Conducting more outreach activities to eligible persons 
and veterans to increase awareness of VA education assistance.
    <bullet>  Approving tests used for licensing and certification, 
such as tests to become a licensed electrician. (For those tests that 
have been approved, veterans can use VA benefits to pay for testing 
fees.)

    From fiscal years 2003 to 2006, SAA funding increased from $13 
million to $19 million to expand services and support the additional 
responsibilities. Funding will begin to decrease in fiscal year 2008.
Objective Two: Overlap in Approval Efforts:

Many Education and Training Programs Approved by SAAs Have Also Been 
Approved by Education or Labor and VA Has Taken Few Steps to Coordinate 
Approval Activities with These Agencies

    <bullet>  Many education and training programs approved by SAAs 
have also been approved by Education and Labor.
    <bullet>  Similar categories of approval standards, such as student 
achievement and institutional capacity (e.g. fiscal stability), exist 
across agencies, but the specific standards within each category vary 
and the full extent of the overlap is unknown.
    <bullet>  VA and SAAs have made limited efforts to coordinate 
approval activities with other federal agencies.
    <bullet>  Information is not available to determine the amount of 
resources spent on SAA duties and functions, including those that may 
overlap with other agencies.

Many Education and Training Programs Approved by SAAs Have Also Been 
Approved by Education And Labor

    69% of all programs approved by SAAs are offered by institutions 
that have been certified by Education.

    <bullet>  78% of SAA approved programs in institutions of higher 
learning (e.g. colleges and universities) have been certified by 
Education.
    <bullet>  64% of SAA approved non-college degree programs are in 
institutions that have been certified by Education.

    Less than 2% of all programs approved by SAAs are apprenticeship 
programs. VA and SAA officials reported that many of these programs 
have also been approved by Labor.

Similar Categories of Standards Exist Across Agencies, but the Specific 
Standards within Each Category Vary and the Full Extent of Overlap is 
Unknown

    Similar categories of standards exist across agencies.\1\





                                                                                                                                                Appren-
                                                                                                                                               ticeship






--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                     SAA \2,3\                                     Education \4\                 Labor
                                              ----------------------------------------------------------------------------------------------------------
                                                                                                                      Federal
       Categories of approval standards                     IHL/NCD non-                    On the                   Standards    Connecticut
                                                 IHL/NCD     accredited   Apprenticeship     job      Education's       for          state
                                                accredited                                 training  certification  accrediting    licensing
                                                                                                                      agencies      agency
--------------------------------------------------------------------------------------------------------------------------------------------------------
Student                                                 X            X             X             X                           X            X           X
  achievement
--------------------------------------------------------------------------------------------------------------------------------------------------------
Curricula, program objectives, and faculty              X            X             X             X            X              X            X           X
--------------------------------------------------------------------------------------------------------------------------------------------------------
Facilities,                                             X            X             X             X                           X            X           X
  equipment,
  and supplies
--------------------------------------------------------------------------------------------------------------------------------------------------------
Institutional                                           X            X                                        X              X            X           X
  objectives,
  capacity, and
  administration
--------------------------------------------------------------------------------------------------------------------------------------------------------
Student support services                                                                                                     X            X
--------------------------------------------------------------------------------------------------------------------------------------------------------
Recruiting and admission                                X            X                                        X              X            X           X
  practices
--------------------------------------------------------------------------------------------------------------------------------------------------------
Record of student complaints                                                                                                 X                        X
--------------------------------------------------------------------------------------------------------------------------------------------------------
Process related requirements (e.g.                      X            X             X             X            X                           X           X
 application requirements)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Source: GAO analysis of VA, Education, and Labor Standards.
Note: GAO constructed these categories to encompass the numerous and broad range of standards used by agencies.


    Specific standards within each category vary across agencies.
---------------------------------------------------------------------------
    \1\ SAA has different sets of standards for each program type (e.g. 
IHL and NCD). Education's approval process involves different sets of 
standards used by different entities, such as accrediting agencies. 
Labor has one set of standards that is applicable to apprenticeship 
programs.
    \2\ By statute, courses must meet certain criteria. These relate 
to: (1) recordkeeping of student progress; (2) recordkeeping of 
students' previous education; (3) quality, content and length of 
courses; (4) qualifications of administrators and instructors; and (5) 
equipment, space, and instructional materials. We categorized the first 
two criteria as student achievement, criteria (3) and (4) as Curricula, 
Program Objectives and Faculty, and criterion (5) as Institutional 
objectives, capacity, and administration.
    \3\ SAA approval requirements for non-accredited courses encompass 
a number of additional criteria, such as having a tuition refund policy 
and enrollment limitations.
    \4\ Connecticut's standards may not be representative of standards 
across the country.

    <bullet>  For example, while VA and Education's approval standards 
have requirements for student achievement, the New England Association 
of Schools and Colleges, an accrediting agency, requires that students 
demonstrate competence in various areas such as writing and logical 
thinking and VA does not have this requirement.
    <bullet>  Also under student achievement, VA requires schools to 
give appropriate credit for prior learning while Education does not 
have such a requirement.

    While agencies have the same standards in some instances, the 
interpretation and application of these standards may differ. For 
examples:

    <bullet>  VA, accrediting agencies, and Labor require that 
facilities have adequate space, equipment and instructor personnel to 
provide quality training, but the definition of adequacy differs in the 
level of specificity.
    <bullet>  VA and accrediting agencies require that schools have 
policies related to student achievement such as minimum satisfactory 
grades, but the requirement differs in the level of specificity.

VA and SAAs Have Made Limited Efforts to Coordinate Approval Activities 
with Education and Labor

    <bullet>  VA reported that while it has coordinated with Education 
and Labor on issues related to student financial aid and apprentices' 
skill requirements, it believes increased coordination is needed for 
approval activities in order to determine the extent of duplicative 
efforts.
    <bullet>  Most of the SAA officials we spoke with reported that 
they have coordinated with SACs to register apprenticeship programs in 
their states.
    <bullet>  Labor reported that it coordinated with VA's national 
office in several instances including providing a list of registered 
apprenticeship programs.
    <bullet>  Education reported that it does not have formalized 
coordination with VA but has had some contacts to inform VA of its 
concerns regarding specific institutions.

Information Is Not Available to Determine the Amount of Resources Spent 
on SAA Duties and Functions, Including Those That May Overlap with 
Other Agencies

    <bullet>  VA does not require SAAs to collect information on the 
amount of resources they spend on specific approval activities.
    <bullet>  The SAA officials we spoke with said that their most time 
consuming activity is conducting inspection and supervisory visits of 
schools and training facilities.
    <bullet>  Lack of data on resource allocation prevented us from 
determining what portion of funds spent by SAAs were for approval 
activities that may overlap with other agencies.

Objective Three: Value of SAA Services:

SAAs Reportedly Add Value to the Approval Process for Education and 
Training Programs, but the Lack of Outcome-oriented Performance 
Measures Makes it Difficult to Assess the Significance of Their Efforts

    <bullet>  SAA and other officials reported that SAA activities add 
value because they provide enhanced services to veterans and ensure 
program integrity.
    <bullet>  VA uses output measures rather than outcome-oriented 
performance measures to evaluate SAA performance and progress.

SAA and Other Officials Reported that SAA Activities Add Value Because 
They Provide Services to Veterans and Ensure Program Integrity

    SAA and Other Officials Reported SAAs' added value includes:

    <bullet>  A focus on student services for veterans and on VA 
benefits;
    <bullet>  More frequent on-site monitoring of education and 
training programs than Education and Labor; and
    <bullet>  Assessments and approval of a small number of programs 
that are not reviewed by other agencies.

The SAA Approval Activities Focus on Student Services for Veterans and 
on VA Benefits

    SAA approval activities:

    <bullet>  Ensure that veterans are taking courses consistent with 
occupational goals and program requirements.
    <bullet>  Ensure that schools and training programs have evaluated 
prior learning and work experience and grant credit as appropriate.
    <bullet>  Ensure that school or program officials know how to 
complete paperwork and comply with policies required by VA educational 
assistance through technical assistance.

    States, schools, and apprenticeship officials we spoke with 
reported that without SAAs, the quality of education for veterans would 
not change; however, their receipt of benefits could be delayed and the 
time required to complete their education and training programs could 
increase.

SAAs Generally Conduct More Frequent On-Site Monitoring of Education 
and Training Programs Than Education and Labor

    Oversight of veterans assistance is generally more frequent than 
oversight by Education and Labor, which may prevent fraud, waste, and 
abuse.

    <bullet>  Some officials reported that SAAs' frequent visits were 
beneficial because they ensure schools properly certify veterans for 
benefits, ensuring that benefits are distributed accurately and 
quickly.
    <bullet>  Officials from one school reported that SAAs' visits were 
unnecessary because many schools are sufficiently monitored by their 
accreditors and Education.


----------------------------------------------------------------------------------------------------------------
                         Entity                                   Frequency of site visits to each school
----------------------------------------------------------------------------------------------------------------
SAA                                                                                                   1-3 years
----------------------------------------------------------------------------------------------------------------
VA's RPOs                                                                                               3 years
----------------------------------------------------------------------------------------------------------------
Education                                                 Only schools that have performance issues are visited
                                                                                                            \1\
----------------------------------------------------------------------------------------------------------------
Accrediting agencies                                                                             2-10 years \2\
----------------------------------------------------------------------------------------------------------------
Labor                                                                                            1-3+ years \3\
----------------------------------------------------------------------------------------------------------------
\1\ Education also performs ongoing monitoring by reviewing schools' annual compliance audits and financial
  statements.
\2\ Accrediting agencies' frequencies vary depending on whether the agency is a national or regional agency.
\3\ Labor--See Registered Apprenticeship Programs: Labor Can Better Use Data to Target Oversight, GAO-05-886
  (Washington D.C.: August 29, 2005).


SAAs Approve a Small Number of Programs that Are Not Reviewed by Other 
Agencies

    SAAs approve a small number of programs that are not reviewed by 
other agencies:

    <bullet>  Programs, such as cosmetology and massage training, 
offered by unaccredited schools.
    <bullet>  On-the-job-training programs.
    <bullet>  Apprenticeship programs not approved by Labor.

VA Uses Output Measures Rather Than Outcome Measures to Evaluate SAA 
Performance and Progress

    Although VA does have some output measures in place, such as the 
number of supervisory visits SAAs conduct, it does not have outcome-
oriented performance measures to evaluate the overall effectiveness and 
progress of SAAs.


----------------------------------------------------------------------------------------------------------------
              Examples of Existing VA Output Measures                  Examples of Potential Outcome Measures
----------------------------------------------------------------------------------------------------------------
Percentage of visits to facilities for supervisory                      Amount of benefit adjustments resulting
  and inspection purposes completed within                            from SAA's review of school certification
  VA specified timeframes                                                                          transactions
----------------------------------------------------------------------------------------------------------------
Number of times technical assistance provided                          Error rate of certification transactions
  to interested parties such as individuals and                                             identified by SAA's
  schools
----------------------------------------------------------------------------------------------------------------
Output Measures: Number of approved                                           Completion rates of beneficiaries
  facilities with approved programs
----------------------------------------------------------------------------------------------------------------
Source: GAO analysis.

Conclusions:
    <bullet>  While VA spends $19 million (less than 1% of total 
benefit amount) to fund SAA duties and functions, it does not track the 
amount it spends on specific SAA activities, especially those that may 
be performed by other agencies. Without knowing the amount of resources 
spent on specific duties and functions, VA does not have all relevant 
information for making resource allocation decisions and cannot 
determine if it is spending its federal dollars efficiently and 
effectively.
    <bullet>  VA, Education, and Labor have various standards and 
processes in place, in part to ensure that federal funds are being 
spent on quality education and training programs. While we have 
identified some overlap in approval efforts across agencies, the full 
extent of the overlap between SAA duties and other agencies' oversight 
efforts is unknown. It is important that VA work with other federal 
agencies to determine how the scope of the approval process could be 
streamlined, such as to determine the extent to which SAAs could rely 
on recognized accreditors' assessments of institutions' policies on 
student achievement to reduce overlap and ensure that federal dollars 
are spent efficiently.

    It is difficult to assess the effectiveness of SAA activities, in 
part because VA does not have outcome measures in place to fully 
evaluate SAA performance, such as the outcomes of site visits. Under 
the Government Performance Results Act, federal agencies must report on 
their results in achieving their agency program goals. Outcome-oriented 
performance measures are should be used to assess program activity. 
Evaluating the effectiveness of VA's approval process is vitally 
important in order to manage the program and improve program results.
Recommendations for Executive Action:
    To help ensure that federal dollars are spent efficiently and 
effectively, we are recommending that the Secretary of the Department 
of Veterans Affairs take steps to monitor its spending and identify 
whether any of its resources are spent on activities that duplicate the 
efforts of other agencies. The extent of these actions should be in 
proportion to the total resources of the program. Specifically:

    <bullet>  VA should require SAAs to track and report data on 
resources spent on approval activities such as site visits, catalog 
review, and outreach in a cost-efficient manner.
    <bullet>  VA should collaborate with other agencies to identify any 
duplicative efforts and use the agency's administrative and regulatory 
authority to streamline the approval process.

    In addition, we are recommending that the Secretary establish 
outcome--oriented performance measures to assess the effectiveness of 
SAA efforts.
                               __________
     Appendix II:  Comments from the Department of Veterans Affairs

                           The Deputy Secretary of Veterans Affairs
                                                     Washington, DC
                                                  February 27, 2007

Mr. George Scott
Acting Director
Education, Workforce, and Income Security Issues
441 G Street, NW
Washington, DC 20548

Dear Mr. Scott:

    The Department of Veterans Affairs (VA) has reviewed the Government 
Accountability Office's (GAO) draft report, VA Student Financial Aid: 
Management Actions Needed to Reduce Overlap in Approving Education and 
Training Programs and to Assess State Approving Agencies (GAO-07-384). 
VA agrees with your findings and concurs with your recommendations. The 
enclosure details VA's actions to implement Government Accountability 
Office's recommendations.
    I appreciate the opportunity to comment on your draft report.

            Sincerely Yours,
                                                Gordon H. Mansfield
Enclosure
                  Department of Veterans Affairs (VA)
         Comments to the Government Accountability Office (GAO)
  Draft Report, VA Student Financial Aid: Management Actions Needed to
   Reduce Overlap in Approving Education and Training Programs and to
                    Assess State Approving Agencies
                              (GAO-07-384)
        To ensure that federal dollars are spent efficiently and 
        effectively, GAO recommends that the Secretary of the 
        Department of Veterans Affairs take steps to monitor its 
        spending and identify whether any of its resources are spent on 
        activities that duplicate the efforts of other agencies. The 
        extent of these actions should be in proportion to the total 
        resources of the program. Specifically:

          <bullet>  VA should require SAAs to track and report data on 
        resources spent on approval activities, such as site visits, 
        catalog review, and outreach in a cost-efficient manner.

Concur--VA will establish a working group with the SAAs to create a 
reporting system for approval activities with a goal of implementation 
in the FY08 budget cycle.

          <bullet>  VA should collaborate with other agencies to 
        identify any duplicate efforts and use the agency's 
        administrative and regulatory authority to streamline the 
        approval process.

Concur--VA will initiate contact with appropriate officials at the 
Department of Education and Labor to identify any duplicative efforts. 
However, amending the agency's administrative and regulatory authority 
to streamline the approval process may be difficult due to the specific 
approval requirements of the law.

          <bullet>  VA should establish outcome-oriented performance 
        Measures to assess the effectiveness of SAA efforts.

Concur--VA will establish a working group with the SAAs to develop 
outcome-oriented measures with a goal of implementation in the FY08 
budget cycle.
                               __________
          Appendix III:  GAO Contact and Staff Acknowledgments

GAO Contact: George A. Scott (202) 512-7215 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6f1c0c001b1b082f080e004108001941">[email&#160;protected]</a>

Staff Acknowledgments: In addition to the contact named above, Heather 
McCallum Hahn, Assistant Director, Tranchau T. Nguyen, Jacqueline 
Harpp, Cheri Harrington, Richard Burkard, Susannah Compton, John 
Mingus, and Jim Rebbe made key contributions to this report.

                                 <F-dash>

                   National Association of State Approving Agencies
                                                      Winthrop, ME.
                                                     April 27, 2007

The Honorable John Boozman
United States House of Representatives
1519 Longworth House Office Building
Washington, DC 20515

Congressman Boozman:

    Thank you for the opportunity to discuss the functions of State 
Approving Agencies (SAAs) and other related issues. We appreciate your 
support of SAAs and look forward to working with you on the funding 
issue so that we can continue to provide the kind of service that our 
nation's veterans deserve.
    During the hearing on April 19th you asked us to provide further 
detail on the matrix that is located on page 20 of the recent GAO 
report. We are in the process of expanding the matrix and expect to be 
able to provide this information to you in a couple of weeks.
    We also would like to take this opportunity to supplement the 
response to the question that you posed during the hearing about the 
differences in approval activities. We provide this information because 
the issue of differences or overlap appears to be critical in the 
analysis of the value of State Approving Agencies to the success of the 
``GI Bills.'' We respectfully request that this supplemental 
information be officially entered into the Congressional record of the 
proceedings connected to the hearing and therefore, have submitted the 
information as an enclosure to this letter. We are prepared to submit 
an electronic copy of the enclosure and meet any other requirements as 
well.
    Thank you again for your interest in and support of State Approving 
Agencies. Thank you also in advance for accepting and placing into the 
record the enclosed supplemental information in response to your 
question about differences in approval activities.

            Sincerely,
                                                  C. Donald Sweeney
                                               Legislative Director
C:
   Chairwoman Herseth Sandlin
   Congressman Donnelly
   Congressman Hall
   Selected Congressional Staff

                                 <F-dash>
                 SUPPLEMENTAL STATEMENT FOR THE RECORD
              IN SUPPORT OF RESPONSE TO QUESTION ASKED BY
                        CONGRESSMAN JOHN BOOZMAN
        AT HEARING ON STATE APPROVING AGENCIES ON APRIL 19, 2007
                PROVIDED BY JOAN RYAN AND DONALD SWEENEY
            NATIONAL ASSOCIATION OF STATE APPROVING AGENCIES
                             APRIL 27, 2007
 Question--Provide details of how State Approving Agencies differ from 
              other agencies performing similar functions.
Preface--The following comments are limited to a comparison between the 
approval activities of State Approving Agencies (SAAs) for 
institutional programs and accreditation which is the primary component 
of the certification process used by the federal Department of 
Education for Title IV, Student Financial Aid. The comments are limited 
to this comparison because the majority of veterans using GI Bill 
benefits are enrolled in programs at accredited educational 
institutions and the differences between the work of State Approving 
Agencies and accrediting agencies appear to be the area of greatest 
misunderstanding. The comments are further limited to a comparison 
between regional accreditation and SAAs due to the fact that the vast 
majority of veterans are enrolled in programs that fall under this type 
of institutional accreditation.

    1.  SAAs are under contract with the VA and are state governmental 
entities.

       Regional accrediting agencies are voluntary, private sector 
organizations.

    2.  The SAA process is a quality control mechanism, protecting the 
veteran and taxpayer. SAAs have the authority to approve or disapprove 
within a reasonably short period of time.

       Accrediting agencies are a quality enhancement process. ``They 
cannot mandate compliance or control behavior except by persuasion and 
peer influence.'' ``The accreditation process is designed primarily to 
encourage and assist the institution to evaluate itself objectively and 
then for the accrediting body to validate what the institution has said 
about itself.''

    3.  SAAs review and reevaluate programs for compliance with 
approval criteria every year or two.

       Regional accrediting agencies re-evaluate institutions as a 
whole, not each specific program, generally once every 10 years for 
established institutions with a 5-year interim report submitted by the 
institution to the accrediting agency.

    4.  Although not a perfect analogy and without consideration to the 
frequency of re-evaluations for established institutions (2 years 
versus 10), the two processes could be compared to a real estate 
salesperson who lives a few towns away from the location of the home 
that they are selling and the home inspector that lives in the town 
where the home is located.

       The salesperson's responsibilities are to describe the home as 
reported by the homeowner and to conduct a review to ensure that the 
statements made by the homeowner appear to be factual. The home is a 22 
year old, two story modified cape with one and a half baths, three 
bedrooms, wood siding, asphalt shingled roof, baseboard hot water heat, 
100 amp electrical service, 200 foot drilled well, on site septic 
system with leaching field and a two car garage. The home is located on 
one and half acres and was recently painted inside and out. It is 
aesthetically appealing.

       The home inspector will be able to determine that the life 
expectancy of the boiler is twenty-five years and that since the home 
is located in a cold climate, has 2 by 4 studs and blown in insulation, 
the boiler is probably due for replacement. The inspector can also 
determine that carpenter ants have eaten away the sills on one side of 
the home which will need to be replaced along with one floor joist, 
some sheathing and siding. Although recently painted, some of the lower 
wood siding on another side of the home has sustained water damage and 
should be replaced before further damage occurs. Although the owner has 
said that there has never been any water in the basement, the inspector 
sees lime stains on the basement walls approximately 3 inches from the 
floor which could indication some seepage from the high water table in 
the area and the potential for water damage later, the installation of 
a sub pump is advisable. When inspecting the roof from the attic, the 
inspector sees water stains on one of the roof rafters and leakage 
around the chimney that has led to some damage to the sheetrock sealing 
over one of the bedrooms that is currently not visible from the inside 
of the room. This leakage has the potential to cause greater damage if 
not repaired soon. The inspector finds that the septic tank has not 
been pumped for almost 10 years which means that the leaching field may 
have sustained some damage so a qualified technician should be 
consulted, especially since the area has a high water table throughout 
the entire year.

       We could go on, but hopefully the comparison is helpful to a 
better understanding the differences between the evaluative activities 
of SAAs and accreditation which is the heart of the DOE process.

In conclusion, we disagree with the GAO statements that many programs 
approved by SAAs are already approved by the Department of Education 
and the statement that SAAs approve a small number of programs that are 
not reviewed by other agencies. From these erroneous conclusions, the 
GAO then implies that there is significant overlap in the approval 
functions. We disagree.

Even if one assumes that there is considerable overlap between the SAA 
approval process and regional accreditation (which there is not), this 
overlap will occur every 10 years. The institution submits an interim 
report to the accrediting agency at the five-year point, but unless the 
agency sees a problem in the report--there is no further review or 
investigation--the report is filed. Beyond the fact that a 10-year 
cycle does not provide adequate opportunity for the VA or SAAs to 
ensure that the requirements of Title 38 are being met, is this really 
the kind of service that we want to give to our veterans? Who will 
respond to veterans' requests for detailed information on approved 
programs and requests to evaluate new programs of education and 
training? Who will work with school officials to ensure that veterans 
receive credit for prior learning and advanced standing at the 
institution and are meeting the requirements of Title 38 for proper 
payment of benefits? Who will provide training to school officials on 
VA certification procedures and other relevant matters? These are just 
a few of the questions that are pertinent to the work of SAAs with 
educational institutions.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
